No. ___________
IN THE

Supreme Court of the United States
JOHNNY DUANE MILES,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.
On Petition for a Writ of Certiorari
to the Supreme Court of California
PETITION FOR WRIT OF CERTIORARI
CLIFF GARDNER*
1448 San Pablo Ave.
Berkeley, CA 94702
(510) 524-1093
casetris@aol.com
*Counsel of Record
Counsel for Petitioner
Johnny Duane Miles
December 10, 2020

SHERRILYN A. IFILL
Director-Counsel
JANAI S. NELSON
SAMUEL SPITAL
NAACP LEGAL DEFENSE &
EDUCATIONAL FUND, INC.
40 Rector Street, 5th Floor
New York, NY 10006
Additional counsel
on inside cover

CHRISTOPHER KEMMITT
MAHOGANE D. REED
NAACP LEGAL DEFENSE &
EDUCATIONAL FUND, INC.
700 14th St. NW, Suite 600
Washington, DC 20005

i
QUESTIONS PRESENTED
During jury selection for Johnny Duane Miles’s
capital murder trial, the prosecutor used his
peremptory challenges to remove every Black
prospective juror from the main panel, including
Simeon Greene—a Black man with pro-prosecution
views. Defense counsel objected that the State had
removed Mr. Greene because he was Black, and the
trial court ruled that defense counsel had presented a
sufficient prima facie case of discrimination. The
prosecutor then proffered three justifications for
striking Mr. Greene, and the trial court overruled
defense counsel’s objection.
On appeal, Mr. Miles argued—relying on
Miller-El v. Dretke, 545 U.S. 231, 241 (2005)—that the
trial court erred in accepting the prosecutor’s
justifications because they were pretextual. Among
other evidence of pretext, Mr. Miles pointed to a
comparative juror analysis that showed the
prosecutor had accepted non-Black jurors who
provided answers like Mr. Greene’s. The California
Supreme Court agreed with Mr. Miles that some of
the prosecutor’s stated reasons for striking Mr.
Greene also applied to three non-Black jurors whom
the prosecutor did not strike. But the court rejected
the probative value of these comparisons based on two
longstanding California doctrines. First, the court
ruled that one of the comparisons lacked probative
value because the prosecutor may have decided to
keep the seated juror for a reason that the prosecutor
had not proffered. Next, the court ruled that the two

ii
remaining comparisons lacked probative value
because those jurors had not provided answers that
matched the prosecutor’s other justifications for
striking Mr. Greene. Based on these rulings, the court
rejected Mr. Miles’s jury discrimination claim and
affirmed his conviction and death sentence.
The questions presented on appeal are:
1. Whether a court reviewing a Batson claim may
consider reasons distinguishing stricken jurors from
those accepted by the prosecutor when the prosecutor
did not cite the distinguishing reason in the trial court
as a basis for the strike?
2. Whether, for purposes of comparative
analysis, the jurors being compared must
expressed the same combination of responses
material respects for the comparison to
significant probative value?

juror
have
in all
have

iii
LIST OF PARTIES AND CORPORATE
DISCLOSURE STATEMENT
Johnny Duane Miles is the Petitioner in this
case and was represented in the court below by Cliff
Gardner and Catherine White. The State of California
is the Respondent in this case and was represented in
the court below by the California Attorney General’s
Office and Deputy Attorney General Seth M.
Friedman. Pursuant to Rule 29.6, Petitioner states
that no parties are corporations.
RELATED PROCEEDINGS
People v. Miles, No. S086234, California
Supreme Court. Judgment entered on May 28, 2020.
People v. Miles, No. FSB09438, San Bernardino
County Superior Court. Judgment entered March 17,
1999.

iv
TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED ....................................... i
LIST OF PARTIES AND CORPORATE
DISCLOSURE STATEMENT .................................. iii
RELATED PROCEEDINGS ..................................... iii
TABLE OF AUTHORITIES ..................................... vi
OPINIONS BELOW ....................................................1
JURISDICTION ..........................................................1
RELEVANT CONSTITUTIONAL PROVISION........1
STATEMENT OF THE CASE ....................................2
I.

Trial Court Proceedings: The Trial Court
Accepts the State’s Implausible and
Pretextual Explanations for Striking
Prospective Juror Simeon Greene. ....................4

II.

The Trial: Mr. Miles Is Tried, Convicted,
and Sentenced to Death. ....................................8

III. Appellate Proceedings: The California
Supreme Court Repeatedly Contravenes
This Court’s Decisions in Miller-El v.
Dretke and Flowers v. Mississippi and
Erroneously
Affirms
Mr.
Miles’s
Convictions. ........................................................9
REASONS FOR GRANTING THE WRIT................17

v
I.

By Considering New Reasons on Appeal
for Distinguishing Jurors Struck by the
State From Those Accepted by the State,
The California Supreme Court’s Decision
Conflicts With This Court’s Binding
Precedent and Exacerbates an Existing
Circuit Split. .....................................................17

II.

For the Past Fourteen Years, The
California
Supreme
Court
Has
Contravened Miller-El and Refused to
Accord Significant Weight to Any
Comparative Juror Analysis Unless the
Jurors Being Compared All Provided the
Same Responses Cited by the Prosecutor
to Justify the Strike..........................................28

CONCLUSION ..........................................................38
Index to Appendix
APPENDIX A, Opinion and Judgment in the
California Supreme Court (May 28, 2020) ........ App. 1
APPENDIX B, Transcript, Batson Hearing
Before Hon. James A. Edwards, San
Bernardino County Superior Court (Nov. 19,
1998) ............................................................... App. 182
APPENDIX C, Order from the California
Supreme Court, Rehearing En Banc Denied
(July 15, 2020) ................................................ App. 192

vi
TABLE OF AUTHORITIES
PAGE(S)
CASES
Armstrong v. California,
140 S. Ct. 485 (2019)............................................29
Batson v. Kentucky,
476 U.S. 79 (1986) ..................................................1
Chamberlin v. Fisher,
885 F.3d 832 (2018) (en banc) .............................27
Flowers v. Mississippi,
139 S. Ct. 2228 (2019) .................................. passim
Foster v. Chatman,
136 S. Ct. 1737 (2016) ........................ 16, 31, 33, 34
Hardy v. California,
139 S. Ct. 917 (2019)............................................33
Hernandez v. New York,
500 U.S. 352 (1991) (plurality
opinion).................................................................35
Love v. Cate,
449 F. App’x 570 (9th Cir. 2011) .........................27
Miller-El v. Dretke,
361 F.3d 849 (5th Cir. 2004)................................22
Miller-El v. Dretke,
545 U.S. 231 (2005) ...................................... passim

vii
TABLE OF AUTHORITIES
(CONTINUED)
PAGE(S)
CASES
People v. Armstrong,
6 Cal. 5th 735, reh’g denied (Mar.
20, 2019), cert. denied .............................. 29, 33, 34
People v. DeHoyos,
57 Cal. 4th 79 (2013)............................................33
People v. Hardy,
5 Cal. 5th 56 (2018), reh’g denied
(July 18, 2018), cert. denied .................................33
People v. Jurado,
38 Cal. 4th 72 (2006).......................... 28, 29, 31, 32
People v. Melendez,
2 Cal. 5th 1 (2016)................................................33
People v. Miles,
9 Cal. 5th 513 (2020)..............................................1
People v. Watson,
43 Cal. 4th 652 (2008)..........................................32
People v. Winbush,
2 Cal. 5th 402 (2017)................................ 29, 31, 32
Snyder v. Louisiana,
552 U.S. 472 (2008) ............................ 16, 25, 31, 33

viii
TABLE OF AUTHORITIES
(CONTINUED)
PAGE(S)
CASES
State v. Marlowe,
89 S.W.3d 464 (Mo. 2002) (en banc) ....................27
United States v. Taylor,
636 F.3d 901 (7th Cir. 2011)................................27
RULES & CONSTITUTIONS
Sup. Ct. R. 10(a) ........................................................28
Sup. Ct. R. 10(c) ........................................................26
U.S. Const. amend. XIV ..............................................1
OTHER AUTHORITIES
Elisabeth Semel et al., Whitewashing
the Jury Box (June 2020) .....................................37
Thomas Ward Frampton, The Jim Crow
Jury, 71 Vand. L. Rev. 1593 (2018) .....................25

PETITION FOR WRIT OF CERTIORARI
Petitioner Johnny Duane Miles prays that a
writ of certiorari be granted to review the judgment of
the Supreme Court of California entered in People v.
Miles, Case No. S086234, decided May 28, 2020.
OPINIONS BELOW
The opinion of the Supreme Court of California
affirming Mr. Miles’s conviction and death sentence
on direct appeal, People v. Miles, 9 Cal. 5th 513 (2020),
is attached as Appendix A, App. 1-181. The transcript
section in which the San Bernardino County Superior
Court denied Mr. Miles’s objection under Batson v.
Kentucky, 476 U.S. 79 (1986), is attached as Appendix
B, App. 182-191. The order of the Supreme Court of
California denying rehearing is attached as Appendix
C, App. 192.
JURISDICTION
The Supreme Court of California affirmed Mr.
Miles’s conviction and death sentence on May 28,
2020, and denied Mr. Miles’s timely petition for
rehearing on July 15, 2020. This Court has
jurisdiction under 28 U.S.C. § 1257(a).
RELEVANT CONSTITUTIONAL PROVISION
U.S. Const. amend. XIV
No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process

2
of law; nor deny to any person within its jurisdiction
the equal protection of the laws.
STATEMENT OF THE CASE
“In the decades since Batson [v. Kentucky, 476
U.S. 79 (1986)], this Court’s cases have vigorously
enforced and reinforced [Batson], and guarded
against any backsliding.” Flowers v. Mississippi, 139
S. Ct. 2228, 2243 (2019) (citations omitted). But the
California Supreme Court’s cases have not. Since
1992, the California Supreme Court has reviewed 135
cases in which the trial court denied Batson
challenges. It has reversed two. And since 1987—the
year after this Court decided Batson—the California
Supreme Court has rejected every single Batson
challenge involving a Black prospective juror. The
situation has grown sufficiently dire that the
dissenting justice below stated, “[i]t is past time to ask
whether the Batson framework, as applied by this
court, must be rethought in order to fulfill the
constitutional mandate of eliminating racial
discrimination in jury selection.” App. 168.
California’s inoperable Batson regime stems
largely from its repeated contravention of this Court’s
comparative juror analysis case law. Comparative
juror analysis refers to the practice by which courts
compare whether “a prosecutor’s proffered reason for
striking a black panelist applies just as well to an
otherwise-similar nonblack [person] who is permitted
to serve.” Miller-El v. Dretke, 545 U.S. 231, 241
(2005). It is a powerful tool for ferreting out jury
discrimination and has been central to every Batson

3
reversal in this Court since 2003. Yet the California
Supreme Court has not ruled that a comparative juror
analysis supports reversal in three decades.
The decision below is illustrative. The majority
viewed Mr. Miles’s Batson claim as a “close” call, see
App. 71, but rejected it because of two longstanding
California doctrines that govern comparative juror
analysis. First, the court rejected a comparison
between a Black juror whom the prosecutor struck
and a white juror that the prosecutor accepted based
on a distinguishing factor that the prosecutor never
cited as a reason for the strike. In so doing, the court
flouted Miller-El’s requirement that a comparative
juror analysis must “stand or fall on the plausibility
of the [prosecutor’s explanations].” 545 U.S. at 252. As
this Court explained, if the prosecutor’s “stated
reason does not hold up, its pretextual significance
does not fade because … an appeals court[] can
imagine a reason that might not have been shown up
as false.” Id.
Second, the majority acknowledged that the
prosecutor had cited another reason for striking the
same Black juror that applied equally well to two nonBlack jurors. But it rejected that comparison because
the prosecutor had cited three reasons for striking the
Black juror, and the three reasons did not all apply to
the non-Black comparators. In so doing, the court
adopted the view—urged by the Miller-El dissent and
rejected by the Miller-El majority—that courts cannot
conduct meaningful comparisons between jurors
unless each juror shares all the race-neutral reasons

4
cited by the prosecutor to justify a strike. See id. at
247 n.6.
The decision below departs from this Court’s
precedent on two important issues of federal law and
creates a circuit split on one of them. It presents an
important opportunity for this Court to address the
California Supreme Court’s persistent failure to
implement this Court’s precedent prohibiting racial
discrimination in the selection of juries. This Court
should grant certiorari.
I.

Trial Court Proceedings: The Trial Court
Accepts the State’s Implausible and
Pretextual Explanations for Striking
Prospective Juror Simeon Greene.

On November 18, 1998, Simeon Greene
reported to the San Bernardino County Superior
Court for jury duty—“the most substantial
opportunity that most citizens have to participate in
the democratic process” “[o]ther than voting.”
Flowers, 139 S. Ct. at 2238. After arriving at the
courthouse, the 24-year-old was placed in the jury
pool for the capital trial of Johnny Duane Miles, a
Black man charged with the rape and murder of a
white woman.
Mr. Greene cut an ideal figure for a California
prosecutor selecting a capital jury. His father worked
for the Drug Enforcement Administration, and Mr.
Greene had considered pursuing his own law
enforcement career because he viewed it as a way to
help people. App. 25. He believed that individuals
accused of crimes were treated fairly and that the

5
criminal justice system had no bigger problem than
the court backlog. App. 26. When asked to grade his
view of the death penalty on a 1 to 5 scale, where 1
represented people who would “always vote for death”
and 5 represented those who would “never vote” for
death, Mr. Greene labeled himself a 2: “I favor the
death penalty but will not always vote for death ….”
App. 48. He added that he would not be reluctant to
vote for a death sentence or to face the defendant and
announce a verdict of death in the courtroom. App. 27.
If the State of California held a vote on whether to
keep the death penalty, Mr. Greene would vote to
retain it. App. 152.
Jury selection began with a round of hardship
dismissals. The jurors who were not dismissed,
including Mr. Greene, then filled out a 130-question,
31-page jury questionnaire. Based on the completed
questionnaires, the parties conducted death
qualification voir dire. At the end of questioning, the
trial judge excused jurors for cause or by stipulation,
whittling the pool down to 72 prospective jurors.
The court began the final round of voir dire by
summoning the first 12 prospective jurors to the box.
This group included three Black prospective jurors,
three Hispanic prospective jurors, five white
prospective jurors, and one prospective juror who
identified as American Indian/Caucasian. Mr. Greene
was Juror 1. After defense counsel challenged a Black
prospective juror for cause, the prosecutor used his
first six peremptory challenges to strike all three
Black prospective jurors and one Hispanic prospective

6
juror. Following each strike, the court summoned a
new prospective juror to the box.
Defense counsel raised a Batson objection
following the State’s third strike of a prospective
Black juror (Isabella Brazier), noting that the State
had removed every available Black juror from the
panel. The judge ruled that counsel had established a
prima facie case for the State’s first two strikes of
Black prospective jurors (Mr. Greene and Kevin
Copeland) but not for the strike of Ms. Brazier.
Speaking to the prosecutor, the court stated: “I
understand Miss Brazier from her answers …. I don’t
understand as to Copeland and as to Greene. You’ll
have to explain those.” App. 184.
The prosecutor proffered three justifications
for striking Mr. Greene: (1) “he made statements on
his questionnaire how he liked his opinion over
others”; (2) “he made a statement on his questionnaire
basically saying if I have a feeling he didn’t do it, he’s
not guilty”; and (3) “he wasn’t upset by the O.J.
Simpson verdict…. which was a DNA, circumstantial
case.” App. 185-88. In response, defense counsel
observed that Mr. Greene was a death penalty
proponent and the son of a law enforcement officer
who did not “give any answers that suggest that he
couldn’t be fair and impartial” and “said he didn’t
know anything about [DNA].” App. 189.
The trial court overruled defense counsel’s
challenge: “As I indicated, as to Miss Brazier, I
understand [the prosecutor’s] concern there. As to Mr.
Copeland and Mr. Greene, it’s certainly not as

7
obvious, but I cannot say it is not legitimate.” App.
190. The court added, “I don’t need to remind counsel
that we’re treading on thin ice in this area, and the
consequences of falling through means we start all
over again.” App. 190.
After the court’s ruling, the twelve prospective
jurors seated in the jury box included nine white
jurors, two Hispanic jurors, and one American
Indian/Caucasian juror. With no Black jurors in the
box, the prosecutor passed twice, and defense counsel
exercised four peremptory challenges. Following
defense counsel’s fourth strike, a new Black
prospective juror, Mary Burden, entered the jury box.
The
prosecutor
struck
Ms.
Burden
immediately, citing her discomfort with the death
penalty. Defense counsel objected: “this is African
American Juror Number 4,” “[a]nd we now, once
again, have an all-white panel.” 6 RT 1740-41.1 The
judge acknowledged the panel’s monochromatic cast
but overruled the objection. Id. at 1741. The
prosecutor then exercised one more strike against a
Hispanic man, and the parties accepted the main jury
panel following a final defense strike. In the end, ten
white jurors, one Hispanic juror, and one American
Indian/Caucasian juror comprised the main panel.
The parties then selected six alternate jurors.
The prosecutor used one peremptory strike against a
white woman and declined to use his remaining

1

All RT cites are to the trial transcript.

8
strikes. Both parties accepted the slate of alternates,
which included five white jurors and one Black juror.
In total, the prosecutor could have struck 26
white prospective jurors during jury selection, and he
challenged four (11.5%). He could have struck five
Black prospective jurors, and he challenged four
(80%). That included strikes against all four Black
prospective jurors who could have served on the main
panel.
II.

The Trial: Mr. Miles Is Tried, Convicted,
and Sentenced to Death.

Mr. Miles stood trial for 19 offenses stemming
from three separate incidents in February 1992. On
February 4, 1992, a white woman named Nancy
Willem was robbed, raped, and murdered in the
health services clinic where she worked. 8 RT 232733. Three weeks later, Christine Castellanos was
robbed and raped in her office. 9 RT 3445-61. And the
following night, two people were robbed and one was
raped in another office building. Id. at 3514–46.
Following trial for these offenses, the jury
convicted Mr. Miles of one count of murder and three
counts of rape, among other things, and sentenced
him to death. Mr. Miles appealed his conviction and
death sentence to the California Supreme Court. On
appeal, Mr. Miles argued that the trial court had
committed several reversible errors, including the
erroneous denial of his Batson objections.
III.

Appellate Proceedings: The California
Supreme Court Repeatedly Contravenes

9
This Court’s Decisions in Miller-El v.
Dretke and Flowers v. Mississippi and
Erroneously
Affirms
Mr.
Miles’s
Convictions.
On direct appeal, six justices of the California
Supreme Court rejected Mr. Miles’s Batson claim. The
majority stated that “we view the issue to be close but
ultimately find no adequate basis to overturn the trial
court’s ruling …. [R]eviewing the trial court’s
determination … with great restraint, we conclude
that substantial evidence supports the trial court’s
conclusion ....” App. 71. Justice Liu dissented. In his
view, “the record shows that each of the prosecutor’s
stated reasons for striking Simeon G[reene] was
implausible or unsupported by the facts,” and a
consideration of all relevant circumstances
demonstrates that the strike “was improperly
motivated.” App. 149.
The majority and dissent disagreed on the
plausibility of all three reasons proffered by the
prosecutor for striking Mr. Greene. The State’s first
justification for striking Mr. Greene was that, in
response to a question in the jury questionnaire
asking whether he viewed himself as a leader or
follower, and why, Mr. Greene answered “leader” and
explained, “I like my opinion over other people[’]s.”
App. 25. Juror 1 had answered the same question by
describing herself as a “leader” and explained, “I like
to make my own decisions.” App. 59. Although the
majority acknowledged that these responses were
“similar in some respects,” it rejected the comparison

10
based on responses that the two jurors had given to
another question on the questionnaire. App. 59. To
wit, the majority noted that Juror 1’s questionnaire
reflected that she had served on a (civil) jury before
while Mr. Greene’s showed that he had not—a fact
that the prosecutor had not relied on as a reason for
his strike. Based on that fact, the majority rejected
the comparison, theorizing that “[t]he prosecutor …
could have concluded that Juror No. 1’s statement”
did not implicate the same concerns as Mr. Greene’s
because her prior jury service proved her openness to
considering other people’s opinions. App. 59
(emphasis added). The majority also “note[d] that
Juror No. 1 did not raise any of the other concerns the
prosecutor raised in explaining his reasons for the
strike [of Mr. Greene].” App. 60.
In contrast, the dissent called the prosecutor’s
justification “suspicious” and rejected the majority’s
attempt to distinguish Juror 1 based on a new
justification. First, Justice Liu noted that Mr.
Greene’s preference for his own opinions was an
implausible justification for a peremptory challenge
because it “is actually somewhat of a tautology:
Everyone likes his or her opinion over other
people’s….” App. 153. Furthermore, Mr. Greene’s
other answers on the jury questionnaire, which the
prosecutor did not mention and the majority ignored,
“indicate that he was interested in working with other
jurors to reach a verdict.” App. 153. Second, the
dissent observed that the prosecutor neither asked
Mr. Greene about his response nor questioned other
jurors about their ability to work with others. App.

11
153. “As the high court has observed, ‘[t]he State’s
failure to engage in any meaningful voir dire
examination on a subject the State alleges it is
concerned about is evidence suggesting that the
explanation is a sham and a pretext for
discrimination.’” App. 154 (quoting Miller-El, 545
U.S. at 246). Third, the dissent noted that the
prosecutor’s decision was “even more suspicious in
light of the fact that he accepted Juror No. 1,” who had
provided a similar answer on her jury questionnaire.
App. 154. Justice Liu rejected the majority’s reliance
on Juror 1’s prior jury service, writing: “that was not
the prosecutor’s stated reason, and in any event, [Mr.
Greene’s] other questionnaire responses suggested he
was interested in and willing to” serve on a jury and
reach a verdict with his fellow jurors. App. 155.
The majority and dissent also disagreed on the
plausibility of the State’s second justification. The
jury questionnaire had asked Mr. Greene whether he
could follow the reasonable doubt instruction. He
checked “yes” and wrote, “If I have any doubt feeling
that [the defendant] might not have done it, he[’s]
innocent.” App. 155. The prosecutor cited this answer
as a reason that he struck Mr. Greene, claiming, “he
made a statement on his questionnaire basically
saying if I have a feeling he didn’t do it, he’s not guilty.
And he had crossed out the word doubt, which led me
to believe that he certainly wasn’t going to base it on
evidence.” App. 29.
The majority ruled that the prosecutor’s stated
concern was “plausible and supported by the record.”

12
App. 35, 62. It acknowledged that Mr. Greene’s other
jury questionnaire answers did not suggest that he
would rely on his feelings to reach a verdict, and it
conceded that the prosecutor’s interpretation of Mr.
Greene’s answer was debatable. App. 62. Still, the
majority found the prosecutor’s justification to be
plausible because “the prosecutor was not obliged to
accept the most innocuous interpretation” of Mr.
Greene’s answer and “could be legitimately concerned
about [the] response ….” App. 62.
Justice Liu disagreed: “Considering the record
as a whole, I do not find the prosecutor’s stated
concern very plausible.” App. 156. To start, Justice
Liu observed that Mr. Greene’s initial written
answer—“If I have any doubt that [the defendant]
might not have done it, he[’s] innocent”—included a
double negative that inverted the presumption of
innocence that he was describing. App. 156. By
replacing “doubt” with “feeling,” he fixed his initial
mistake. “To draw an inference that [Mr. Greene]
intended this to convey that he would rely on his
feelings as opposed to evidence to decide the
defendant’s guilt seems like a stretch.” App. 156.
But even if Mr. Greene’s answer had been
ambiguous, the prosecutor questioned him about it
during voir dire, “and [Mr. Greene’s] answers clarified
any ambiguity.” App. 156. The prosecutor asked Mr.
Greene what he meant when he crossed out “doubt”
and wrote “feeling,” and Mr. Greene explained that
what “[he] was trying to say” “wasn’t so much a
feeling as it was if the evidence didn’t show” that the

13
defendant committed the crime. App. 157. The
prosecutor then asked, “Okay. So you would base it on
evidence?” App. 157. And Mr. Greene replied,
“Basically, yes. I’m sorry.” App. 157. Consistent with
this explanation, Mr. Greene’s other answers on the
jury questionnaire and in voir dire “indicated that he
would have carefully considered the evidence
presented in the case.” App. 158. Furthermore, “[t]he
prosecutor’s fixation on one questionnaire answer, to
the exclusion of all of [Mr. Greene’s] other relevant
and consistent answers, is suspicious.” App. 158-59.
Finally, the majority and dissent also
disagreed on the plausibility of the State’s third
proffered justification. The jury questionnaire asked
jurors whether they were “upset” by the O.J. Simpson
verdict and provided them with space to explain their
answers if they wished. Mr. Greene checked the box
for “no” without providing a written explanation. The
prosecutor cited this response as a major reason for
his peremptory challenge, claiming that Mr. Greene’s
answer “raise[d] significant concerns in [his] mind”
because the O.J. Simpson case “was a DNA,
circumstantial case” like this one. “If you’ll notice
across the board, I’ve excused jurors … of Hispanic
origin and Caucasian origin, and the common
denominator, essentially, is that they were not, were
not upset by the O.J. Simpson verdict.” App. 160.
The majority acknowledged that there were
multiple reasons to suspect that this justification was
pretextual. First, the majority agreed that the
justification itself was relevant to the pretext inquiry

14
because “more Blacks than Whites support[ed] the
Simpson verdict ….” App. 54. Second, the majority
conceded that “the prosecutor’s concern here is
undermined to some degree by the prosecutor’s failure
to ask [Mr. Greene] or other prospective jurors about
the O.J. Simpson verdict during voir dire.” App. 68.
And third, the majority admitted that the State had
accepted two jurors who provided identical or similar
answers. The State accepted Alternate Juror 5, a
white man who checked “no” when asked whether the
Simpson verdict upset him and provided no further
explanation. App. 69. And the State also accepted
Juror 6, who checked “no” and explained, “‘evidence
not clear.’” App. 69. Mr. Greene’s “response was thus
identical to Alternate Juror No. 5’s response and less
detailed than Juror No. 6’s response ….” App. 69.
But the majority rejected the comparison
because Alternate Juror 5 and Juror 6 did not share
the other two reasons cited by the State for striking
Mr. Greene. “Neither Juror No. 6 nor Alternate Juror
No. 5 indicated that they might have difficulty
considering the opinions of or deliberating with
others,” and “neither Juror No. 6 nor Alternate Juror
No. 5 indicated that they might rely on their feelings
in reaching a verdict in the guilt phase….” App. 70-71
Thus, the majority noted, “we view the issue to be
close but ultimately find no adequate basis to
overturn the trial court’s ruling ….” App. 71.
The dissent responded that striking jurors
because of their feelings about the O.J. case “in the
capital trial of a black man accused of murdering a

15
white woman, occurring just three years after the
Simpson verdict” “seems like playing with fire.” App.
161. Striking jurors who were not upset by the
Simpson verdict would disproportionately remove
Black jurors, which is evidence that the prosecutor’s
stated reason was “‘a pretext for racial
discrimination.’” App. 162 (quoting Hernandez v. New
York, 500 U.S. 352, 363 (1991) (plurality opinion)).
The dissent also observed that the prosecutor’s failure
to ask any prospective jurors about the Simpson
verdict was a sign of pretext. “The prosecutor’s lack of
questioning is especially suspicious as to [Mr.
Greene]” the dissent noted, because he had simply
checked the box for “no” without explanation. App.
162.
The
dissent
further
observed
that
“[c]omparative juror analysis also supports an
inference of pretext.” App. 163. Although the
prosecutor claimed that he had struck jurors across
the board if the Simpson verdict did not upset them,
the record reflected that “eight seated and alternate
jurors indicated that they were not upset” by it. App.
163 (emphasis added). Some of those jurors provided
explanations that the prosecutor may have viewed
more favorably. But Alternate Juror 5 provided the
same answer as Mr. Greene. Juror 6’s explanation
“seems less favorable to the prosecution than [Mr.
Greene’s] response.” App. 163. And “Juror No. 4,
Juror No. 7, and Alternate Juror No. 4 wrote that they
were not upset because they did not know enough
about the details of the case, which seems just as
neutral as [Mr. Greene’s] response.” App. 163. “In

16
sum, the plausibility of the prosecutor’s explanation
‘is severely undercut by [his] failure to object to other
[jurors] who expressed views much like [Mr.
Greene’s].’” App. 163 (quoting Miller-El, 545 U.S. at
248).
Justice Liu also objected to the majority’s
approach to comparative juror analysis diverging
from the approach mandated by this Court. He
explained that “[t]he court’s reasoning suggests that
significant weight cannot be assigned to comparative
juror analysis unless an accepted juror matches the
struck juror with respect to all of the prosecutor’s
stated concerns.” App. 164-65. This approach—
“undercutting the probative value of juror
comparisons by identifying other traits on which the
jurors differed—is a frequent maneuver in our Batson
jurisprudence.” App. 164 (citations omitted). “But the
high court has expressly rejected this view.” App. 165
(citing Miller-El, 545 U.S. at 247 n.6).
Additionally, the dissent noted that this Court
“‘has repeatedly drawn inferences of discrimination
from comparative juror analysis without regard to
whether the comparator jurors matched the struck
juror in every respect identified by the prosecutor.’”
App. 165 (citation omitted). Thus, Flowers, Snyder v.
Louisiana, 552 U.S. 472 (2008), and Foster v.
Chatman, 136 S. Ct. 1737, 1754 (2016), all “found
single-issue comparisons among jurors to be highly
probative of discrimination; none used the pivoting
frames of comparisons that this court employs to
mitigate inferences of pretext.” App. 166. Yet the

17
majority’s opinion ignored the analysis in those cases
“and thus leaves unexplained how its approach can be
reconciled with high court precedent.” App. 167.
Justice Liu ended his dissent by observing that
“[w]ith today’s decision, this court extends its record
of not having found Batson error involving the
peremptory strike of a [B]lack juror in more than 30
years ….” App. 167. The court could not blame this
drought on a shortage of Batson cases that presented
either “‘definite racial overtones’” or strong evidence
of pretext. App. 167. Thus, “[i]t is past time to ask
whether the Batson framework, as applied by this
court, must be rethought in order to fulfill the
constitutional mandate of eliminating racial
discrimination in jury selection.” App. 168 (citation
omitted).

18
REASONS FOR GRANTING THE WRIT
I.

By Considering New Reasons on Appeal
for Distinguishing Jurors Struck by the
State From Those Accepted by the State,
the California Supreme Court’s Decision
Conflicts With This Court’s Binding
Precedent and Exacerbates an Existing
Circuit Split.

The prosecutor’s first proffered reason for
striking Mr. Greene was his jury-questionnaire
response to whether he would describe himself as a
leader or a follower and why: he picked “leader” and
explained, “I like my opinion over other peoples [sic].”
App. 25. The prosecutor did not ask Mr. Greene any
questions during voir dire about his response as he
“probably would have done if [this issue] had actually
mattered.” Miller-El, 545 U.S. at 246 (citation
omitted). This “‘failure to engage in any meaningful
voir dire examination on a subject the State alleges it
is concerned about is evidence suggesting that the
explanation is a sham and a pretext for
discrimination.’” Id. (citation omitted). The inference
of pretext is particularly strong here because Mr.
Greene repeatedly made clear that he would consider
the views of his fellow jurors. For instance, when
asked on the questionnaire whether he believed the
jury system was fair, Mr. Greene checked “yes” and
explained, “12 people have to come together to accuse
someone. That[’s] 12 different opinions. Pretty
impressive.” App. 26. And during voir dire, Mr.
Greene stated that he would “deliberate with [his]

19
fellow jurors,” “try to see their point of view,” and “try
to arrive at an agreement on the verdict.” 6 RT 169394.
Moreover, Mr. Greene was not the only juror
who said that he preferred his own opinions over
others’. In response to the very same question, Juror
1, a white woman, also described herself as a leader
and said, “I like to make my own decisions.” App. 59.
Yet the prosecutor did not strike her. This “side-byside comparison[]” of Mr. Greene and Juror 1 is
“powerful.” Miller-El, 545 U.S. at 241. Where, as here,
“a prosecutor’s proffered reason for striking a black
panelist applies just as well to an otherwise-similar
nonblack [person] who is permitted to serve, that is
evidence tending to prove purposeful discrimination
to be considered at Batson’s third step.” Id.
The majority below acknowledged that Juror
1’s response was “similar in some respects to Mr.
Greene’s.” App. 59. But it concluded that this
similarity did not “cast doubt” on the prosecutor’s
stated reason for striking Mr. Greene because “the
prosecutor could reasonably have found Juror No. 1’s
response to be less concerning in context than [Mr.
Greene’s] response.” App. 59. But the “context”
referred to by the majority was not something the
prosecutor mentioned at trial. Instead, it was Juror
1’s and Mr. Greene’s respective responses to a
separate question in which Juror 1 shared that she
had previously deliberated with other jurors “to reach
a verdict in a separate case” (a civil case), while Mr.

20
Greene stated that he lacked such experience. App.
59.
Thus, even though Mr. Greene and Juror 1
were similarly situated as to the actual reason the
prosecutor proffered for striking Mr. Greene, the
majority speculated that the prosecutor “could have”
reasonably preferred Juror 1 because of her separate
answer about jury service. The majority did so even
though the prosecutor never mentioned Mr. Greene’s
lack of juror experience as a justification for striking
him, and even though Mr. Greene made clear that he
would “deliberate with [his] fellow jurors,” “try to see
their point of view,” and “try to arrive at an agreement
on the verdict” through the “[p]retty impressive”
process of considering “12 different opinions.” RT
1693, App. 153-54.
By speculating about new reasons why the
prosecutor “could reasonably have found” Juror 1 to
be a more favorable juror, the majority contravened
Miller-El. In Miller-El, this Court explained that, for
comparative juror analysis to be effective, it must be
limited to assessing the plausibility of the reasons the
prosecutor proffered at trial. See 545 U.S. at 252. The
Court therefore held that “when illegitimate grounds
like race are at issue, a prosecutor simply has got to
state his reasons as best he can and stand or fall on
the plausibility of the reasons he gives.” Id. “If the
stated reason does not hold up” because it applies
equally to a non-struck white juror, “its pretextual
significance does not fade because a trial judge, or an

21
appeals court, can imagine a reason that might not
have been shown up as false.” Id.
Despite the clarity of Miller-El’s instructions,
the California Supreme Court held that Miller-El
does not prohibit an appeals court from “reject[ing]” a
“comparative juror analysis” based on reasons not
proffered by the prosecutor. App. 59-60. Relying on its
own prior case law, which misread Miller-El, the
majority concluded that Miller-El permits an appeals
court to speculate about other reasons why a
prosecutor may have accepted a non-Black
comparator, even if the comparator were similarly
situated to the struck Black panelist on the reason
proffered by the prosecutor. In its words: “we do not
read Miller-El to require us when conducting
comparative juror analysis for the first time on
appeal, to turn a blind eye to reasons the record
discloses for not challenging other jurors even if those
jurors are similar in some respects to excused jurors.”
App. 38.
But Miller-El forecloses this approach. In
Miller-El, this Court ruled that an appellate or
postconviction court conducting comparative juror
analysis for the first time may not consider
justifications for distinguishing between jurors that
the prosecutor did not proffer at trial, including new
reasons for “not challenging other jurors.” Indeed, in
Miller-El, the Fifth Circuit did precisely what the
California Supreme Court did here—rely on new
reasons why the prosecutor may not have challenged
other jurors. In reversing, this Court explained that

22
those new justifications were irrelevant because they
were “reasons the prosecution itself did not offer.” 545
U.S. at 245 n.4.
This Court’s comparative juror analysis in
Miller-El focused on two excluded Black panelists,
Billy Jean Fields and Joe Warren. See id. at 241-52.
And its analysis of the Fields challenge is controlling
here.
The prosecutor’s proffered reason for striking
Mr. Fields was that Mr. Fields had expressed
concerns about sentencing someone to death if the
person could be rehabilitated. Id. at 242-43. Relying
on comparative juror analysis, this Court found that
justification pretextual (even applying the deferential
standard under 28 U.S.C. § 2254(d)(2), which is
inapplicable here). The Court explained that, if the
prosecutor had genuinely been concerned about Mr.
Fields’s statements about rehabilitation, he “should
have worried about a number of white panel members
he accepted”—in particular, Sandra Hearn and Mary
Witt. Id. at 244.
In dissent, Justice Thomas contended that Ms.
Hearn and Ms. Witt were not persuasive comparators
based on the precise reasoning of the California
Supreme Court here, that is, that the prosecutor could
have reasonably found those other jurors more
favorable for other reasons. See App. 38, 40. Justice
Thomas identified two such reasons for Ms. Hearn: (a)
“Hearn was adamant about the value of the death
penalty for callous crimes”; and (b) “Hearn’s father
was a special agent for the Federal Bureau of

23
Investigation, and her job put her in daily contact
with police officers for whom she expressed the
utmost admiration.” 545 U.S. at 294. In Justice
Thomas’s view, “[t]his is likely why the State accepted
Hearn.” Id. The Fifth Circuit had employed the same
approach in finding the comparison between Mr.
Fields and Ms. Hearn unpersuasive. See Miller-El v.
Dretke, 361 F.3d 849, 858 (5th Cir. 2004).
Similarly, for Mary Witt, Justice Thomas
emphasized that “Witt expressed strong support for
the death penalty” and had made statements
suggesting the death penalty was appropriate under
the circumstances of Miller-El’s case. Again, Justice
Thomas offered this as a new reason that the
prosecutor likely kept Witt. 545 U.S. at 295.
The Miller-El majority, however, rejected as
irrelevant these new reasons why the prosecutor may
have wanted to keep Ms. Hearn and Ms. Witt. The
majority explained that what mattered was that Ms.
Hearn’s and Ms. Witt’s views on rehabilitation were
much like Mr. Fields’s, thereby showing that the
prosecutor’s stated concern about Mr. Fields’s views
on that subject were pretextual. See id. at 244. The
Court then recognized that the “dissent offers other
reasons why these nonblack panel members who
expressed views on rehabilitation similar to Fields’s
were otherwise more acceptable to the prosecution
than he was.” Id. at 245 n.4. But it held that these
new reasons could not be considered because, “[i]n
doing so, the dissent focuses on reasons the
prosecution itself did not offer. See infra, at 2332.” Id.

24
The “infra” reference in this quote is to the
majority’s comparative juror analysis for Mr. Warren
(the other excluded Black panelist). See id. at 252. It
is a reference to the portion of the Court’s opinion
announcing the requirement that the State must
“stand or fall” on the prosecution’s contemporaneous
reasons for a strike, and “[i]f the stated reason does
not hold up, its pretextual significance does not fade
because a trial judge, or an appeals court, can imagine
a reason that might not have been shown up as false.”
Id. Thus, in footnote 4, Miller-El held that the
prohibition on considering “reasons the prosecution
itself did not offer” applies whether the new reason is
a justification for striking a Black panelist or a new
reason for keeping a white one. Id. at 245 n.4.
Petitioner specifically brought this part of
Miller-El to the California Supreme Court’s attention
in this case. Yet the majority still concluded that
Miller-El did not prohibit it from considering new
reasons why the prosecutor could have chosen to seat
Juror 1. In so doing, the majority failed to
acknowledge that these reasons could not be the basis
for rejecting a juror comparison under Miller-El
because they were “reasons the prosecution itself did
not offer.” Id. at 245 n.4.
Having failed to address the portion of MillerEl directly on point, the majority instead emphasized
this statement from Snyder: “Miller-El ‘made it clear
that in considering a Batson objection, or in reviewing
a ruling claimed to be Batson error, all of the
circumstances that bear upon the issue of racial

25
animosity must be consulted.’” App. 38 (quoting
Snyder, 552 U.S. at 478). But this simply means that
a court must consider all relevant circumstances that
bear on the plausibility of the prosecutor’s stated
justifications, not that an appellate court can
speculate about new reasons. Miller-El could not have
been clearer: “The rule in Batson provides an
opportunity to the prosecutor to give the reason for
striking the juror, and it requires the judge to assess
the plausibility of that reason in light of all evidence
with a bearing on it.” 545 U.S. at 251-52. In the same
paragraph, the Court explained that “a prosecutor
simply has got to state his reasons as best he can and
stand or fall on the plausibility of the reasons he
gives.” Id. at 252. It added that if the prosecutor’s
“stated reason does not hold up, its pretextual
significance does not fade because …. an appeals
court[] can imagine a reason that might not have been
shown up as false.” Id.
Similarly, nothing in Snyder authorizes an
appellate court to speculate about reasons not
proffered by the prosecutor as part of its juror
comparator analysis. Instead, Snyder referred to the
need to consider all the evidence when explaining that
the plausibility of a prosecutor’s strike of one Black
juror may be undermined by considering the strike of
a different Black juror. See 552 U.S. at 478.
In sum, the decision below conflicts with
Miller-El. And this issue is important. As this Court
stressed in Flowers, “[e]qual justice under law
requires a criminal trial free of racial discrimination

26
in the jury selection process.” 139 S. Ct. at 2242.
Moreover, “[o]ther than voting, serving on a jury is the
most substantial opportunity that most citizens have
to participate in the democratic process.” Id. at 2238.
And “the very integrity of the courts is jeopardized
when a prosecutor’s discrimination ‘invites cynicism
respecting the jury’s neutrality,’” undermining
“public confidence in adjudication.” Miller-El, 545
U.S. at 238.
Yet, despite this Court’s efforts to “vigorously
enforce[]” Batson, see Flowers, 139 S. Ct. at 2243,
widespread discrimination in jury selection persists.
See, e.g., Thomas Ward Frampton, The Jim Crow
Jury, 71 Vand. L. Rev. 1593, 1624-25 & n.178 (2018)
(“Seven empirical studies have appeared in scholarly
journals seeking to assess Batson’s efficacy,” and “[a]ll
concur in the basic finding …. that prosecutors
disproportionately use peremptory strikes to exclude
black jurors ….”). This is in large part because of “the
practical difficulty of ferreting out discrimination in
selections discretionary by nature ….” Miller-El, 545
U.S. at 238.
Comparative juror analysis is an essential tool
for ferreting out such discrimination. But it is
effective only when an appellate court is limited to
considering the reasons proffered by the prosecutor at
trial, as Miller-El instructs. If an appellate court may
identify other reasons why a prosecutor could have
preferred a white comparator, the appellate court is
no longer addressing the plausibility of the
prosecutor’s stated reasons. It also becomes almost

27
impossible for a plaintiff to establish that the stated
reason was discriminatory, as an appellate court will
almost always be able to scour the record for some
reason why a non-struck comparator could have been
more favorable to the prosecution. The California
Supreme Court’s case law makes this clear: since
Miller-El, it has never relied on comparative juror
analysis to support a finding of pretext.
Because the California Supreme Court has
ruled on an important issue of federal law that
conflicts with this Court’s decision in Miller-El, this
Court should grant certiorari. See Sup. Ct. R. 10(c). In
addition, despite the clarity of this Court’s
instructions in Miller-El, this issue has divided the
lower courts. On top of the decision below, a sharply
divided Fifth Circuit held that Miller-El permits an
appellate court to consider reasons not proffered by
the prosecutor if the court can characterize the
reasons as new explanations for keeping a non-struck
juror. Chamberlin v. Fisher, 885 F.3d 832, 842 (2018)
(en banc); but see id. at 854 (Costa, J., dissenting)
(“Whether labelled as reasons for striking the black
juror or ones for keeping the comparators, allowing
new explanations years after trial turns the Batson
inquiry into a ‘mere exercise in thinking up any
rational basis’ as there is no way to ensure the posttrial justification is what actually motivated the
decisions made during jury selection.”) (quoting
Miller-El, 545 U.S. at 252).
By contrast, the Seventh Circuit, Ninth
Circuit, and Missouri Supreme Court have all

28
recognized that courts may not consider such new
reasons. See United States v. Taylor, 636 F.3d 901,
905-06 (7th Cir. 2011) (The district court’s acceptance
of “new, unrelated reasons” as to why the prosecution
accepted white jurors who shared a struck Black
juror’s view on the question proffered by the
prosecution for the strike “amounts to clear error.”);
Love v. Cate, 449 F. App’x 570, 572-73 (9th Cir. 2011)
(unpublished) (because the “prosecutor never stated
to the trial court” the new “non-racial characteristics
that distinguished [the white juror] from the black
venire-member,” the district court properly declined
to consider them); State v. Marlowe, 89 S.W.3d 464,
469 (Mo. 2002) (en banc) (new reasons the State gave
on appeal for not striking a comparable white juror
were “irrelevant” “[p]ost-hoc justifications,” because
the “focus of the third step [of the Batson inquiry] is
the plausibility of the contemporaneous explanation”).
Granting certiorari would also allow this Court
to resolve this split of authority, including the
emerging split between the California Supreme Court
and the Ninth Circuit’s unpublished decision in Love.
See Sup. Ct. R. 10(a).

29
II.

For the Past Fourteen Years, the
California
Supreme
Court
Has
Contravened Miller-El and Refused to
Accord Significant Weight to Any
Comparative Juror Analysis Unless the
Jurors Being Compared All Provided The
Same Responses Cited by the Prosecutor
to Justify the Strike.

In its 2005 decision in Miller-El, this Court
held that where a prosecutor gives multiple
justifications for striking a Black juror, the fact that
one of those justifications applies equally well to a
similarly situated non-Black juror is “powerful”
evidence of pretext. See 545 U.S. at 241. The
comparator jurors need not “match[] all of [the
reasons]” given by the prosecutor, see id. at 247 n.6;
they merely need to match one. See id. at 241-47.
In contrast, since its 2006 decision in People v.
Jurado, 38 Cal. 4th 72, 105 (2006), the Supreme Court
of California has declined to follow this rule from
Miller-El. Under Jurado and its progeny, where a
prosecutor provides multiple justifications for
striking a Black juror, the fact that one of those
justifications applies equally well to a similarly
situated white juror provides no significant evidence
of pretext unless “the compared jurors have expressed
‘a substantially similar combination of responses,’ in
all material respects ... ” People v. Winbush, 2 Cal. 5th
402, 443 (2017), as modified on denial of reh’g (Mar.
29, 2017); see also Jurado, 38 Cal. 4th at 105
(rejecting comparative juror analysis because the

30
compared jurors matched on one but not “both of the
topics mentioned by the prosecutor”); People v.
Armstrong, 6 Cal. 5th 735, 780, reh’g denied (Mar. 20,
2019), cert. denied sub nom. Armstrong v. California,
140 S. Ct. 485 (2019) (holding that comparative juror
analysis cannot have “force” unless comparator jurors
express “a substantially similar combination of
responses in all material respects”) (citations and
quotations omitted). That describes the majority’s
analysis here. Indeed, the California Supreme Court’s
approach nearly mirrors the rule set out by the MillerEl dissent and rejected by the Miller-El majority. See
545 U.S. at 291.
Consistent with California’s approach, Justice
Thomas argued in his Miller-El dissent that for
purposes of comparative juror analysis, “‘similarly
situated’ does not mean matching any one of several
reasons the prosecution gave for striking a potential
juror—it means matching all of them.” 545 U.S. at
291. But this Court rejected that argument. See id. at
247 n.6. As the majority explained, “[n]one of our
cases announces” such a rule, “and there is no reason
to accept one.” Id. “A per se rule that a defendant
cannot win a Batson claim unless there is an exactly
identical white juror would leave Batson inoperable;
potential jurors are not products of a set of cookie
cutters.” Id.
Indeed, in finding that pretext motivated the
prosecutor’s strikes (even under the demanding
habeas standard) Miller-El relied heavily on juror
comparisons where the comparator non-Black jurors

31
had been similarly situated for only one of multiple
reasons the prosecutor had cited for striking
prospective Black jurors. For instance, the prosecutor
in Miller-El proffered two reasons for striking a Black
prospective juror named Mr. Warren: Warren
expressed some uncertainty about the death penalty,
and his brother-in-law had been convicted of a petty
crime. See id. at 250 n.8. The Court compared each
individual response from Mr. Warren to an individual
response from another juror without regard to
whether the juror accepted by the prosecution shared
the second reason cited by the prosecutor. Thus,
Miller-El compared Mr. Warren’s death penalty views
to the death penalty views of jurors accepted by the
State. See id. at 248. And it ruled that the similarities
among them were “evidence of pretext” and “severely
undercut” the prosecutor’s explanations even though
the accepted jurors did not share the other reasons
cited by the prosecutor. See id. This Court then
conducted the same mode of analysis for the
prosecutor’s second stated reason for striking Mr.
Warren, and it analyzed the strike of another
prospective Black juror, Mr. Fields, in precisely the
same way. See id. at 242-50. Miller-El described these
comparisons as “powerful” evidence and considered
them in combination with the other available
evidence of pretext. See id. at 241.
This Court followed an identical approach in
Snyder, Foster, and Flowers. In Snyder, the State
provided two justifications for striking a particular
Black prospective juror, but this Court reversed Mr.
Snyder’s conviction because one of the two reasons

32
proffered by the State also applied to a pair of jurors
accepted by the State, see 552 U.S. at 484-85—as the
Miles majority concedes is true here. See App. 69-70.
This Court applied the same approach in Foster,
where the prosecution provided eleven reasons for
striking one juror and eight for another. 136 S. Ct. at
1748, 1751. Rather than assess whether any jurors
accepted by the State provided “‘a substantially
similar combination of responses,’ in all material
respects” to the jurors struck by the State, see
Winbush, 2 Cal. 5th at 443, this Court compared a few
individual answers from the jurors. Foster held that
the similarities it discovered between individual
answers provided “compelling” evidence of pretext
and reversed Mr. Foster’s conviction. See 136 S. Ct. at
1754. In Flowers, this Court did the same thing. 139
S. Ct. at 2248-51.
Despite sometimes citing Miller-El, the
California Supreme Court has taken a contrary
approach since its 2006 decision in Jurado. 38 Cal.
4th at 105. There, the Court wrote that “[e]ven if we
assume we must conduct a comparative juror
analysis,” that analysis is not relevant because the
“defendant does not identify any seated juror who
gave responses similar to N.M.’s on both of the topics
mentioned by the prosecutor.” Id. (emphasis added).
Soon after, the court reaffirmed the Jurado rule in
People v. Watson, 43 Cal. 4th 652 (2008). In Watson,
the court ruled that “a comparative juror analysis
does little to further defendant’s claim” because
“[n]one of the jurors … shared both characteristics
relied upon by the prosecutor.” Id. at 676. Neither

33
case tried to reconcile its decision with the contrary
holding of Miller-El.
When confronted with the inconsistency
between its case law and Miller-El, the California
Supreme Court has interpreted Miller-El as standing
only for the narrow proposition that comparator
jurors need not be “completely identical.” See, e.g.,
Winbush, 2 Cal. 5th at 443. For instance, the
following statement from Winbush reflects how the
court has pronounced both its adherence to—and
disregard for—Miller-El in the same breath:
“Although jurors need not be completely identical for
a comparison to be probative [citing Miller-El], ‘they
must be materially similar in the respects significant
to the prosecutor’s stated basis for the challenge.’” Id.
(citation omitted). That is, the compared jurors must
“have expressed ‘a substantially similar combination
of responses,’ in all material respects, to the jurors
excused.” Id. (emphasis added). In contrast, Miller-El
and its progeny all conducted juror comparisons by
assessing individual answers, and all found such
comparisons highly probative despite the fact that
none of the jurors they compared shared a similar
combination of responses. See Miller-El, 545 U.S. at
242-52; Snyder, 552 U.S. at 478-85; Foster, 136 S. Ct.
at 1748-54; Flowers, 139 S. Ct. at 2249-51.
Requiring that compared jurors express “a
substantially similar combination of responses in all
material respects” is not just inconsistent with MillerEl. It is the very standard proposed by the Miller-El
dissent and rejected by the majority. See Miller-El,

34
545 U.S. at 291 (Thomas, J., dissenting) (“Of course
jurors must not be ‘identical in all respects to gauge
pretext, but to isolate race as a variable, the jurors
must be comparable in all respects that the prosecutor
proffers as important.”) (emphasis added) (citation
omitted). Although the Miller-El majority rejected
this position because it “would leave Batson
inoperable[,]” see id. at 248 n.6, the Supreme Court of
California has announced this rule time and time
again—all while citing Miller-El and (often) quoting
from the footnote in Miller-El that rejected the
selfsame rule. See, e.g., People v. DeHoyos, 57 Cal. 4th
79, 107 (2013) (requiring comparator jurors to be
materially similar in all respects significant to the
prosecutor’s challenge despite citing the Miller-El
footnote that forbids that very approach); People v.
Melendez, 2 Cal. 5th 1, 18 (2016) (same); People v.
Hardy, 5 Cal. 5th 56, 77 (2018), reh’g denied (July 18,
2018), cert. denied sub nom. Hardy v. California, 139
S. Ct. 917, (2019) (same); Armstrong, 6 Cal. 5th at 780
(same).
Miles follows in this tradition of California
Supreme Court cases like Armstrong that profess
adherence to Miller-El while effectively following the
Miller-El dissent. In line with this tradition, the
majority cites Miller-El at both the start and end of
its analysis for the proposition that “a comparison
between the challenged juror and a similar
nonchallenged juror in regard to any one of the
prosecutor’s stated reasons is relevant ….” App. 39
(emphasis in original); id. at 70 (citing the opinion’s
initial discussion). But the court’s analysis makes

35
plain that it is following the rule from Jurado,
Armstrong, Winbush, and the Miller-El dissent.
Although a single-issue comparison technically may
“ha[ve] some probative value,” Miller-El 545 U.S. at
560, a comparison only has real “force” if the
comparator jurors “expressed a substantially similar
combination of responses in all material respects.” See
Armstrong, 6 Cal. 5th at 780.
The majority displayed this approach in its
analysis of Mr. Greene’s O.J. answer. It acknowledged
that a comparative juror analysis between Mr.
Greene, Alternate Juror 5, and Juror 6 had “some
probative value” because Mr. Greene’s O.J. response
was “identical to Alternate Juror No. 5’s response and
less detailed than Juror No. 6’s response ….” Id. at
560. Under Miller-El, Snyder, Foster, and Flowers,
the majority should have considered these
comparisons as “compelling” evidence of pretext, see
Foster, 136 S. Ct. at 1754, that “severely undercut”
the plausibility of the prosecutor’s stated reasons, see
Miller-El, 545 U.S. at 248.
The majority then should have considered the
comparisons along with the other evidence of pretext,
including the suspicious facts that:
x

the prosecutor used his peremptory challenges
to seat a jury with no Black jurors for a case in
which the State had charged a Black man with
raping and killing a white woman, see Flowers,
139 S. Ct. at 2250 (holding that reviewing
courts must view specific strikes “in the context
of all the facts and circumstances”);

36
x

the prosecutor used peremptory challenges on
80% of prospective Black jurors but just 11.5%
of prospective white jurors, see id. at 2243
(holding
that
relevant
evidence
of
discrimination includes “statistical evidence
about the prosecutor’s use of peremptory
strikes against black prospective jurors as
compared to white prospective jurors in the
case”);

x

the prosecutor claimed that he “excused jurors”
“across the board” if they “were not upset by the
O.J. Simpson verdict,” App. 160, but then
seated eight jurors who said that the Simpson
verdict did not bother them, see App. 163;

x

the prosecutor relied on the O.J. question to
strike Black prospective jurors, see Hernandez
v. New York, 500 U.S. 352, 363 (1991) (plurality
opinion) (“If a prosecutor articulates a basis for
a peremptory challenge that results in the
disproportionate exclusion of members of a
certain race, the trial judge may consider that
fact as evidence that the prosecutor’s stated
reason constitutes a pretext for racial
discrimination.”);

x

the prosecutor did not ask Mr. Greene—or any
other juror—about their answer to the O.J.
question, see Miller-El, 545 U.S. at 246
(describing the prosecutor’s failure to ask
follow-up questions as evidence of pretext);

x

the prosecutor accepted a white juror who
provided a very similar answer to Mr. Greene’s

37
“leader” answer, see id. at 248 (noting that
prosecutor’s failure to object to non-Black
jurors who expressed similar views “severely
undercut” his claimed justification); and
x

the prosecutor struck Mr. Greene, who
presented as an ideal juror for the State, see id.
at 247 (inferring discriminatory intent from the
fact that a Black prospective juror struck by the
State “should have been an ideal juror in the
eyes of a prosecutor seeking a death sentence”).

The Miles majority did not do that. Rather than
consider the jurors’ similar O.J. answers as proof of
pretext that it must weigh alongside the other
evidence of pretext, the court immediately turned to
whether Mr. Greene, Juror 6, and Alternate Juror 5
had provided the same combination of answers cited
by the prosecutor. App. 70-71. The majority claimed
that “Juror No. 6 and Alternate Juror No. 5 were
dissimilar from [Mr. Greene] in regard to the
prosecutor’s other two stated reasons for striking
[him]” and rejected the comparison without
mentioning a single other fact that tended to prove
pretext. App. 70-71. Thus, despite the majority’s
references to Miller-El, it rejected the approach of the
Miller-El majority for the approach of the Miller-El
dissent.
The majority’s Miller-El misadventure did not
escape Justice Liu, who observed in dissent, “The
[majority]’s reasoning suggests that significant
weight cannot be assigned to comparative juror
analysis unless an accepted juror matches the struck

38
juror with respect to all of the prosecutor’s stated
concerns.” App. 164. “This line of reasoning …. is a
frequent maneuver in our Batson jurisprudence,”
“[b]ut the high court has expressly rejected this view.”
App. 165.
California prosecutors have taken note and
exploited the California Supreme Court’s approach to
comparative juror analysis. Indeed, they now conduct
trainings that show how to use the court’s
comparative juror misanalysis to evade Batson. To
this end, district attorney instructional materials
often recommend that prosecutors proffer multiple
race-neutral reasons for their strikes. See Elisabeth
Semel et al., Whitewashing the Jury Box 51 (June
2020),
https://www.law.berkeley.edu/wpcontent/uploads/2020/06/Whitewashing-the-JuryBox.pdf. For instance, the Ventura County District
Attorney’s Office teaches prosecutors that “[c]ase law
indicates there is strength in quantity. One should
not fail to mention any justification because it seems
trivial.” Id. And a San Francisco County manual
states, “If you develop multiple reasons, any one
reason susceptible to comparative analysis will not be
found wanting on pretextual grounds in light of the
other reasons.” Id.
In sum, the Supreme Court of California has
repeatedly flouted this Court’s case law and, in so
doing, has installed an ersatz Batson regime that
prosecutors can easily manipulate. Like this Court’s
decision in Swain, California’s approach to jury
discrimination has “left prosecutors’ peremptory

39
challenges ‘largely immune from constitutional
scrutiny.’” Flowers, 139 S. Ct. at 2241 (citation
omitted).
CONCLUSION
This Court should grant certiorari.
Respectfully submitted,
CLIFF GARDNER*
1448 San Pablo Ave.
Berkeley, CA 94702
(510) 524-1093
casetris@aol.com
SHERRILYN A. IFILL
Director-Counsel
JANAI S. NELSON
SAMUEL SPITAL
NAACP LEGAL DEFENSE
& EDUCATIONAL FUND,
INC.
40 Rector Street
5th Floor
New York, NY 10006
CHRISTOPHER KEMMITT
MAHOGANE D. REED
NAACP LEGAL DEFENSE
& EDUCATIONAL FUND,
INC.
700 14th St. NW
Suite 600
Washington, DC 20005

*Counsel of Record
Counsel for Petitioner
Johnny Duane Miles

APPENDIX

App. ii

TABLE OF CONTENTS
Page(s)
APPENDIX A
Opinion and Judgment in the California Supreme
Court (May 28, 2020) ......................................... App. 1
APPENDIX B
Transcript, Batson Hearing Before Hon. James A.
Edwards, San Bernardino County Superior Court
(Nov. 19, 1998) ............................................... App. 182
APPENDIX C
Order from the California Supreme Court,
Rehearing En Banc Denied (July 15, 2020) .. App. 192

App. 1

APPENDIX A
NOT RECOMMENDED FOR FULL-TEXT
PUBLICATION
SUPREME COURT OF CALIFORNIA
S086234
THE PEOPLE,
Plaintiff and Respondent,
v.
JOHNNY DUANE MILES,
Defendant and Appellant.
SAN BERNARDINO COUNTY SUPERIOR
COURT
FSB09438
FILED
May 28, 2020
OPINION

App. 2
PEOPLE v. MILES
S086234
Justice Groban authored the opinion of the
Court, in which Chief Justice Cantil-Sakauye
and Justices Chin, Corrigan, Cuéllar, and
Kruger concurred.
Justice Liu filed a dissenting opinion.
Opinion of the Court by Groban, J.
On March 17, 1999, a jury in San Bernardino County
convicted defendant Johnny Duane Miles of burglary
and first degree murder, first degree forcible rape,
second degree robbery, and false imprisonment by
violence of Nancy Willem. The jury found true the
special circumstances that Willem was killed during
the commission of the burglary, rape, and robbery
(Pen. Code, § 190.2, subd. (a)(17))1 and that the
murder was intentional and involved the infliction of
torture (§ 190.2, subd. (a)(18)). The jury also
convicted defendant of 10 additional counts related
to two separate incidents and found true the
enhancement allegations relating to those counts.
Following the penalty phase, the jury reached a
verdict of death. After denying defendant’s motion to
modify the verdicts (§ 190.4, subd. (e)), the trial court
sentenced defendant to death. This appeal is
automatic. (§ 1239, subd. (b).) We affirm the
judgment.

App. 3
I. Factual Background
A. Guilt Phase
1. Prosecution Case
This case arises from three separate incidents
occurring in February 1992: (1) the murder, rape,
robbery, and false imprisonment by violence of
Nancy Willem and the burglary preceding her death;
(2) the rape, robbery, false imprisonment by violence,
and penetration by a foreign object of Christine C.;
and (3) the robbery and false imprisonment by
violence of Melvin Osburn and the rape, robbery,
false imprisonment by violence, and penetration by a
foreign object of Carole D.
a. Nancy Willem
On February 4, 1992, Nancy Willem did not come
home from work at the Behavioral Health Services
Clinic in Rialto. That evening, her roommate,
Kristen Schutz, started calling the clinic, but the
clinic’s phone lines were busy. When Schutz was not
able to reach Willem, Schutz drove to the clinic.
After entering the building through an unlocked
back door, she found the door to the clinic ajar.
As she entered the clinic, she saw the reception area
had been ransacked. She followed the blood on the
floor from the reception area into one of the offices.
There, she found Willem’s naked body between a
couch and a coffee table. There was a telephone cord
tied to her wrist and a sweater wrapped around her
neck. There was also a handwritten note found on
top of her abdomen that read: “Feed the poor. Down

App. 4
with the goverenment [sic].”
Schutz tried to call the police but realized that the
telephone cords were missing. Once she reconnected
one of the cords, she called 911. The police arrived
and pronounced Willem dead on the scene. After
securing the area and obtaining consent to search
the clinic, the police collected blood and other bodily
fluids from the reception area and office where
Willem’s body was found. The police also recorded a
video depicting the crime scene, which was played
for the jury.
Dr. Nenita Duazo subsequently performed the
autopsy on Willem’s body. Willem’s injuries were
extensive. She had multiple lacerations of her scalp
and forehead, a fractured jaw, a missing tooth,
redness in her vagina, and a circular area that
appeared to be a cigarette burn on her chest. She
had bruising of her face, chest, back, arms, and legs,
which, according to Dr. Duazo, indicated that Willem
was alive when her injuries were inflicted.
Internally, Willem had eight broken ribs, a tear in
her left lung, two lacerations of her liver, and
hemorrhage in her brain. These injuries were likely
caused by the application of substantial and multiple
instances of force while Willem was still alive.
Willem also had hemorrhage in her eyes and neck,
as well as a broken bone and broken cartilage in her
neck, all of which indicated that she was manually
strangled before her death. Dr. Duazo testified that
Willem was killed by a combination of blunt force
injuries and manual strangulation.

App. 5
i. Physical evidence
Several witnesses testified regarding the collection
and analysis of blood and other bodily fluids found at
the crime scene. In particular, two criminalists from
the San Bernardino County Sheriff’s Crime
Laboratory, David Stockwell and Donald Jones,
testified concerning their analysis.
Stockwell testified that he conducted a serological
analysis on items recovered from the crime scene. He
concluded that the nonvictim blood and semen from
the crime scene came from an individual who was
likely African-American and a type AB secretor,
which he defined as someone whose blood type is
secreted into other bodily fluids. He testified that the
genetic markers found in the nonvictim blood and
semen would be expected in approximately one in
333 million African-American men. Following this
analysis, he received a blood sample from defendant,
who is African-American. Stockwell testified that
defendant is a secretor and his genetic markers
matched the genetic markers found in the nonvictim
blood and semen recovered from the crime scene.
Next, Jones testified that he conducted a DNA
analysis on the samples recovered from the crime
scene. He concluded that defendant’s DNA profile
matched the DNA profile from the crime scene. He
testified that the DNA profile from the crime scene
would be expected in approximately one in 180
million African-Americans (or one in 280 million
African-Americans using his lab’s updated match
criteria from around the time of the trial).

App. 6
ii. Other evidence
On the night of Willem’s death, her ATM card was
used to withdraw $1,160 from an ATM in Pomona
and another $300 from an ATM in Glendora. An
employee from the bank’s investigations unit
testified that ATM surveillance photographs showed
an individual wearing glasses and a “Red Dragon”
hat at the time of the transaction in Glendora. The
individual’s features could not be discerned from the
photographs.
A couple of months after Willem’s death, the police
briefly stopped an individual who identified himself
as defendant and was walking no more than half of a
mile from Willem’s office. During the stop, the police
documented that defendant was an AfricanAmerican man who was 25 years old, six feet, six
inches tall, and 210 pounds.
As to the handwritten note found at the crime scene,
the prosecution offered testimony by expert Glen
Owens. He examined the note found on Willem’s
body and certain inmate forms written by defendant.
He concluded that there were some indications that
the writer of the inmate forms may have written the
crime scene note but it was not definitive. An
investigator testified that when defendant was
served with a court order requiring him to provide a
handwriting exemplar, he refused to comply.
An officer at the Rialto Police Department testified
that during a search of defendant’s car, the police
found a note in it. That note read in part: “We’ll be
wiped out by the governement [sic].” The note

App. 7
contained a misspelling of the word government,
which was similar to the misspelling in the note
found on Willem’s body.
b. Christine C.
Christine C. was working alone at the Desert
Communities United Way office in Victorville on the
evening of February 25, 1992 when a man forced his
way into the office. Christine C. described the man
as African-American, over six feet tall, in his
twenties, and of “slim build.”2
The man was wearing a ski-type mask and holding a
silver handgun. Pointing the gun at her, he
demanded money. She gave him cash from her purse
and said that the office had no other money. He then
ordered her to lie down on the floor while he
searched the office. Once he returned, he directed
her into a conference room, tied her arms behind her
back with a telephone cord, and took her jewelry.
When she looked at him, he told her, “Don’t look at
me.” He also took an ATM card from her purse and
asked her for the PIN, to which she said she did not
know it.
After rummaging through the office, he returned to
the conference room. He proceeded to pull up
Christine C.’s skirt and pull down her pantyhose,
while she was lying on her stomach with her hands
tied behind her back. He penetrated her vagina from
behind, initially with his fingers and then with his
penis. He ejaculated on her thighs and wiped her off
with a tissue. He then tied her feet and hands
together and tied her to the conference table with

App. 8
telephone cords, and he left the office. She untied
herself and called 911. The police arrived on the
scene, and she was taken to the hospital for a
medical examination.
The San Bernardino County Sheriff’s Crime
Laboratory analyzed semen on tissues left at the
crime scene. Criminalist Stockwell testified that
based on his serological analysis, the semen profile
from the Christine C. crime scene matched the
profile from the Willem crime scene and additionally
matched defendant’s genetic markers. Criminalist
Jones testified that the DNA found on the tissues
also matched defendant’s DNA profile and would be
expected in approximately one in 180 million
African-Americans.
c. Melvin Osburn & Carole D.
Therapist Melvin Osburn was in his office in San
Bernardino on the evening of February 26, 1992
when a man later determined by the jury to be
defendant entered the office wearing a ski mask and
holding a silver handgun.3 Defendant demanded
Osburn’s wallet, threatening, “Don’t look at me or I’ll
kill you.” After taking money from his wallet,
defendant ordered Osburn to lie down on the floor.
Defendant then tied Osburn’s hands and feet with
telephone cords and proceeded to rummage around
the office, repeatedly asking whether there was a
safe. Defendant also forced Osburn’s ring off his
finger and asked Osburn about his ATM card, to
which Osburn told him that there was no money on
it. When it appeared defendant was getting ready to
leave, Osburn’s next client, Carole D., walked into

App. 9
the office.
She was met by defendant pointing a silver gun at
her.4 He directed her into Osburn’s office, where he
ordered her to lie down and not look at him. He
asked whether she had any money or an ATM card,
to which she replied that she did not. He took her
wedding ring and tied her up with her purse strap
and telephone cords. Next, he pulled her pants and
underwear down and penetrated her vagina from
behind, initially with his fingers and then with his
penis.
Taking Osburn’s keys, defendant left the office and
drove away in Osburn’s car, with his cellphone.
Osburn freed himself and Carole D., and because the
telephone cords were torn, he triggered the burglar
alarm and eventually used his next client’s phone to
call the police. The police arrived, and Carole D. was
taken to the hospital for a medical examination. The
examining nurse testified that Carole D. showed
signs of sexual assault. The police later found
Osburn’s car abandoned in a nearby parking lot. His
cellphone bill showed calls that he had not made.
The San Bernardino County Sheriff’s Crime
Laboratory analyzed semen found on Carole D.’s
underwear. Criminalist Stockwell testified that this
sample contained less serological information than
the samples obtained from the other two crime
scenes, but that the detectable genetic markers from
the sample matched the semen profiles from the
Willem and Christine C. crime scenes. He testified
that the detectable genetic markers from the sample
also matched defendant’s genetic markers. As to the

App. 10
DNA, criminalist Jones was able to form only a
partial DNA profile based on the sample, but he
testified that the partial DNA profile matched
defendant’s DNA and would be expected in
approximately one in 920 African-Americans.
2. Defense Case
The defense called three witnesses. First, the
defense called Dr. Thomas Rogers, a pathology
expert, who testified that it was not possible to
determine whether Willem’s injuries were inflicted
when she was conscious or unconscious or to
determine from any autopsy whether a deceased
individual was tortured. Second, the defense called
Dr. Jonathan Koehler, a research methodology
expert, who testified regarding errors and
probability statistics in DNA analysis. For the third
witness, the defense called one of the investigating
detectives, Detective Chester Lore. He testified that
the police did not recover stolen property, bloody
clothing, or a “Red Dragon” hat (which the individual
who used Willem’s ATM card in Glendora appeared
to be wearing) when they searched defendant’s
residences and vehicle. Nor did the police recover
any fingerprints from the crime scenes that matched
defendant’s fingerprints. Detective Lore also testified
that the police previously investigated someone
other than defendant in connection with a “Red
Dragon” hat, but that individual was eventually
cleared as a suspect.
B. Penalty Phase
After the jury returned its guilt phase verdicts, the
trial court declared a doubt as to defendant’s

App. 11
competency, suspended proceedings, and commenced
a competency trial before a separate jury. (The
evidence presented in the competency trial is
described further below [see pt. IV., post].) Once
defendant was found competent to stand trial, the
trial proceeded to the penalty phase.
1. Prosecution Evidence
a.

Defendant’s
convictions

criminal

activity

and

prior

The prosecution presented evidence in aggravation
concerning defendant’s unadjudicated criminal
activity and prior criminal convictions.
i. January 6, 1992 incident
Paula Yenerall testified that she was working alone
at an accounting firm in Rialto on the evening of
January 6, 1992 when defendant broke the window
and forced his way into the office. He was wearing a
stocking cap, jacket, and gloves and appeared “very
calm.” He pointed a chrome, semi-automatic gun at
her and demanded money. When she told him that
she had some money in her purse at her desk, he
held the gun to her head and pulled her to her desk
to retrieve the money. He repeatedly said, “Don’t
look at me, bitch,” and at one point said, “I’m a
murderer and I’ll kill you, too.” After taking $1,200
from her, as well as two rings and a gold necklace,
he tied her hands behind her back with a telephone
cord. He then instructed her to stay put and left.

App. 12
ii. January 21, 1992 incident
Janet Heynen testified regarding a January 21, 1992
incident in a psychologist’s office in Upland. While
she was working that evening, defendant appeared
at the reception window. She described him as calm
and wearing a brown beanie, jacket, and gloves. He
pointed a chrome handgun at her face and demanded
money. He told her not to look at him and appeared
to be “pulling the [telephone] cords out.” After she
gave him some cash, he briefly went into a back
office for a couple of minutes and, once he returned,
told her to not call the police and left.
iii. February 19, 1992 incident
John Kendrick testified about a February 19, 1992
incident in Ontario. That evening, he was working in
his accounting office with his clients Paul and Mary
Crawford, when defendant entered the office.
Defendant appeared “[v]ery calm” and was wearing a
gray stocking cap on his head. Pointing a small
chrome handgun at Kendrick, defendant demanded
money. Kendrick and the Crawfords gave defendant
several hundred dollars in cash, while defendant
repeatedly said, “Don’t look at me, man.” Defendant
then instructed them not to call the police for 30
minutes, and he left.
iv. February 21, 1992 incident
Arnold and Sharyn Andersen testified that they
were working together in their insurance and
investment office in San Bernardino on the evening
of February 21, 1992.5 After they heard crashing and
shattering sounds, defendant appeared in the office,

App. 13
pointing a small chrome, automatic gun at them.
Defendant appeared calm and was wearing a beanie.
He demanded money and told the Andersens to lie
down on the floor, repeatedly telling them not to look
at him. He then took some cash from Arnold’s wallet
and Sharyn’s purse and, after Arnold went into his
office to look for more money, defendant took a
money clip with approximately $1,200 from him. As
he was leaving the office, defendant grabbed a bunch
of Kleenex and dabbed his hands where he had cut
them from breaking one of the windows to enter the
office.
v. June 16, 1992 crimes
Bridget E. testified about defendant’s June 16, 1992
crimes in Torrance. She was working at an appraisal
office that evening with her boss, Steve H., when
defendant entered the office and pointed a gun at
them. Defendant was wearing a red bandana over
his lower face. He demanded money, so Bridget E.
gave him some money from her purse. He proceeded
to search the office, asking for the location of a safe.
He repeatedly said, “Don’t look at me, man. Don’t
look at me, man.”
Next, defendant tied Steve H. with telephone cords
and computer cords, unzipped Bridget E.’s pants,
and kicked Steve H. in the ribs a few times. Pointing
the gun at Bridget E.’s head, defendant ordered
Bridget E. to orally copulate Steve H. She told him
that she was pregnant and asked him not to hurt
her, so “[h]e said, just do what I say and you won’t
get hurt — if you don’t want to get hurt.” Bridget E.
proceeded to orally copulate Steve H. She could not

App. 14
recall whether she was tied up at that time.
Defendant then penetrated Bridget E.’s vagina,
initially with his fingers and then with his penis.
Once he stopped, he told her to continue copulating
Steve H. She recounted that her hands and feet were
tied up with cords at that time. After defendant
eventually left the office, Steve H. and Bridget E.
untied themselves and called the police.
vi. Defendant’s other criminal convictions
At the prosecution’s request, the trial court took
judicial notice of 14 prior convictions, of which 13
were for first degree residential burglary and one
was for second degree robbery.
b. Victim impact testimony
The prosecution’s penalty phase evidence also
included victim impact testimony from Nancy
Willem’s father, mother, and younger sister. The
family members described Nancy’s personality and
interests, including her interest in singing and
playing guitar. During her mother’s testimony, the
prosecution played a videotape for the jury depicting
Nancy singing at her youngest sister’s wedding a
couple of years before her death. The family
members further described how Nancy’s death
affected them as a family and as individuals. The
prosecution also offered a photograph of Nancy,
which, according to her father, resembled how she
looked around the time of her death.
The prosecution additionally offered victim impact
testimony from Bridget E. She testified that after
the June 16, 1992 crimes, she was tested “right

App. 15
away” for any diseases, and she was diagnosed with
and treated for chlamydia. She also stopped working
and by the time of the trial, had not had the
opportunity to “get back into” the appraisal business.
She suffered from nightmares for “a long time” and
became “more suspicious of people” and a “more
serious person.”
2. Defense Evidence
a. Defendant’s testimony
Against the advice of counsel, defendant testified
during the penalty phase, largely in a narrative
form. He began by describing a time when he
approached two people who had supposedly killed
his cousin and his neighbor. He explained that the
man who had killed his neighbor told him to testify
about “Wilhelmena’s murder.” Defendant testified
that by “Wilhelmena,” he meant Nancy Willem, and
that Wilhelmena was “able to reveal the things that
happened at the time of the crime.”
He then testified that ever since undergoing foot
surgery when he was a teenager, he suffered from
hallucinations and “ill angels,” which controlled his
actions. He said that he suffered from these “ill
angels” at the time of Willem’s death. As to her
death, he said that “[t]here was one rape” and a
beating of her head with an object, but there was no
strangulation. He said that after he took her money
and bank information, he raped her because the
voices in his head told him that she wanted it. He
described that the voices then grew louder and, in
order to stop them, he beat, kicked, and stomped her.
The voices next took over the left side of his body,

App. 16
causing him to write the note, saying, “Wake up
goverenment [sic].” He testified that since that night,
“Wilhelmena” helped him to control the “ill angels”
and intervened to “save the lives of other females
that were involved in this case.”6
b. Evidence regarding defendant’s mental health
Much of the defense’s penalty phase evidence
concerned defendant’s mental health. Clinical
psychologist Dr. Joseph Lantz testified that
defendant’s intelligence fell within the borderline
range, between mental deficiency and low-average,
and in his opinion, defendant suffered from
schizophrenia. Psychiatrist Dr. Richard Dudley
testified that in his opinion, defendant suffered from
schizo-affective disorder, which he defined as a
combination of schizophrenia and a mood disorder.
He further testified that defendant suffered from
cognitive deficits and problems related to an invasive
mass, which was near his brain and removed after
his arrest. A social worker also testified about
defendant visiting a psychiatric clinic in 1992.
In addition, Dr. Joseph Wu testified regarding a
positron emission tomography (PET) scan of
defendant’s brain, of which photographs and a video
were displayed to the jury. Dr. Wu testified that
while a PET scan cannot alone lead to a diagnosis,
defendant’s brain exhibited abnormalities consistent
with a schizophrenia diagnosis. Dr. Ernie Meth
testified regarding a SPECT (single-photon emission
computed tomography) scan of defendant’s brain, of
which photographs and a video were likewise
displayed to the jury. Dr. Meth testified that based

App. 17
on this scan, defendant’s brain exhibited
abnormalities that were consistent with the results
of Dr. Wu’s PET scan.
c. Other testimony
One of defendant’s childhood friends, Dwayne
Washington, described defendant as a “great kid”
with a tough home life and a love for basketball. He
testified that defendant became depressed during his
teenage years after he underwent foot surgery and
was no longer able to play basketball. He testified
that on a few occasions around 1984 or 1985,
defendant acted strangely and appeared to believe
that people were trying to get him. Washington’s
mother, Sharon Mitchell, described defendant as a
good kid with an “extremely negative” home life.
She, too, recalled that defendant began suffering
from headaches and memory lapses during his
teenage years and recounted a few incidents in
which defendant tried to hide under the table to
prevent people from getting him. Washington’s aunt,
Serette Mitchell-Hughes, testified about one of those
incidents as well. These witnesses also testified
about defendant later getting married and having a
daughter.
Defendant’s former girlfriend, Terry Sylvester,
testified that defendant lived with her and her three
children around the late 1980’s in Atlanta. She said
that during that time, defendant worked and
participated in family activities, but one day, he left
for work and never returned. He later told her that
he went back to California.

App. 18
A retired correctional officer testified that should
defendant be sentenced to life imprisonment, he
could function within the constraints of the prison
facilities and be safely imprisoned.
3. Prosecution’s Rebuttal
In rebuttal, the prosecution offered testimony from
two additional witnesses. First, Deputy Jonathan
Billings testified about a videotape that he said
reflected defendant’s “normal” behavior in jail. The
videotape, a portion of which was played for the jury,
showed defendant watching television and playing
chess with other inmates. Second, psychiatrist Dr.
Rajesh Patel testified that when defendant claimed
to be suicidal in jail, Dr. Patel examined him and
concluded that he was malingering mental illness.
II. Pretrial Issues
A.

Prosecutor’s
Challenges

Use

of

Peremptory

Defendant contends that the prosecutor improperly
exercised peremptory challenges to excuse two
prospective jurors, who were African-American, in
violation of Batson v. Kentucky (1986) 476 U.S. 79,
89, 106 S.Ct. 1712, 90 L.Ed.2d 69 (Batson) and
People v. Wheeler (1978) 22 Cal.3d 258, 276–277, 148
Cal.Rptr. 890, 583 P.2d 748 (Wheeler). The
prosecutor’s exercise of these peremptory challenges,
defendant argues, warrants close scrutiny because
there are heightened concerns about racial
discrimination in this case given that he was
charged with raping and murdering a White woman.
We will examine the prosecutor’s exercise of the

App. 19
peremptory challenges in light of these and all other
relevant circumstances.
1. Background
Jury selection for defendant’s trial began on
November 18, 1998. Following hardships and other
dismissals, the remaining prospective jurors filled
out a 31-page questionnaire. Based on the completed
questionnaires, the parties questioned some of the
prospective jurors on their views regarding the death
penalty pursuant to People v. Hovey (1988) 44 Cal.3d
543, 244 Cal.Rptr. 121, 749 P.2d 776. Once Hovey
questioning concluded, and the trial court excused
prospective jurors for cause or by stipulation, 72
prospective jurors remained. The trial court called
the first 12 prospective jurors to the main panel.
They included three African-American jurors, three
Hispanic jurors, five White jurors, and one
“American Indian / Caucasian” juror.
The parties then commenced general voir dire. After
the defense challenged an African-American
prospective juror for cause and that prospective juror
was replaced, the prosecutor proceeded to exercise
peremptory strikes against Malinda M. (a Hispanic
woman), Kevin C. (an African-American man),
Michelle G. (a White woman), Simeon G. (an
African-American man), and Ronald W. (a White
man). After the prosecutor twice passed on
exercising any peremptory strikes and the defense
exercised three peremptory strikes, the prosecutor
next struck Isabella B. (an African-American
woman).

App. 20
At this time, the defense raised a Batson/Wheeler
objection and moved to quash the panel. The defense
noted that the prosecutor had used three of his six
strikes up to that point on African-American
prospective jurors. The trial court found that a prima
facie case had been established. The court stated
that it understood the basis for striking Isabella B.
based on her answers during Hovey questioning, but
asked the prosecutor to explain the basis for striking
Kevin C. and Simeon G. After hearing the
prosecutor’s reasons, the court found, “As to [Kevin
C.] and [Simeon G.], I think it’s certainly not as
obvious, but I cannot say it is not legitimate. [¶] So,
at this point in time, I will make a finding that there
have been valid reasons to justify excusing those
three prospective jurors pursuant to a peremptory
challenge.”
After the court denied the motion, the 12 prospective
jurors seated in the jury box included nine White
jurors, two Hispanic jurors, and one “American
Indian / Caucasian” juror. The prosecutor twice
passed on exercising any peremptory strikes, and the
defense exercised four peremptory strikes. The
prosecutor then exercised a peremptory strike
against Mary B. (an African-American woman). At
this time, the defense renewed its Batson/Wheeler
objection and motion to quash the panel, arguing
that, although Mary B. expressed reservations about
the death penalty, the prosecutor had exercised his
peremptory strikes to compose an all-White jury
panel. The trial court denied the motion, finding that
Mary B.’s reservations about the death penalty
justified the strike.

App. 21
After the prosecutor peremptorily struck Richard L.
(a Hispanic man), and the defense exercised one
more peremptory strike, the parties accepted the
main jury panel. The panel included 10 White jurors,
one Hispanic juror, and one “American Indian /
Caucasian” juror. The trial court then proceeded to
the selection of six alternate jurors. The prosecutor
repeatedly declined to exercise any peremptory
strikes, except to strike Lynia B. (a White woman).
The sworn alternate jurors included one AfricanAmerican and five White individuals. Before the
penalty phase of the trial, the African-American
alternate juror replaced an excused juror and served
on the jury.
On appeal, defendant renews his challenge to the
prosecutor’s peremptory strikes of Kevin C. and
Simeon G. from the main jury panel. Defendant
states that he “is not challenging” the peremptory
strikes of Isabella B. or Mary B. As we examine
defendant’s Batson/Wheeler arguments with regard
to Kevin C. and Simeon G., we bear the above record
in mind.
a. Prospective Juror Kevin C.
Kevin C., who was African-American, was 32 years
old at the time of jury selection. He was divorced
with three children and worked as a coach operator.
He had previously served in the military and had
previously applied, but had not been selected, for
other law enforcement positions. His former spouse
was a correctional officer.
In his questionnaire, he revealed a degree of

App. 22
skepticism regarding the criminal justice system. He
believed that people accused of crimes were treated
“leniently if you rich harshly if poor.” He previously
served as an alternate juror in a criminal case
involving murder charges, and when asked how his
jury service experience affected his views on the
court system, he said, “It let me know that no matter
the crime or defendant the community selected [as
jurors] is both white and blue collar workers.” He
believed the biggest problem with the system was
“racial coded prison[s] keep racism alive and create
even larger bias.” And when asked whether he, any
relative, or any close friend had ever been
mistreated by a law enforcement officer, he checked
“yes” and said, “pull[ed] over several times no good
reason given no ticket given.”
Asked whether he was upset by the O.J. Simpson
verdict, he checked “no” and commented, “To [sic]
hard to believe one man did it all, I believe biases
created a lot of the circumstance [sic] evidence.” Also
regarding the Simpson case, he said, “watch[ed]
several days of the O.J. Simpson trial taught me [a
lot] about law” in response to whether he had read
about, watched, or listened to any testimony
regarding DNA evidence. Asked about his opinion on
using DNA evidence in criminal cases, he said, “I
think it’s like a polygraph not a for sure certain.”
His questionnaire responses also suggested some
hesitancy about the death penalty. Asked his opinion
on it, he said, “there are members of society who do
bad things and don[’t] deserve to be here, can I kill
them? unknown at this time.” Asked whether he had
a moral, philosophical, or religious objection to the

App. 23
death penalty, he checked “yes,” commenting, “God
should decide life or death, but some don’t deserve[ ]
life.” He identified himself as Christian and
described his religion’s view as “thou should not
kill.” He said that he agreed with that view,
although he added, “but if my child was being
attack[ed] someone might die[ ].” As to whether he
would vote to keep or abolish the death penalty, he
said that he would not vote and remarked, “I like to
decide who could stay in society but not decide who
stays on earth (I’d like to sleep).” He believed that
the death penalty was unfair but admitted, “mainly
because I don’t know it completely.”
In spite of this, he said that his views on the death
penalty had changed in the last 10 years,
commenting, “at first against but now feel it is
needed in special circumstances.” He identified
himself as belonging to Group 3, which was defined
as “I neither favor nor oppose the death penalty.” He
said that his views on the death penalty were not
such that he would never be able to personally vote
for the death of the defendant under any
circumstance. Nor would he be reluctant to vote for a
sentence of death. But he said that he would be
reluctant to sign the verdict form or state the verdict
in court, commenting, “to look at someone not
knowing why he did it would be hard.”
During Hovey questioning, the prosecutor asked
Kevin C. about his moral, philosophical, or religious
objections to the death penalty. Kevin C. responded,
“I feel where I live I should decide. Where I’m a
Christian. I go to church, so I think, you know, I
can’t. I think God should decide. But, you know, I

App. 24
think I should decide if I live in the community.”
Following up on this response, the prosecutor asked,
“Then you made a comment, though, on the next
page. ‘I’d like to decide who could stay in society, but
not decide who stays on earth.’ That means you feel
comfortable [with] making a decision if somebody
should be maybe incarcerated, but you feel less
comfortable making a decision as far as life or death
on an individual?” Kevin C. responded, “Well, of
course I feel uncomfortable about life or death, but
incarcerated for the rest of their life, if they don’t
believe, I would probably go that way, you know.
Just an assumption. But, again, I don’t think I’d
have a big problem, depending on evidence of what is
in front of me. If someone killed my daughter, then I
could see it.” The prosecutor clarified that “of course
we have a victim that you weren’t acquainted with”
and “[y]ou don’t know her at all.” Kevin C. said,
“Right, I’m just saying —”
The prosecutor then defined aggravating and
mitigating evidence and asked, “But you’re going to
hear, like you may hear some bad evidence, and you
may hear some good evidence. But basically, if the
bad outweighs the good — ” Kevin C. responded, “If
the bad outweighs the good, then I don’t have a
problem doing my job.” Asked “[w]hich means you
could, you could vote for a death verdict,” Kevin C.
responded, “Yeah.”
When the trial court subsequently called the first 12
prospective jurors, including Kevin C., to the jury
box, the court and the parties asked a series of
questions to the jurors as a group. Neither the
prosecutor nor the defense asked Kevin C. any

App. 25
individual questions during general voir dire.
Following defendant’s Batson/Wheeler objection, the
prosecutor stated his reasons for striking Kevin C.:
“[Kevin C.] in his questionnaire compared DNA to a
polygraph. That it wasn’t a for sure thing. His
answers on the questionnaire regarding the death
penalty were much more tentative. He indicated
questions like he wants to decide who is in society,
but not [who’s] on earth. He was very skeptical of the
O.J. Simpson case. He stated biases created the
circumstantial evidence in the O.J. Simpson case.
This is a DNA case very much like that. It’s a
circumstantial case. It’s a DNA case. Those, those
are the main concerns that I had.” The prosecutor
added, “I think that in person his, his statements
about the death penalty didn’t rise to a level for
cause; but, however, I think when you take the
totality of his responses, I think, I mean those are
essentially the reasons that I’m stating.” The court
found that the prosecutor’s reasons for striking
Kevin C. were legitimate and valid.
b. Prospective Juror Simeon G.
Simeon G. was an unmarried, 24-year-old AfricanAmerican man with no children at the time of jury
selection for defendant’s trial. He worked as a
forklift driver. He had previously considered working
in law enforcement to help others, and his father
worked for the DEA.
In his questionnaire, he described himself as a
leader rather than a follower and remarked, “I like
my opinion over other peoples [sic].” He said that he

App. 26
had not previously worked with a group of people to
make a decision, although he believed “it would be
very interesting” to work with other jurors to reach a
verdict. He had not previously served on a jury.
Asked whether he believed the jury system to be a
fair method to judge a defendant charged with a
crime, he replied affirmatively, commenting, “12
people have to come together to accuse someone.
That[’]s 12 different opinions. Pretty impressive.”
He considered the biggest problems with the
criminal justice system to be “A. The Court Backlog.
B. Better ways of getting people through the judicial
system.” He believed he could be a fair and impartial
juror, stating, “I’m open to objectively listening to
evidence from both sides to decide a fair verdict.” He
did not believe that testimony by law enforcement
officers would be more truthful or accurate than
testimony by civilians; he would not automatically
accept the opinion of a psychiatrist or psychologist;
and he could follow an instruction that if a defendant
does not testify, jurors are not supposed to draw any
conclusions from that fact.
Asked whether he could follow an instruction “that a
defendant is presumed innocent unless proven guilty
beyond a reasonable doubt,” he checked “yes” but
commented, “If I have any feeling that he might not
have done it, hes [sic] innocent.” In that response, it
appears that he crossed out the word “doubt” and
replaced it with the word “feeling.” Elsewhere, he
indicated that he was not upset by the O.J. Simpson
verdict (without providing any explanation); that
people accused of crimes are treated fairly; and that
he “really [didn’t] know anything about” DNA

App. 27
evidence in criminal cases. He also favored the death
penalty and said that he could vote for a death
sentence.
During general voir dire, Simeon G. and two other
prospective jurors did not arrive at the courthouse
that morning, possibly due to a miscommunication.
The defense insisted on trying to locate these
missing prospective jurors. The prosecutor objected
to doing so, arguing that other prospective jurors in
their group were present in court and thus inferring
that the missing prospective jurors “voluntarily
absented themselves.” It appears that the trial
judge, seeing from Simeon G.’s questionnaire that he
worked for Kmart Corporation, “called information
and got the numbers of two Kmart stores in the
Ontario area and [called] to try to locate Simeon
[G.].” Simeon G. then called and spoke to the bailiff,
and at the bailiff’s request, Simeon G. came to court
that afternoon.
That afternoon, the prosecutor explained to the
prospective jurors who were seated in the jury box,
including Simeon G.: “[O]ne of the instructions
you’re going to get in the case has to do with,
essentially, reasonable doubt. There will be a
definition that you’re going to get at the end of the
case. It’s basically a doubt based on reason. And the
duty is that if the case has been proved by the
prosecution beyond a reasonable doubt, your duty is
to return a guilty verdict. There’s [sic] also other
principles that are, I don’t know how deeply we
touched on them in the questionnaire, but the
presumption of innocence. Of course, everybody who
is charged with a crime is entitled to the

App. 28
presumption of innocence, and that is in existence
right now. [¶] The question is, is if it [sic] at the
conclusion of the case if the case has been proved
beyond a reasonable doubt whether we can expect
everybody to come back with a guilty verdict.”
Immediately following this explanation, the
prosecutor asked Simeon G., “[I]n your questionnaire
you mentioned something — and keep in mind I’m
not intending to, you know, embarrass anybody or
anything like that. It’s just, like I said, this is the
only way we can get information quickly is to kind of
be in a group at this point. [¶] You mentioned that if
— [Simeon G.], you mention in your questionnaire
that if you had any feeling that maybe the defendant
was [not] involved, then he’d be not guilty.”7 Simeon
G. replied, “I’m sorry?” The prosecutor explained, “In
your questionnaire, you used the phrase that if you
have a feeling that the defendant was [not] involved,
that you’d find him not guilty. And you used the
word ‘feeling’ instead of the word ‘doubt.’ You’d
written ‘doubt’ and crossed out and written the word
‘feeling.’ Do you remember that?” Simeon G. replied,
“I don’t quite remember it, but I’m trying to
understand your question. You’re saying if I had a
reasonable doubt?”
The prosecutor responded, “Well, I’m not sure. I’m
trying to understand what you meant by that. You
indicated that if you had a feeling that he might not
be involved, then he would be not guilty?” Simeon G.
replied, “Well, I think what I was trying to say, if I’m
correct, is that if the evidence showed that there
wasn’t — that there was some reasonable doubt,
then I probably would not accuse him, because of the

App. 29
fact that, myself being in the same situation or
anybody, I think that if the evidence didn’t totally
prove that I did it, then there is some doubt. You
know what I’m saying?” The prosecutor said, “Okay.”
Simeon G. added, “So it wasn’t so much a feeling as
it was if the evidence didn’t show.” When the
prosecutor sought to clarify the answer, asking,
“Okay. So you would base it on evidence?” Simeon G.
replied, “Basically, yes. I’m sorry.” The prosecutor
commented, “I wanted to make sure,” and Simeon G.
added, “I couldn’t tell you, tell you what I said,
because I don’t have the paper to look at what I
actually meant totally.” The prosecutor concluded,
“Okay. Thank you.”
Following defendant’s Batson/Wheeler objection, the
prosecutor stated his reasons for striking Simeon G.:
“[Simeon G.] made statements on his questionnaire
how he likes his opinions over others. He did make a
statement, although he explained it differently in
court, he made a statement on his questionnaire
basically saying if I have a feeling he didn’t do it,
he’s not guilty. And he had crossed out the word
doubt, which led me to believe that he certainly
wasn’t going to base it on evidence. [¶] And I, also,
would note that this is an individual who the Court
personally tracked down this morning. He didn’t
have — he, unlike others in his group, didn’t show
up for court this morning. I would be concerned
about his responses in light of the fact that he was,
he was single-handedly hunted down to be here this
afternoon. So, I’m not sure that his responses in
court should prevail over the answers he gave on his
questionnaire. But certainly those statements on his
questionnaire cause me some significant concerns.”

App. 30
Seeking clarification, the court asked, “His answer
being that if he had a feeling the defendant was not
guilty, that was the answer that bothered you?” The
prosecutor responded, “Yes, based on — and he had
crossed out the word doubt. And to me that made it
sound like he was going to be basically basing it on a
hunch, or a feeling, which was, as the presenter of
evidence, I’m powerless to overcome. And that was
the main concern on that.” The prosecutor then
added, “Also, he was not upset by the O.J. Simpson
verdict. If you’ll notice across the board, I’ve excused
jurors I believe of Hispanic origin and Caucasian
origin, and the common denominator, essentially, is
that they were not, were not upset by the O.J.
Simpson verdict, which was a DNA, circumstantial
case. And I think those, those raise significant
concerns in my mind as a guilt phase juror and the
type of case that I’m dealing with.”
Following the prosecutor’s reasons, defense counsel
stated that Simeon G. misunderstood whether “he
was supposed to be here today or tomorrow” and,
once it was clarified, he appeared. Defense counsel
continued, “[Simeon G.] checked on his questionnaire
with regard to the death penalty that he’s a Group 2,
that he favors the death penalty, but would weigh
and consider aggravating circumstances. [¶] He
really doesn’t give any answers that suggest that he
couldn’t be fair and impartial. He indicates that his
father was a D.E.A. agent. [¶] With regard to DNA,
he said he didn’t know anything about it.”
The court responded, “Well, I understand that
there’s certainly not enough there to excuse him for

App. 31
cause, but that’s not the test that I have to utilize in
this situation. I have to determine whether or not
there are valid, legitimate reasons for the District
Attorney dismissing three of the four Blacks that
were called to the box. [¶] As I indicated, as to
[Isabella B.], I understand his concern there. As to
[Kevin C.] and [Simeon G.], I think it’s certainly not
as obvious, but I cannot say it is not legitimate. [¶]
So, at this point in time, I will make a finding that
there have been valid reasons to justify excusing
those three prospective jurors pursuant to a
peremptory challenge. But I don’t need to remind
counsel that we’re treading on thin ice in this area,
and the consequences of falling through means we
start all over again.”
2. Discussion
a. Applicable law
The United States and California Constitutions
prohibit the discriminatory use of peremptory
challenges. (Batson, supra, 476 U.S. at p. 89, 106
S.Ct. 1712; Wheeler, supra, 22 Cal.3d at pp. 276–277,
148 Cal.Rptr. 890, 583 P.2d 748.) A three-step
inquiry governs the analysis of Batson/Wheeler
claims. “First, the defendant must make out a prima
facie case ‘by showing that the totality of the
relevant facts gives rise to an inference of
discriminatory purpose.’ [Citation.] Second, once the
defendant has made out a prima facie case, the
‘burden shifts to the State to explain adequately the
racial exclusion’ by offering permissible race-neutral
justifications for the strikes. [Citations.] Third, ‘[i]f a
race-neutral explanation is tendered, the trial court
must then decide ... whether the opponent of the

App. 32
strike has proved purposeful racial discrimination.’”
(Johnson v. California (2005) 545 U.S. 162, 168, fn.
omitted, 125 S.Ct. 2410, 162 L.Ed.2d 129.)
“‘The proper focus of a Batson/Wheeler inquiry, of
course, is on the subjective genuineness of the raceneutral reasons given for the peremptory challenge,
not on the objective reasonableness of those reasons.
... All that matters is that the prosecutor’s reason for
exercising the peremptory challenge is sincere and
legitimate, legitimate in the sense of being
nondiscriminatory.’” (People v. O’Malley (2016) 62
Cal.4th 944, 975, 199 Cal.Rptr.3d 1, 365 P.3d 790
(O’Malley).) “‘At the third stage of the
Wheeler/Batson inquiry, “the issue comes down to
whether the trial court finds the prosecutor’s raceneutral explanations to be credible. Credibility can
be measured by, among other factors, the
prosecutor’s demeanor; by how reasonable, or how
improbable, the explanations are; and by whether
the proffered rationale has some basis in accepted
trial strategy.”’” (People v. Jones (2011) 51 Cal.4th
346, 360, 121 Cal.Rptr.3d 1, 247 P.3d 82 (Jones).)
“‘“‘[T]he trial court is not required to make specific or
detailed comments for the record to justify every
instance in which a prosecutor’s race-neutral reason
for exercising a peremptory challenge is being
accepted by the court as genuine.’”’” (People v. Vines
(2011) 51 Cal.4th 830, 848, 124 Cal.Rptr.3d 830, 251
P.3d 943 (Vines).) However, “‘[w]hen the prosecutor’s
stated reasons are either unsupported by the record,
inherently implausible, or both, more is required of
the trial court than a global finding that the reasons
appear sufficient.’” (People v. Gutierrez (2017) 2

App. 33
Cal.5th 1150, 1171, 218 Cal.Rptr.3d 289, 395 P.3d
186 (Gutierrez).)
Where, as here, the trial court ruled pursuant to the
third stage of the analysis, we skip to that stage to
examine whether the trial court properly credited
the prosecutor’s reasons for the challenges. “Review
of a trial court’s denial of a Wheeler/Batson motion
is deferential, examining only whether substantial
evidence supports its conclusions. [Citation.] ‘We
review a trial court’s determination regarding the
sufficiency of a prosecutor’s justifications for
exercising peremptory challenges “‘with great
restraint.’” [Citation.] We presume that a prosecutor
uses peremptory challenges in a constitutional
manner and give great deference to the trial court’s
ability to distinguish bona fide reasons from sham
excuses. [Citation.] So long as the trial court makes
a sincere and reasoned effort to evaluate the
nondiscriminatory
justifications
offered,
its
conclusions are entitled to deference on appeal.’”
(People v. Lenix (2008) 44 Cal.4th 602, 613–614, 80
Cal.Rptr.3d 98, 187 P.3d 946 (Lenix); accord, People
v. Winbush (2017) 2 Cal.5th 402, 435, 213
Cal.Rptr.3d 1, 387 P.3d 1187 (Winbush).)
Defendant, however, argues that the trial court’s
findings are not entitled to deference here because
the prosecutor’s reasons were “suspicious” and, after
hearing them, the court credited them without much
discussion on the record. We disagree. The trial
court found that a prima facie case had been
established and asked the prosecutor to explain the
basis for striking Kevin C. and Simeon G. The
prosecutor’s stated reasons were largely self-evident:

App. 34
It requires “little additional explication” (Gutierrez,
supra, 2 Cal.5th at p. 1171, 218 Cal.Rptr.3d 289, 395
P.3d 186) to understand why an advocate would
harbor a concern about a prospective juror’s stated
preference for his own opinion over others’ or a
prospective juror’s opinion on DNA evidence, the
death penalty, or the O.J. Simpson verdict.
Moreover,
the
prosecutor
articulated
why,
specifically, some of the prospective jurors’ responses
concerned him. The court also asked the prosecutor a
question about one of his stated reasons for striking
Simeon G. (See ante, 263 Cal.Rptr.3d at p. 170, 464
P.3d at p. 633 [“His answer being that if he had a
feeling the defendant was not guilty, that was the
answer that bothered you?”].) And the court listened
to defense counsel’s comments on the prosecutor’s
striking of Simeon G.8 The trial court acknowledged
that “there’s certainly not enough there to excuse
[Simeon G.] for cause,” but the trial court accurately
explained that “that’s not the test” and instead it
must determine whether there were “valid,
legitimate” reasons to justify the prosecutor’s
peremptory challenges.
The court then acknowledged that the prosecutor’s
stated reasons for striking Kevin C. and Simeon G.
were not as “obvious” (as the reasons for striking
another prospective juror, Isabella B.). The court,
however, concluded that the prosecutor’s reasons for
striking Kevin C. and Simeon G. were legitimate and
valid. The court added, “I don’t need to remind
counsel that we’re treading on thin ice in this area,
and the consequences of falling through means we
start all over again.” While the discussion was brief,
and while the trial court could have done more to

App. 35
make a fuller record and itself acknowledged it was
making a somewhat close call, the record shows that
the court considered the prosecutor’s reasons and, as
discussed below, those reasons were plausible and
supported by the record. In these circumstances,
while a more detailed colloquy may well have been
helpful, the prosecutor and the trial court adequately
developed the record, and on this record, we conclude
that the trial court’s findings are entitled to
deference. (See People v. Hardy (2018) 5 Cal.5th 56,
76, 233 Cal.Rptr.3d 378, 418 P.3d 309 (Hardy)
[“‘“When the prosecutor’s stated reasons are both
inherently plausible and supported by the record,
the trial court need not question the prosecutor or
make detailed findings”’”].)
i. Comparative juror analysis
“Also relevant here, in light of defendant’s appellate
arguments, are principles pertaining to comparative
juror analysis, which, on a claim of race-based
peremptory challenges, compares the voir dire
responses of the challenged prospective jurors with
those of similar jurors who were not members of the
challenged jurors’ racial group, whom the prosecutor
did not challenge. [Citation.] ‘[C]omparative juror
analysis is but one form of circumstantial evidence
that is relevant, but not necessarily dispositive, on
the issue of intentional discrimination.’” (O’Malley,
supra, 62 Cal.4th at pp. 975–976, 199 Cal.Rptr.3d 1,
365 P.3d 790.) Comparative juror analysis is
appropriately confined to the jurors defendant has
specifically discussed in his appellate briefing.
(Winbush, supra, 2 Cal.5th at pp. 442–443, 213
Cal.Rptr.3d 1, 387 P.3d 1187.)

App. 36
“Where, as here, the comparative analysis was not
made at trial, ‘the prosecutor generally has not
provided, and was not asked to provide, an
explanation for nonchallenges.’ [Citation.] Therefore,
‘an appellate court must be mindful that an
exploration of the alleged similarities at the time of
trial might have shown that the jurors in question
were not really comparable.’ [Citation.] When a
defendant asks for comparative juror analysis for the
first time on appeal, we have held that ‘such
evidence will be considered in view of the deference
accorded the trial court’s ultimate finding of no
discriminatory intent.’” (O’Malley, supra, 62 Cal.4th
at p. 976, 199 Cal.Rptr.3d 1, 365 P.3d 790.) We have
also held that under these circumstances, “‘a
reviewing court need not, indeed, must not turn a
blind eye to reasons the record discloses for not
challenging other jurors even if those other jurors
are similar in some respects to excused jurors.’” (Id.
at p. 977, 199 Cal.Rptr.3d 1, 365 P.3d 790.)
In supplemental briefing, defendant takes issue with
our approach to conducting comparative juror
analysis for the first time on appeal. He argues that
we should ignore some of the Attorney General’s
efforts to distinguish challenged prospective jurors
from those purportedly similar jurors whom the
prosecutor did not challenge. Considering such
distinctions, defendant argues, is inconsistent with
recent decisions by the high court and “increases the
risk that racial discrimination will persist in the
criminal justice system.”
Defendant’s argument rests primarily on Miller-El v.

App. 37
Dretke (2005) 545 U.S. 231, 125 S.Ct. 2317, 162
L.Ed.2d 196 (Miller-El). There, the high court made
clear that “a prosecutor simply has got to state his
reasons [for a peremptory challenge] as best he can
and stand or fall on the plausibility of the reasons he
gives.” (Id. at p. 252, 125 S.Ct. 2317.) The high court
also cited this portion of its opinion in a footnote
criticizing the dissent for “focus[ing] on reasons the
prosecution itself did not offer” when the dissent
explained why the nonchallenged jurors “were
otherwise more acceptable to the prosecution than
[the challenged prospective juror].” (Id. at p. 245, fn.
4, 125 S.Ct. 2317.) Relying on these two excerpts,
defendant observes that, in response to his
comparative juror analysis, the Attorney General
offers “new reasons for why the white jurors were
not discharged” and argues that this “approach is
barred by Miller-El’s stand or fall principle because
it is simply the flip side of the same coin of offering
new reasons for the discharge of the black jurors”
and, moreover, is explicitly rejected by Miller-El’s
footnote four. Defendant further argues that this
approach is inconsistent with Snyder v. Louisiana
(2008) 552 U.S. 472, 128 S.Ct. 1203, 170 L.Ed.2d 175
(Snyder) and Foster v. Chatman (2016) 578 U.S. –––
– [136 S.Ct. 1737], 195 L.Ed.2d 1 (Foster) because
the state in those cases offered new reasons for why
the White jurors were not discharged and, without
discussing those reasons, the high court concluded
that, for a multitude of reasons, the peremptory
strikes were motivated in substantial part by
discriminatory intent.
We have recognized that “in judging why a
prosecutor exercised a particular challenge, the trial

App. 38
court and reviewing court must examine only the
reasons actually given. ‘If the stated reason does not
hold up, its pretextual significance does not fade
because a trial judge, or an appeals court, can
imagine a reason that might not have been shown up
as false.’” (Jones, supra, 51 Cal.4th at p. 365, 121
Cal.Rptr.3d 1, 247 P.3d 82, quoting Miller-El, supra,
545 U.S. at p. 252, 125 S.Ct. 2317.) However, we
have rejected the further argument that in
conducting comparative juror analysis for the first
time on appeal, “we may not consider reasons not
stated on the record for accepting other jurors.”
(Jones, at p. 365, 121 Cal.Rptr.3d 1, 247 P.3d 82.) In
rejecting that argument, we have observed that “no
authority has imposed the additional burden [on the
prosecution] of anticipating all possible unmade
claims of comparative juror analysis and explaining
why other jurors were not challenged.” (Ibid.)
Absent further explanation from the high court, we
do not read Miller-El to require us when conducting
comparative juror analysis for the first time on
appeal, to turn a blind eye to reasons the record
discloses for not challenging other jurors even if
those jurors are similar in some respects to excused
jurors. Reading Miller-El to restrict our review of the
record in this manner would seem inconsistent with
the high court’s subsequent statement that the high
court in Miller-El “made it clear that in considering
a Batson objection, or in reviewing a ruling claimed
to be Batson error, all of the circumstances that bear
upon the issue of racial animosity must be
consulted.” (Snyder, supra, 552 U.S. at p. 478, 128
S.Ct. 1203.) Nor do we read Snyder and Foster,
supra, 578 U.S. –––– [136 S.Ct. 1737] to expressly

App. 39
prohibit us from considering such reasons the record
discloses for not challenging other jurors in these
circumstances.
That said, we take the opportunity to clarify and to
emphasize the following two points about our
approach to comparative juror analysis.
First, comparative juror analysis is a form of
circumstantial evidence that is relevant on the issue
of purposeful discrimination. “If a prosecutor’s
proffered reason for striking a black panelist applies
just as well to an otherwise-similar nonblack who is
permitted to serve, that is evidence tending to prove
purposeful discrimination to be considered at
Batson’s third step.” (Miller-El, supra, 545 U.S. at p.
241, 125 S.Ct. 2317.) When a prosecutor states
multiple reasons for challenging a juror, a
comparison between the challenged juror and a
similar nonchallenged juror in regard to any one of
the prosecutor’s stated reasons is relevant, but not
necessarily dispositive, on the issue of purposeful
discrimination. (See id. at p. 247, fn. 6, 125 S.Ct.
2317 [“The dissent contends that there are no white
panelists similarly situated to [the challenged jurors]
because ‘“‘[s]imilarly situated’ does not mean
matching any one of several reasons the prosecution
gave for striking a potential juror — it means
matching all of them.”’ [Citation.] None of our cases
announces a rule that no comparison is probative
unless the situation of the individuals compared is
identical in all respects, and there is no reason to
accept one”].)9
Second, when conducting comparative juror analysis

App. 40
for the first time on appeal, we need not turn a blind
eye to reasons the record discloses for not
challenging other jurors. “This is so because a party
legitimately may challenge one prospective juror but
not another to whom the same particular concern
applies. [Citation.] ‘Two panelists might give a
similar answer on a given point. Yet the risk posed
by one panelist might be offset by other answers,
behavior, attitudes or experiences that make one
juror, on balance, more or less desirable. These
realities, and the complexity of human nature, make
a formulaic comparison of isolated responses an
exceptionally poor medium to overturn a trial court’s
factual finding.’” (People v. Chism (2014) 58 Cal.4th
1266, 1319, 171 Cal.Rptr.3d 347, 324 P.3d 183
(Chism); accord, People v. Krebs (2019) 8 Cal.5th
265, 293–294, 255 Cal.Rptr.3d 95, 452 P.3d 609.)
However, “we bear in mind that comparative juror
analysis is not simply an exercise in identifying any
conceivable distinctions among prospective jurors. ‘A
per se rule that a defendant cannot win a Batson
claim unless there is an exactly identical white juror
would leave Batson inoperable; potential jurors are
not products of a set of cookie cutters.’ [Citation.]
Rather, because the ultimate question before us
concerns the prosecutor’s motivations in exercising
the challenge in question, we must ask whether
there were any material differences among the
jurors — that is, differences, other than race, that
we can reasonably infer motivated the prosecutor’s
pattern of challenges.” (O’Malley, supra, 62 Cal.4th
at p. 977, 199 Cal.Rptr.3d 1, 365 P.3d 790.) In
determining whether there were any material
differences among the jurors, we note that

App. 41
differences among the jurors generally will be more
probative if they closely relate to reasons the
prosecutor has stated for a peremptory challenge.
Because in this case we rely on differences among
the jurors that closely relate to reasons the
prosecutor has stated for a peremptory challenge, we
need not opine on whether differences among the
jurors can be material even if they are wholly
unrelated to reasons the prosecutor has stated for a
peremptory challenge.
b. Prospective Juror Kevin C.
As a preliminary matter, defendant accurately
points out that the prosecutor questioned Kevin C.
regarding the death penalty but did not question
Kevin C. regarding DNA evidence or the O.J.
Simpson verdict. (See Smith, supra, 4 Cal.5th at p.
1152, 233 Cal.Rptr.3d 1, 417 P.3d 662 [“an attorney’s
failure to meaningfully examine a prospective juror
about a subject about which the attorney claims to
be concerned can constitute evidence of pretext”].)
The prosecutor’s failure to question Kevin C. about
“each and every area of articulated concern,”
however, does not necessarily demonstrate that
those concerns were pretextual. (People v. Cowan
(2010) 50 Cal.4th 401, 451, 113 Cal.Rptr.3d 850, 236
P.3d 1074 (Cowan).) That the prosecutor failed to
engage Kevin C. in voir dire is also less significant
where, as here, the prosecutor received before voir
dire, Kevin C.’s responses to the 31-page written
questionnaire containing 130 questions. (See People
v. Melendez (2016) 2 Cal.5th 1, 19, 211 Cal.Rptr.3d
49, 384 P.3d 1202 (Melendez) [“‘plac[ing] little weight
on the prosecutor’s failure to individually or more

App. 42
thoroughly question a prospective juror before
exercising a peremptory challenge’” where the
prosecutor reviewed a “detailed” jury questionnaire
and heard defense counsel question the prospective
juror]; Jones, supra, 51 Cal.4th at p. 363, 121
Cal.Rptr.3d 1, 247 P.3d 82.) Indeed, the prosecutor’s
concerns about Kevin C.’s views regarding DNA
evidence and the O.J. Simpson verdict “arose from a
pair of questionnaire responses that spoke for
themselves; no additional clarification was needed to
ascertain [Kevin C.’s] meaning.” (Smith, supra, 4
Cal.5th at p. 1152, 233 Cal.Rptr.3d 1, 417 P.3d 662;
cf. People v. Lewis and Oliver (2006) 39 Cal.4th 970,
1018, fn. 14, 47 Cal.Rptr.3d 467, 140 P.3d 775 [“One
inference that may be drawn from any such decision
to ask few or no questions is that the prosecutor had
already properly determined that a challenge was
warranted based on the questionnaire or existing
voir dire answers, and that further questioning was
unnecessary”].)
Defendant also accurately points out that the
prosecutor did not question other prospective jurors
regarding DNA evidence or the O.J. Simpson verdict
during voir dire. Defendant argues that this
circumstance suggests that the prosecutor was not
sincerely concerned about jurors’ views regarding
these topics. Our review of the record confirms that
both the prosecutor and the defense asked very few
questions during voir dire.10
However, our review of the record also indicates
that, contrary to defendant’s argument, the
prosecutor appeared interested in jurors’ views
regarding DNA evidence and the O.J. Simpson

App. 43
verdict. For the questionnaire, the prosecutor
proposed various questions regarding scientific
evidence, even leading defense counsel to request
modifications to those questions because defense
counsel “really [didn’t] like having blood and semen,
DNA, and all that stuff repeated over, and over
again in the questions as though it’s an important
thing for [the prospective jurors] to be worried about
in the case before they even hear what the evidence
is.” During voir dire, the prosecutor also asked the
prospective jurors as a group whether they would
“have a problem applying basically the law, and
finding circumstantial evidence is every bit as
important as direct evidence.” The prosecutor later
explained that he considered O.J. Simpson’s case to
be similar to defendant’s case given that both relied
on DNA evidence and circumstantial evidence.
Keeping these and all relevant circumstances in
mind, we proceed to examine each of the prosecutor’s
stated reasons for striking Kevin C.
Regarding the prosecutor’s first reason, the
prosecutor stated, “[Kevin C.] in his questionnaire
compared DNA to a polygraph. That it wasn’t a for
sure thing.” The prosecutor’s case relied heavily on
DNA evidence. The prosecutor’s reason for striking
Kevin C. is plausible, supported by the record, and
race neutral. However, defendant argues that five
other jurors (Jurors Nos. 10 and 11 and Alternate
Jurors Nos. 1, 4, and 5) expressed similar
reservations about DNA evidence yet were neither
questioned nor excused by the prosecutor. Not so.
Unlike Kevin C., these other jurors did not express a
negative opinion on DNA evidence. Rather, when

App. 44
asked about DNA evidence, Juror No. 10 replied,
“should be admitted if can show + prove accuracy;”
Alternate Juror No. 1 replied, “All evidence if more
conclusive than not should be considered;” and
Alternate Juror No. 4 replied, “No opinion.” In
addition, although Alternate Juror No. 5 replied,
“It[’]s ok but shouldn’t be only evidence used” and
stated elsewhere, “seems it could be accurate,” this
response merely emphasized his preference to
consider all evidence, a concept that he repeated
elsewhere in his questionnaire. Lastly, Juror No. 11
responded, “OK if it[’]s true evidence.” This response
might suggest that some DNA evidence may not be
“true” evidence, but even if so, this response was less
negative than Kevin C.’s response, which
characterized all DNA evidence as “like a polygraph
not a for sure certain.” Thus, the prosecutor “could
plausibly have distinguished” among these views
regarding DNA evidence in deciding to strike only
Kevin C. (People v. Mills (2010) 48 Cal.4th 158, 183,
106 Cal.Rptr.3d 153, 226 P.3d 276 (Mills)
[comparative juror analysis unpersuasive where
prosecutor distinguished among prospective jurors’
views on scientific evidence]; see also People v.
Wilkinson (2004) 33 Cal.4th 821, 850, 16 Cal.Rptr.3d
420, 94 P.3d 551 [discussing “the deep division in the
scientific and legal communities regarding the
reliability of polygraph evidence”].)
As to the second reason, the prosecutor accurately
characterized Kevin C.’s questionnaire responses
regarding the death penalty as “tentative.” “A
prospective juror’s views about the death penalty are
a permissible race- and group-neutral basis for
exercising a peremptory challenge in a capital case.”

App. 45
(People v. McDermott (2002) 28 Cal.4th 946, 970–
971, 123 Cal.Rptr.2d 654, 51 P.3d 874; see e.g.,
Winbush, supra, 2 Cal.5th at p. 436, 213 Cal.Rptr.3d
1, 387 P.3d 1187 [a juror’s religious reservations
about the death penalty can justify a peremptory
challenge]; People v. Garcia (2011) 52 Cal.4th 706,
749, 129 Cal.Rptr.3d 617, 258 P.3d 751 [a juror’s
“mixed and vague” views about the death penalty
can justify a peremptory challenge]; People v. Lomax
(2010) 49 Cal.4th 530, 572, 112 Cal.Rptr.3d 96, 234
P.3d 377 (Lomax) [a juror’s reluctance to impose the
death penalty can justify a peremptory challenge].)
Kevin C.’s questionnaire responses indicated that he
was uncertain whether he could vote for a death
sentence and that he had religious reservations
about the death penalty. He wrote, “there are
members of society who do bad things and don[’]t
deserve to be here, can I kill them? unknown at this
time.” He believed that the death penalty was unfair
and said that he would be reluctant to sign a verdict
form for a sentence of death or state the verdict in
court. He identified himself as a Christian who
generally agreed with his religion’s view that “thou
should not kill.” Asked whether he had a moral,
philosophical, or religious objection to the death
penalty, he checked “yes,” commenting, “God should
decide life or death, but some don’t deserve[ ] life.”
He also wrote, “I like to decide who could stay in
society but not decide who stays on earth (I’d like to
sleep).”
It is true that Kevin C. said during Hovey
questioning that he could vote for a death sentence,
and when asked about his religious objection to the

App. 46
death penalty, he explained, “I feel where I live I
should decide. Where I’m a Christian. I go to church,
so I think, you know, I can’t. I think God should
decide. But, you know, I think I should decide if I
live in the community.” But the prosecutor
acknowledged this, stating, “I think that in person
his, his statements about the death penalty didn’t
rise to a level for cause; but, however, I think when
you take the totality of his responses, I think, I mean
those are essentially the reasons that I’m stating.”
Given “[t]he totality of” Kevin C.’s responses
regarding the death penalty, the record amply
supports the prosecutor’s stated concern. (See
Lomax, supra, 49 Cal.4th at p. 572, 112 Cal.Rptr.3d
96, 234 P.3d 377 [“[If] statements or attitudes of the
juror suggest that the juror has ‘reservations or
scruples’ about imposing the death penalty, this
demonstrated reluctance is a race-neutral reason
that can justify a peremptory challenge, even if it
would not be sufficient to support a challenge for
cause”].)
Defendant
nevertheless
contends
that
the
prosecutor’s reason was pretextual because Kevin
C.’s reservations about the death penalty mirrored
those of Jurors Nos. 2, 5, 6, 8, and 9 and Alternate
Jurors Nos. 1 and 4, whom the prosecutor did not
strike. Unlike Kevin C., none of the jurors identified
by defendant expressed a religious objection to the
death penalty. (Cf. Winbush, supra, 2 Cal.5th at p.
436, 213 Cal.Rptr.3d 1, 387 P.3d 1187 [upheld
peremptory challenge where “[t]he trial court
observed [the prospective juror’s] statement that
only God can take a life expressed a ‘startling and
dramatic’ reservation about the death penalty based

App. 47
on what appeared to be the juror’s strongly held
religious beliefs [and] [t]he court observed that no
other juror had expressed such a strongly held
view”].)
Instead, most of these jurors merely expressed a
degree of unfamiliarity or slight discomfort with the
death penalty. For example, Alternate Juror No. 4
appeared unfamiliar with the death penalty,
indicating that she did not know whether the death
penalty was used too often or too seldom or whether
it was fair or unfair, and stating, “I would have to
decide based on the evidence + the judge[’]s
instructions regarding [the] death penalty.” Juror
No. 5 had “mixed emotions” about the death penalty,
but she believed the death penalty was fair, she
would vote to keep it “[j]ust in case,” and she would
not be reluctant to vote for a sentence of death, sign
the verdict form, or state the verdict in court. Juror
No. 9 stated, “I have mixed emotions. I must know
that someone is actually guilty, I feel the death
penalty is fair.” She also would vote to keep the
death penalty, believed it was used too seldom, and
would not be reluctant to vote for a sentence of
death, sign the verdict form, or state the verdict in
court. And, while Alternate Juror No. 1 made clear
that her opinion on the death penalty “depend[ed] on
the crime,” she also confirmed that she believed the
death penalty was fair and would not be reluctant to
vote for a death sentence, sign the verdict form, or
state the verdict in court.
Some of the jurors identified by defendant, however,
expressed more significant reservations about the
death penalty. Juror No. 6 commented, “insecure

App. 48
about my feelings. I do believe in the death penalty
but do not know how I feel about administering it.”
But, she, too, said that she would vote to keep the
death penalty, that it was fair and used too seldom,
and that she would not be reluctant to personally
vote for a death sentence, sign the verdict form, or
state the verdict in court. She also identified with
Group 2, which was defined as “I favor the death
penalty, but will not always vote for death in every
case of murder with special circumstances.” During
Hovey questioning, she said that she might be
reluctant to sentence somebody to death, but asked
whether “feeling guilty” in her “heart” might “affect
the way [she] act[s] on the way [she] feel[s] in [her]
head,” she confirmed, “No, I can truthfully say, no, I
would not. No. It’s just my own feelings, I should
say.” She confirmed that she could follow the law,
she could sign a verdict form for a death sentence,
and although she “wouldn’t feel good about it,” she
could state the verdict for a death sentence in court.
In addition, Juror No. 8 identified with Group 4,
which was defined as “I have doubts about the death
penalty, but I would not vote against it in every
case.” He believed the death penalty was used too
often and said that the death penalty “should be
reserved for only the most heinous of crimes.” But he
characterized the death penalty as fair and would
vote to keep it because it is a “necessary evil.” He
said that his views were not such that he could never
vote for a death sentence, explaining, “if the
situation proved to warrant such a punishment, I
would vote for it.” He also said that he would not be
reluctant to personally vote for a death sentence,
sign the verdict form, or state the verdict in court,

App. 49
although he “would not automatically seek the
highest punishment.” During Hovey questioning,
Juror No. 8 said, “I used to really be for the death
penalty, but since then I’ve changed my views to I’m
not totally against it, but I’m not totally for it
either.” He acknowledged that he viewed life
imprisonment as a more suitable punishment. But,
asked whether this view might cause him to favor
that sentence regardless of the evidence, he replied,
“Not necessarily. That’s my personal view, you know,
depending on the evidence, you know. I would choose
what I thought was right.” He confirmed that he
could follow the law and could vote for a death
sentence.
We find that Juror No. 6’s responses and Juror No.
8’s responses were not so similar to Kevin C.’s
responses regarding the death penalty as to cast
doubt on the trial court’s acceptance of the
prosecutor’s reason for striking Kevin C. While Juror
No. 6 expressed some discomfort and reluctance with
voting for a death sentence, she made clear that she
supported the death penalty and she ultimately
confirmed that she could vote for a death sentence.
And while Juror No. 8 believed that the death
penalty should be reserved for “only the most
heinous of crimes,” he made clear that he supported
the death penalty and could vote for it in those
circumstances. By contrast, among Kevin C.’s
tentative and vacillating responses about both his
view on the death penalty and his ability to vote for
a death sentence, Kevin C. indicated that he had a
religious objection to the death penalty and agreed
with his religion’s view that “thou should not kill.”
These responses called into question the

App. 50
fundamental propriety of the death penalty and
differed from Juror No. 6’s belief in the death
penalty and Juror No. 8’s opinion that the death
penalty was a “necessary evil” for the “most heinous
of crimes.”
Lastly, Juror No. 2 stated, “I am not in favor of the
death penalty,” and believed that it was not fair and
was used too often. He believed the purpose of the
death penalty was “supposedly to deter crime.”
Asked whether he had a moral, philosophical, or
religious objection to the death penalty, he checked
“yes” and elaborated, “I do not believe it deters
crime.” He did not refer to any religious beliefs, and
he subsequently said that he did not have a religious
preference or affiliation. Although he initially said
that he “[w]ould not vote” to decide whether or not to
keep the death penalty, he subsequently said that he
probably would vote to keep the death penalty. In
addition, he said that his views were not such that
he could never vote for a death sentence, explaining,
“I would and could follow the law.” He said that he
would not be reluctant to personally vote for a death
sentence or personally sign a verdict form for a death
sentence, although he would be reluctant to stand up
in court, facing the defendant, and state the verdict
for a death sentence. He identified himself as
belonging to Group 4, which was defined as “I have
doubts about the death penalty, but I would not vote
against it in every case.” During Hovey questioning,
the prosecutor asked, “I think one of your concerns is
you were kind of skeptical that maybe it doesn’t
deter crime, if that’s the purpose of it .... [W]ould you
be able to return, personally vote for a death verdict
if you felt it was, if it felt [sic] the evidence

App. 51
supported, and the law supported it?” Juror No. 2
replied, “Yes.”
We find that Juror No. 2 made clear that he did not
support the death penalty, and that Juror No. 2’s
responses regarding the death penalty were similar
in some respects to Kevin C.’s responses regarding
the death penalty. We agree with defendant that the
comparison between Juror No. 2 and Kevin C. has
some probative value. That said, we also find that,
unlike Kevin C., who gave tentative and vacillating
responses about his view on the death penalty and
his ability to impose it, Juror No. 2 was more clear
and consistent in both respects: Juror No. 2 more
clearly and consistently said that he did not support
the death penalty, but Juror No. 2 also more clearly
and consistently said that he could impose it. When
the prosecutor asked Juror No. 2 whether he would
be able to personally vote for a death verdict even
though he was “kind of skeptical that maybe it
doesn’t deter crime,” Juror No. 2 replied, “Yes.”
Juror No. 2’s responses differed from Kevin C.’s more
tentative and conflicted responses: “there are
members of society who do bad things and don[’]t
deserve to be here, can I kill them? unknown at this
time” and “I like to decide who could stay in society
but not decide who stays on earth (I’d like to sleep).”
In addition, unlike Kevin C., Juror No. 2 did not
invoke a religious objection to the death penalty.
Thus, comparing the totality of their respective
responses regarding the death penalty, we find some
similarities as well as some differences, and we
conclude that the comparison has probative value
within our inquiry as to whether the prosecutor’s
stated reason for striking Kevin C. was pretextual.

App. 52
We additionally note that, in stark contrast to Kevin
C., who believed DNA evidence was “like a polygraph
not a for sure certain” and who was not upset by the
O.J. Simpson verdict because he found it “hard to
believe” Simpson was solely responsible for the
crimes and suggested “biases” created much of the
evidence, Juror No. 2 believed that DNA evidence
was “accurate” and was upset by the O.J. Simpson
verdict because “[Juror No. 2] believe[d] it was
proven beyond a reasonable doubt that [Simpson]
was guilty.” By noting these differences between
Juror No. 2 and Kevin C., we do not intend to
suggest that the similarities between Juror No. 2
and Kevin C. in regard to the death penalty are
irrelevant within our analysis or that defendant
must identify an exactly identical juror to prove
purposeful
discrimination.
(See
ante,
263
Cal.Rptr.3d at pp. 174–176, 464 P.3d at pp. 637–
638.) Rather, “because the ultimate question before
us concerns the prosecutor’s motivations in [striking
Kevin C.], we must ask whether there were any
material differences [between Kevin C. and Juror
No. 2] — that is, differences, other than race, that
we can reasonably infer motivated the prosecutor’s
pattern of challenges.” (O’Malley, supra, 62 Cal.4th
at p. 977, 199 Cal.Rptr.3d 1, 365 P.3d 790.)
Considering these and all relevant circumstances,
we ultimately find no adequate basis to overturn the
trial court’s ruling.
As to the prosecutor’s final reason, Kevin C. checked
“no” when asked whether he was upset by the O.J.
Simpson verdict and said, “To [sic] hard to believe
one man did it all, I believe biases created a lot of

App. 53
the circumstance [sic] evidence.” We have previously
held that a prospective juror’s opinion of the O.J.
Simpson trial is a nonbiased ground for a
peremptory strike. (See Smith, supra, 4 Cal.5th at p.
1153, 233 Cal.Rptr.3d 1, 417 P.3d 662; Vines, supra,
51 Cal.4th at pp. 851–852, 124 Cal.Rptr.3d 830, 251
P.3d 943; Mills, supra, 48 Cal.4th at p. 184, 106
Cal.Rptr.3d 153, 226 P.3d 276.)
The NAACP Legal Defense & Educational Fund, Inc.
(LDF), however, has filed an amicus curiae brief
arguing that asking about a prospective juror’s
opinion of the O.J. Simpson verdict is a proxy for
race because most Black people support the verdict
and most White people do not. LDF refers to studies
finding, in 1995, that approximately 22 percent of
Black people and 79 percent of White people believed
Simpson was guilty. In response, the Attorney
General argues, inter alia, that public opinion
regarding the Simpson verdict is less clear than LDF
suggests. The Attorney General refers to studies
finding that “the number of Blacks who believe
Simpson was guilty more than doubled to 45% by
2007 and became a majority view of 57% by 2015,”
and thus “selection of Miles’s jury occurred at a time
when the percentage of Whites who believed
Simpson guilty was decreasing and the percentage of
Blacks who believed him guilty was increasing.”
LDF’s argument that more Blacks than Whites
support the Simpson verdict, “even if factually
correct, does not establish that the criterion is not
race neutral.” (Melendez, supra, 2 Cal.5th at p. 18,
211 Cal.Rptr.3d 49, 384 P.3d 1202.) As we discussed
in Melendez, the plurality opinion in Hernandez v.

App. 54
New York (1991) 500 U.S. 352, 111 S.Ct. 1859, 114
L.Ed.2d 395 concluded that “‘[w]hile the prosecutor’s
criterion might well result in the disproportionate
removal of [prospective jurors of a specific ethnicity],
that disproportionate impact does not turn the
prosecutor’s actions into a per se violation of the
Equal Protection Clause.’” (Melendez, at p. 17, 211
Cal.Rptr.3d 49, 384 P.3d 1202, quoting Hernandez,
supra, 500 U.S. at p. 361, 111 S.Ct. 1859.) But “the
plurality [in Hernandez] did find that a disparate
impact would be relevant to the overall inquiry.”
(Melendez, at p. 17, 211 Cal.Rptr.3d 49, 384 P.3d
1202.) Thus, if LDF’s argument that more Blacks
than Whites support the Simpson verdict is factually
correct, “this circumstance is relevant to the inquiry
as to whether the reasons were sincere and not
merely pretextual.” (Id. at p. 18, 211 Cal.Rptr.3d 49,
384 P.3d 1202.)
We assume that LDF’s argument is factually correct,
and we consider this circumstance to be relevant to
our inquiry as to whether the prosecutor’s reason
was sincere and not merely pretextual. However, the
record here does not show that the prosecutor’s
reason was pretextual. The voir dire in this case
began in Southern California approximately three
years after the Simpson trial in Los Angeles, making
it likely that the prospective jurors were familiar
with and had formed opinions about that case. The
prosecutor specifically expressed concern about the
prospective jurors’ opinions of the Simpson verdict
because the prosecutor considered Simpson’s case to
be similar to defendant’s case given that both cases
relied on DNA evidence and circumstantial evidence.
And it appears that the prosecutor was not alone in

App. 55
considering Simpson’s case to be similar in some
respects to defendant’s case. For example, while
discussing the draft jury questionnaire regarding
scientific evidence, the court commented, “I’m
assuming part of [the prosecutor’s] concern is
whether there’s a juror that just says, I absolutely
would not believe anything that involved DNA
evidence based on my daily watching of the O.J.
Simpson trial or something of that nature.” For
another example, while questioning the prospective
jurors about DNA evidence during voir dire, defense
counsel twice referred to the O.J. Simpson case,
including to comment that “there’s been a lot of
publicity about [DNA] [and] most people are
familiar, to some degree or another, with the O.J.
Simpson case.”
In addition, the prosecutor struck several nonAfrican-American prospective jurors who were not
upset by the verdict, suggesting that the prosecutor’s
concern was sincere and not merely a pretext for
excusing African-American prospective jurors. (Cf.
People v. Woodruff (2018) 5 Cal.5th 697, 755, 235
Cal.Rptr.3d 513, 421 P.3d 588.)11 The prosecutor
struck,
in
total,
five
non-African-American
prospective jurors. Four of these five prospective
jurors were not upset by the O.J. Simpson verdict:
Malinda M. (a Hispanic woman) was not upset with
the O.J. Simpson verdict because “I think there was
doubt in the case and some things were done
improper that [led] to the not guilty verdict;” Ronald
W. (a White man) was not upset with the O.J.
Simpson verdict because “evidently they had
weighed all the evidence and come to agreement;”
Richard L. (a Hispanic man) was not upset with the

App. 56
O.J. Simpson verdict because “the D.A. did not prove
beyond a reasonable doubt;” and Lynia B. (a White
woman) was not upset with the O.J. Simpson verdict
because “to[o] many unanswered questions was
neither convinced of guilt nor innocence.” After
striking Malinda M. (a Hispanic woman) and Ronald
W. (a White man), the prosecutor specifically said
that he had excused jurors “of Hispanic origin and
Caucasian origin, and the common denominator,
essentially, is that they were not, were not upset by
the O.J. Simpson verdict.”
Finally,
contrary
to
defendant’s
argument,
comparing Kevin C.’s response to other jurors’
responses does not undermine the credibility of this
reason. Unlike Kevin C., who was not upset by the
O.J. Simpson verdict because he found it “hard to
believe” that Simpson was solely responsible for the
crimes, and suggested that “biases” created much of
the circumstantial evidence, Alternate Juror No. 5
simply checked “no” when asked whether he was
upset by the verdict and expressed no further
thoughts regarding it. Similarly, while Juror No. 6
checked “no” to the same question but commented,
“evidence not clear,” Juror No. 6’s response was more
measured than and dissimilar to Kevin C.’s
response. (See Vines, supra, 51 Cal.4th at p. 851, 124
Cal.Rptr.3d 830, 251 P.3d 943 [responses by two
prospective jurors “dissimilar” where one said, “the
Simpson trial ‘restored’ his ‘faith’” and the other
said, “‘It raised my concerns on jury selection and
impact of televising a trial’”].) Neither Alternate
Juror No. 5’s response nor Juror No. 6’s response
resembled Kevin C.’s harsh rebuke of the
prosecution’s evidence in the O.J. Simpson case, nor

App. 57
did they inject the concept of “biases” into the result.
In short, each of the prosecutor’s reasons is
supported by the record, and considered together,
they provide ample, nonbiased grounds for striking
Kevin C. Substantial evidence therefore supports the
trial court’s conclusion that the prosecutor struck
Kevin C. for reasons other than his race.
c. Prospective Juror Simeon G.
The first reason offered by the prosecutor was that
Simeon G. liked his own opinion over other people’s
opinions. In his questionnaire, Simeon G. described
himself as a leader, rather than a follower, because
he liked his opinion over other people’s opinions.
Although Simeon G. did not assert in this or other
questionnaire responses that he would be unwilling
or unable to deliberate with fellow jurors, the
prosecutor reasonably could be concerned that
Simeon G. might have difficulty considering other
opinions and deliberating with fellow jurors —
particularly given that Simeon G. had not worked
with a group of people to make a decision before. (Cf.
Lenix, supra, 44 Cal.4th at p. 623, 80 Cal.Rptr.3d 98,
187 P.3d 946 [“[a]n advocate is entitled to consider a
panelist’s willingness to consider competing views
[and] openness to different opinions”]; People v.
Gutierrez (2002) 28 Cal.4th 1083, 1125, 124
Cal.Rptr.2d 373, 52 P.3d 572 [a prosecutor could feel
concerned about a prospective juror’s comment that
“he would not be influenced by anyone’s opinion but
his own”].)
The dissent does not attach any import to Simeon

App. 58
G.’s response, positing that “[e]veryone likes his or
her opinion over other people’s.” (Dis. opn., post, 263
Cal.Rptr.3d at p. 228, 464 P.3d at p. 682.) But the
prosecutor was not required to interpret the
response as the dissent does. It is not only that
Simeon G. said he liked his opinion over other
people’s; it is also that he made this statement in
order to explain why he would describe himself as a
“leader” rather than a “follower.” The prosecutor
could reasonably have understood this response, in
context, to suggest that if another person had a
different opinion, Simeon G.’s view of leadership
would cause him to prefer his own opinion “over” the
opinion of the other person. It was not unreasonable
for the prosecutor to ascribe some significance to
Simeon G.’s response.
That said, we recognize that the prosecutor did not
ask Simeon G. during voir dire about his stated
preference for his own opinion over other people’s
opinions. The prosecutor’s failure to engage Simeon
G. on each concern, however, is not conclusive in
determining whether the prosecutor’s reasons were
pretextual. (See, e.g., Cowan, supra, 50 Cal.4th at p.
451, 113 Cal.Rptr.3d 850, 236 P.3d 1074 [although a
prosecutor’s failure to engage in meaningful voir dire
can suggest the prosecutor’s stated reasons are
pretextual, the prosecutor’s failure to question the
prospective jurors “about each and every area of
articulated concern does not undermine the
conclusion that her stated race-neutral reasons for
excusing these prospective jurors were genuine and
not pretextual”]; Jones, supra, 51 Cal.4th at p. 363,
121 Cal.Rptr.3d 1, 247 P.3d 82.) We are mindful that
lawyers may refrain from asking questions for a

App. 59
variety of reasons. (Cf. People v. Lewis and Oliver,
supra, 39 Cal.4th at p. 1018, fn. 14, 47 Cal.Rptr.3d
467, 140 P.3d 775 [recognizing that “lawyers must
use their voir dire time judiciously”].) Here, asking
Simeon G. during voir dire — in front of the other
prospective jurors — to elaborate on his
questionnaire response would have forced him to
explain why he believes that his opinion is
preferable to the opinions of other people, such as
those seated around him. Considering these and all
relevant circumstances, we find that the prosecutor’s
first reason for striking Simeon G. is race neutral,
plausible, and supported by the record.
Despite this, defendant contends that a comparative
juror analysis between Simeon G. and Juror No. 1
discredits the prosecutor’s reason. It does not. Juror
No. 1 identified herself as a leader, rather than a
follower, and elaborated, “I like to make my own
decisions.” Although Juror No. 1’s response was
similar in some respects to Simeon G.’s response, the
prosecutor could reasonably have found Juror No. 1’s
response to be less concerning in context than
Simeon G.’s response. Jurors are expected to make
their own decisions after deliberating with fellow
jurors — which Juror No. 1 previously had done to
reach a verdict in a separate case. The prosecutor
thus could have concluded that Juror No. 1’s
statement that she liked to make her “own decisions”
did not call into question her openness to considering
other opinions before returning a verdict. Simeon
G.’s response, by contrast, could reasonably cause
concern about his openness to considering other
opinions, and unlike Juror No. 1, he had not
previously served on a jury or worked with a group

App. 60
of people to make a decision. (See Chism, supra, 58
Cal.4th at p. 1321, 171 Cal.Rptr.3d 347, 324 P.3d
183 [where a juror, similar to two challenged
prospective jurors, lacked supervisory work
experience, the fact that the juror had previously
served on a separate jury in a capital case
“substantially distinguishe[d] him from [the two
challenged prospective jurors]”]; Vines, supra, 51
Cal.4th at pp. 851, 852, 124 Cal.Rptr.3d 830, 251
P.3d 943 [comparative juror analysis rejected where
answers
were
“dissimilar”
and
“significant
differences in life experiences” existed between
jurors].)12
Thus, we find some similarities as well as some
differences between Simeon G. and Juror No. 1 in
regard to the prosecutor’s first reason for striking
Simeon G., but we ultimately conclude that their
respective responses were not so similar as to cast
doubt on the trial court’s acceptance of the
prosecutor’s reason for striking Simeon G. We
additionally note that Juror No. 1 did not raise any
of the other concerns the prosecutor raised in
explaining his reasons for the strike. Unlike Simeon
G., Juror No. 1 expressed that she was upset with
the O.J. Simpson verdict because she “believe[d] he
was guilty,” and she did not suggest that she might
rely on her feelings in reaching a verdict in the guilt
phase.
As to the second reason for striking Simeon G., the
prosecutor expressed concern that Simeon G. might
rely on hunches or feelings, rather than evidence, in
reaching a verdict in the guilt phase since he
replaced the word “doubt” with the word “feeling”

App. 61
and said in his questionnaire that if he had a feeling
the defendant did not do it, the defendant was not
guilty. The record shows that when asked whether
he could follow an instruction that a defendant is
presumed innocent unless proven guilty beyond a
reasonable doubt, Simeon G. checked “yes;”
commented, “If I have any feeling that he might not
have done it, hes [sic] innocent;” and in this
comment, replaced the word “doubt” with the word
“feeling.”
When asked about this response, Simeon G. did not
“quite remember” replacing the word “doubt” with
the word “feeling.” The dissent posits that Simeon G.
“most likely” recognized a double negative in his
original comment and replaced the word “doubt”
with the word “feeling” in an effort to correct it. (Dis.
opn., post, 263 Cal.Rptr.3d at pp. 229-230, 464 P.3d
at p. 683.) This is a possible explanation. But Simeon
G. did not provide this explanation. And had he
intended to correct the double negative, he could
have revised his comment in multiple ways,
including, for example, by crossing out the word
“not” or by replacing the word “doubt” with the word
“belief.”
But Simeon G. replaced the word “doubt” with the
word “feeling,” and as revised, his statement read
that if he had “any feeling” that the defendant
“might” not have done it, the defendant was
innocent. The word “feeling” is ordinarily used to
mean “[a]n idea, belief, or sense (especially a vague
or irrational one) that a particular thing is true; an
impression that something is about to happen or is
the case; an intuition about something” or “[t]hat

App. 62
which a person feels in regard to something;
attitude, esp. emotional attitude, sentiment; opinion
or belief based on emotion or intuition and not solely
on reason.” (Oxford English Dict. Online (3d ed.
2015)
<https://oed.com/view/Entry/68981?rskey=QkM9MC
& result=2& isAdvanced=false#eid> [as of May 22,
2020].)13 To the prosecutor, Simeon G.’s response
that if he had “any feeling” that the defendant
“might” not have done it, the defendant was innocent
“made it sound like [Simeon G.] was going to be
basically basing it on a hunch, or a feeling, which
was, as the presenter of evidence, [the prosecutor
was] powerless to overcome.”
The prosecutor’s concern was plausible and
supported by the record. We acknowledge that
Simeon G.’s questionnaire response may be
interpreted in multiple ways and that his other
questionnaire responses did not indicate that he
would rely on his feelings in reaching a verdict in the
guilt phase. However, the prosecutor was not obliged
to accept the most innocuous interpretation of
Simeon G.’s questionnaire response and could be
legitimately concerned about his response for the
reasons the prosecutor specifically articulated. (See
People v. Mai (2013) 57 Cal.4th 986, 1050, 1051, 161
Cal.Rptr.3d 1, 305 P.3d 1175 [where the prospective
juror’s remarks “might be taken more than one way,”
the prosecutor “was not obliged to accept [the
defendant’s] precise interpretation of [the juror’s]
ambiguous remarks, and [the prosecutor] could
reasonably be concerned about [these remarks]”].)
It is true, however, that Simeon G. explained his

App. 63
questionnaire response differently during voir dire.
During voir dire, the prosecutor explained to the
prospective jurors, including Simeon G., that “if the
case has been proved by the prosecution beyond a
reasonable doubt, your duty is to return a guilty
verdict” and the question is if “at the conclusion of
the case if the case has been proved beyond a
reasonable doubt whether we can expect everybody
to come back with a guilty verdict.” Immediately
after this, the prosecutor asked Simeon G. about his
questionnaire response. Simeon G. did not “quite
remember” his questionnaire response, but when
asked what he meant by it, Simeon G. explained,
“Well, I think what I was trying to say, if I’m correct,
is that if the evidence showed that there wasn’t —
that there was some reasonable doubt, then I
probably would not accuse him, because of the fact
that, myself being in the same situation or anybody,
I think that if the evidence didn’t totally prove that I
did it, then there is some doubt. You know what I’m
saying?” Simeon G. added, “So it wasn’t so much a
feeling as it was if the evidence didn’t show.” Asked
whether he “would base it on evidence,” Simeon G.
responded, “Basically, yes. I’m sorry.” He added, “I
couldn’t tell you, tell you what I said, because I don’t
have the paper to look at what I actually meant
totally.”
Reviewing this colloquy in the appellate record, the
dissent views Simeon G.’s responses to have “left no
ambiguity about the issue.” (Dis. opn., post, 263
Cal.Rptr.3d at p. 230, 464 P.3d at pp. 683–684.) To
be sure, Simeon G. gave answers during voir dire
that, from the prosecutor’s perspective, were less
concerning than Simeon G.’s questionnaire response

App. 64
and helped to explain his questionnaire response.
However, in this colloquy, Simeon G. also said that
he did not “quite remember” his questionnaire
response, and because he did not have a copy of the
questionnaire, he could not tell the prosecutor “what
[he] actually meant totally” by it. Simeon G.
referenced that if the evidence “didn’t totally prove”
that the defendant did it, “then there is some doubt.”
And when asked whether he “would base [the
verdict] on evidence,” he responded, “[b]asically,”
yes. These portions of Simeon G.’s answers may not
have been entirely reassuring to the prosecutor, who
was concerned that Simeon G. would rely “on a
hunch, or a feeling, which was, as the presenter of
evidence, [the prosecutor] was powerless to
overcome.” Thus, reviewing this colloquy in the
appellate record — unaided by Simeon G.’s tone or
demeanor — we do not conclude that Simeon G.’s
responses “left no ambiguity” and necessarily
mollified any prosecutorial concern about his
questionnaire response. (Dis. opn., post, at p. 263
Cal.Rptr.3d at p. 230, 464 P.3d at pp. 683–684.)
Moreover, when providing his reasons for striking
Simeon G., the prosecutor acknowledged that
Simeon G. explained his questionnaire response
“differently in court.” Nevertheless, the prosecutor
told the trial court that Simeon G.’s explanation
during voir dire did not eliminate the prosecutor’s
concern about Simeon G.’s questionnaire response.
The prosecutor explained that he was still concerned
about Simeon G.’s responses “in light of the fact that
he was, he was single-handedly hunted down to be
here this afternoon. So [the prosecutor was] not sure
that his responses in court should prevail over the

App. 65
answers he gave on his questionnaire.” The dissent
seems to contend that the prosecutor was obliged to
abandon his concern about Simeon G.’s written
response because Simeon G. explained that response
differently in court under oath and “left no
ambiguity about the issue.” (Dis. opn., post, 263
Cal.Rptr.3d at p. 230, 464 P.3d at p. 683.) We
disagree. Faced with seemingly different responses,
the prosecutor was not obliged to abandon his
concern about Simeon G.’s written response, which
was signed under penalty of perjury, in light of
Simeon G.’s oral response — and in fact, the
prosecutor made clear to the trial court that he did
not. (Cf. Vines, supra, 51 Cal.4th at p. 850, 124
Cal.Rptr.3d 830, 251 P.3d 943 [“That [the
prospective juror] stated on voir dire that he could
consider both penalties, and thus demonstrated he
was not subject to removal for cause [citation], did
not preclude the prosecutor from exercising a
peremptory
challenge
when
[the
juror’s]
questionnaire responses indicated a degree of
reluctance to impose the death penalty with which
the prosecutor was uncomfortable”].)
The trial court was “‘best situated’” to assess Simeon
G.’s responses in court and the prosecutor’s stated
concern in light of those responses. (People v.
Armstrong (2019) 6 Cal.5th 735, 770, 243
Cal.Rptr.3d 105, 433 P.3d 987 (Armstrong) [“the
‘trial court is best situated to evaluate both the
words and the demeanor of jurors who are
peremptorily challenged, as well as the credibility of
the prosecutor who exercised those strikes’”].)
Having observed Simeon G. in court, the trial court
could assess Simeon G.’s oral responses, and it was

App. 66
better positioned than our court to determine
whether Simeon G.’s oral responses should have
completely assuaged any potential concerns raised
by his written response. The trial court also could
assess the credibility of the prosecutor’s stated
concern about Simeon G.’s questionnaire response,
as well as the prosecutor’s assessment that he was
“not sure that [Simeon G.’s] responses in court
should prevail over the answers he gave on his
questionnaire.”14 The trial court specifically asked a
question to the prosecutor about this concern, and
after listening to the prosecutor’s explanation and
defense counsel’s comments, the trial court accepted
the prosecutor’s stated reasons for striking Simeon
G. (See Lenix, supra, 44 Cal.4th at p. 614, 80
Cal.Rptr.3d 98, 187 P.3d 946 [we give “‘great
deference to the trial court’s ability to distinguish
bona fide reasons from sham excuses’”].)
It is by no means clear from the record that if he had
been selected, Simeon G. would have relied on his
feelings in reaching a verdict in the guilt phase. But
“[o]ur task is not to determine whether we would
have shared the prosecutor’s concerns; the only
question before us is whether substantial evidence
supports the court’s ruling that the prosecutor
described legitimate reasons for the challenge and
that he challenged [Simeon G.] for those reasons, not
because of [his] race.” (Smith, supra, 4 Cal.5th at p.
1161, 233 Cal.Rptr.3d 1, 417 P.3d 662.)
We find that the prosecutor’s concern here is
plausible, supported by the record, and race neutral.
Contrary to defendant’s argument, his comparative
juror analysis between Simeon G. and Juror No. 5

App. 67
does not undermine the sincerity of the prosecutor’s
concern. Asked whether she could follow a
presumption-of-innocence instruction, Juror No. 5
checked “yes” and wrote, “Try to follow instructions.”
Reading this statement to suggest that she could not
or would not follow the instruction is strained, and
we decline to do so. The record therefore provides no
adequate basis to overturn the trial court’s ruling.
For the final reason, the prosecutor said that Simeon
G. (like Kevin C.) was not upset by the O.J. Simpson
verdict. As discussed, a prospective juror’s opinion
regarding the Simpson case can be a nonbiased
ground for a peremptory challenge. Defendant and
LDF, however, argue that this reason was a proxy
for race or, alternatively, pretextual. As discussed,
we assume that LDF’s argument that more Blacks
than Whites support the Simpson verdict is factually
correct, and we consider this circumstance to be
relevant to our inquiry as to whether the
prosecutor’s reason was sincere and not merely
pretextual. In this particular case, however, it is
plausible that the prosecutor — tasked with securing
a
conviction
in
San
Bernardino
County
approximately three years after the Simpson trial
took place in the adjacent Los Angeles County —
was sincerely concerned about the prospective jurors’
opinions regarding the Simpson verdict because the
prosecutor considered Simpson’s case to be similar to
defendant’s case given that both cases relied on DNA
evidence and circumstantial evidence. Also as
discussed, it appears that the prosecutor was not
alone in considering Simpson’s case to be similar in
some respects to defendant’s case because both the
trial court and defense counsel referred to Simpson’s

App. 68
case at various points when discussing DNA
evidence. (See ante, 263 Cal.Rptr.3d at pp. 182-183,
464 P.3d at p. 643.) In addition, four of the five nonAfrican-American prospective jurors whom the
prosecutor struck were not upset by the O.J.
Simpson verdict, suggesting that the prosecutor’s
concern was sincere and not merely a pretext for
striking African-American prospective jurors. (See
ante, at pp. 263 Cal.Rptr.3d at pp. 182-183, 464 P.3d
at p. 644.)
That said, we find that the credibility of the
prosecutor’s concern here is undermined to some
degree by the prosecutor’s failure to ask Simeon G.
or other prospective jurors about the O.J. Simpson
verdict during voir dire. In his questionnaire,
Simeon G. indicated that he was not upset by the
O.J. Simpson verdict but left blank the follow-up
request to “[p]lease explain why or why not.” To be
sure, we recognize that one might infer from this
response that Simeon G. was not upset by the O.J.
Simpson verdict because he simply agreed with the
verdict, requiring little explanation. But we also
recognize that a prospective juror may not be upset
by the O.J. Simpson verdict for a variety of reasons.
While the prosecutor’s failure to question Simeon G.
or other prospective jurors about the O.J. Simpson
verdict does not necessarily demonstrate that the
prosecutor’s concern was pretextual, we consider this
circumstance to be relevant to our inquiry as to
whether the prosecutor’s concern was pretextual
here. (See Smith, supra, 4 Cal.5th at p. 1152, 233
Cal.Rptr.3d 1, 417 P.3d 662 [“an attorney’s failure to
meaningfully examine a prospective juror about a
subject about which the attorney claims to be

App. 69
concerned can constitute evidence of pretext”].)
When the prosecutor gave this reason for striking
Simeon G., the prosecutor stated, “If you’ll notice
across the board, I’ve excused jurors I believe of
Hispanic origin and Caucasian origin, and the
common denominator, essentially, is that they were
not, were not upset by the O.J. Simpson verdict,
which was a DNA, circumstantial case.” Defendant
argues that the prosecutor’s statement meant that
“he had struck all prospective jurors who were not
upset with the O.J. Simpson verdict” and “this is not
what the record shows at all” because the prosecutor
did not strike Juror No. 6 or Alternate Juror No. 5.15
Contrary to defendant’s argument, the prosecutor’s
statement is fairly read to mean that the prosecutor
had struck prospective jurors “across” different
races, including a Hispanic prospective juror and a
Caucasian prospective juror, who were not upset by
the O.J. Simpson verdict. And at the time of the
statement, the prosecutor indeed had struck three
non-African-American prospective jurors, two of
whom — Malinda M. (a Hispanic woman) and
Ronald W. (a White man) — were not upset by the
Simpson verdict.
Nevertheless, defendant’s comparative juror analysis
between Simeon G. and Juror No. 6 and Alternate
Juror No. 5 has some probative value and is more
convincing than it was with respect to Kevin C.16 As
noted, Simeon G. checked “no” as to whether he was
upset by the Simpson verdict but did not explain
why. His response was thus identical to Alternate
Juror No. 5’s response and less detailed than Juror
No. 6’s response, which noted, “evidence not clear.”

App. 70
We find that the credibility of the prosecutor’s
concern regarding Simeon G.’s opinion on the O.J.
Simpson verdict is undermined to some degree by
defendant’s comparative juror analysis. (See MillerEl, supra, 545 U.S. at p. 241, 125 S.Ct. 2317 [“If a
prosecutor’s proffered reason for striking a black
panelist applies just as well to an otherwise-similar
nonblack who is permitted to serve, that is evidence
tending to prove purposeful discrimination to be
considered at Batson’s third step”].)
We recognize that jurors need not be identical in all
respects for a comparison among them to be
probative, and we continue to consider defendant’s
comparisons to be relevant and probative on the
issue of purposeful discrimination here. (See ante,
263 Cal.Rptr.3d at pp. 174–176, 464 P.3d at pp. 637–
638.) However, we additionally consider as part of
our inquiry into the prosecutor’s motivations for
striking Simeon G. that Juror No. 6 and Alternate
Juror No. 5 were dissimilar from Simeon G. in
regard to the prosecutor’s other two stated reasons
for striking Simeon G. (See ibid.)
Neither Juror No. 6 nor Alternate Juror No. 5
indicated that they might have difficulty considering
the opinions of or deliberating with others when
asked whether they considered themselves leaders
or followers and why. Juror No. 6 considered herself
“[b]oth” a leader and a follower “depend[ing] on what
interest” she had, and she had experience working
with a group of people to make a decision. Alternate
Juror No. 5 considered himself a leader because “like
to learn, intelligent, people tend to follow my lead.”
While his response reflected some self-assuredness,

App. 71
he also said in his response that he “like[d] to learn,”
and he had “daily” experience working with a group
of people to make a decision and “fe[lt] that there
would be no problem working with others.”
Additionally, neither Juror No. 6 nor Alternate Juror
No. 5 indicated that they might rely on their feelings
in reaching a verdict in the guilt phase when asked
whether they can follow an instruction that a
defendant is presumed innocent unless proven guilty
beyond a reasonable doubt. By contrast, Simeon G.’s
opinion on the O.J. Simpson verdict may have raised
more concern about him as a guilt phase juror in this
case given that he liked his opinion over other
people’s opinions, had not previously worked with a
group of people to make a decision, and said that if
he had “any feeling” that the defendant “might” not
have done it, the defendant was innocent.
Considering these and all other relevant
circumstances, we view the issue to be close but
ultimately find no adequate basis to overturn the
trial court’s ruling under the applicable standard of
review. We find that each of the prosecutor’s reasons
for striking Simeon G. is plausible, supported by the
record, and race neutral. Considering the
prosecutor’s reasons together and reviewing the trial
court’s determination regarding the sufficiency of
those reasons with great restraint (see Lenix, supra,
44 Cal.4th at p. 613, 80 Cal.Rptr.3d 98, 187 P.3d
946), we conclude that substantial evidence supports
the trial court’s conclusion that the prosecutor struck
Simeon G. for reasons other than his race.
In sum, we find substantial evidence supports the
trial court’s denial of defendant’s Batson/Wheeler

App. 72
motion. Although defendant argues that Kevin C.
and Simeon G. were favorable prospective jurors for
the prosecution, “the question is not whether a
prosecutor should or should not have excused a
prospective juror. It is whether this prosecutor
excused [them] for an improper reason. The record
provides no sufficient reason to so conclude or for
this court to overturn the trial court’s ruling” here.
(Hardy, supra, 5 Cal.5th at p. 84, 233 Cal.Rptr.3d
378, 418 P.3d 309.) Moreover, the prosecutor’s
acceptance of an alternate juror who was AfricanAmerican further supports the prosecutor’s good
faith in exercising the peremptory strikes. (See, e.g.,
Jones, supra, 51 Cal.4th at pp. 362–363, 121
Cal.Rptr.3d 1, 247 P.3d 82.)
B. Excusal of Two Prospective Jurors for
Cause
Defendant contends the trial court erroneously
excused two prospective jurors based on their views
about the death penalty. We disagree.
“Under Wainwright v. Witt (1985) 469 U.S. 412, 424
[105 S.Ct. 844, 83 L.Ed.2d 841] (Witt), we consider
whether the record fairly supports the trial court’s
determination that [a prospective juror’s] views on
the death penalty would have prevented or
substantially impaired her performance as a juror.”
(People v. Thomas (2011) 52 Cal.4th 336, 357, 128
Cal.Rptr.3d 489, 256 P.3d 603.) “‘“Generally, a trial
court’s rulings on motions to exclude for cause are
afforded deference on appeal, for ‘appellate courts
recognize that a trial judge who observes and speaks
with a prospective juror and hears that person’s

App. 73
responses (noting, among other things, the person’s
tone of voice, apparent level of confidence, and
demeanor), gleans valuable information that simply
does not appear on the record.’”’” (Id. at p. 358, 128
Cal.Rptr.3d 489, 256 P.3d 603.) “‘When the
prospective juror’s answers on voir dire are
conflicting or equivocal, the trial court’s findings as
to the prospective juror’s state of mind are binding
on appellate courts if supported by substantial
evidence.’” (People v. Wall (2017) 3 Cal.5th 1048,
1062, 224 Cal.Rptr.3d 861, 404 P.3d 1209 (Wall).)
As a preliminary matter, defendant contends that
deferring to the trial court’s findings on jury
selection issues is improper for two reasons. First, he
argues that such deference is inappropriate on direct
appeal in light of the high court’s holding in Greene
v. Georgia (1996) 519 U.S. 145, 146–147, 117 S.Ct.
578, 136 L.Ed.2d 507. But Greene held that the
Supreme Court of Georgia was mistaken when it
believed itself bound by Witt’s standard of review: It
was “free to adopt the rule laid down in Witt for
review of trial court findings in jury-selection cases,
but it need not do so.” (Greene, at p. 147, 117 S.Ct.
578.) In contrast, we have previously adopted Witt’s
standard of review and accordingly rejected this
argument because “[t]he law in California ... is
settled on the point.” (People v. Farnam (2002) 28
Cal.4th 107, 132, fn. 6, 121 Cal.Rptr.2d 106, 47 P.3d
988.)
Second, defendant argues that deferring to the trial
court’s resolution of inconsistencies or ambiguities is
contrary to the high court’s holdings in Adams v.
Texas (1980) 448 U.S. 38, 100 S.Ct. 2521, 65 L.Ed.2d

App. 74
581 (Adams) and Gray v. Mississippi (1987) 481 U.S.
648, 107 S.Ct. 2045, 95 L.Ed.2d 622 (Gray). We have
rejected the contention that Adams and Gray “‘made
clear that when a prospective capital case juror gives
equivocal responses, the state has not carried its
burden of proving that the juror’s views would
“prevent or substantially impair the performance of
his duties as a juror.”’” (People v. Schmeck (2005) 37
Cal.4th 240, 263, 33 Cal.Rptr.3d 397, 118 P.3d 451
(Schmeck).) We also have rejected the contention
that Gray “suggests the high court intended to cast
aside its view that ‘deference must be paid to the
trial judge who sees and hears the juror.’” (People v.
Moon (2005) 37 Cal.4th 1, 15, 32 Cal.Rptr.3d 894,
117 P.3d 591 (Moon).) “‘Furthermore, the high court
has more recently reiterated its view that “[c]ourts
reviewing claims of Witherspoon-Witt error ... owe
deference to the trial court, which is in a superior
position to determine the demeanor and
qualifications of a potential juror.”’” (People v.
Bryant, Smith and Wheeler (2014) 60 Cal.4th 335,
400, 178 Cal.Rptr.3d 185, 334 P.3d 573.) These
arguments therefore are meritless.
1. Prospective Juror No. 44
Prospective Juror No. 44’s (Number 44) responses to
the approximately 31-page jury questionnaire
signaled a degree of uncertainty and discomfort
regarding the death penalty. She said, “I don’t feel
one way or another” on whether the death penalty is
fair or unfair, and “I don’t have an opinion” on
whether the death penalty is used too often or too
seldom. Asked whether the sentence of death or life
imprisonment without the possibility of parole was

App. 75
more severe, she responded, “Depends — for me Life
w/o parole — for others — I don’t know.” But she
also said that she did not like the death penalty, that
it made her “uncomfortable,” and that she would
vote to abolish it. She identified herself as belonging
to Group 4, which was defined as “I have doubts
about the death penalty, but I would not vote against
it in every case.”
She said that her feelings about the death penalty
were not such that she “would refuse to find the
defendant guilty of first degree murder and/or would
refuse to find the special circumstance true, solely to
avoid having to make a decision on the death
penalty,” and that she was “willing to weigh and
consider all the aggravating and mitigating factors
that will be presented to [her] before deciding the
penalty in this case.” However, she indicated that
she would be reluctant to vote for a death sentence,
to sign the verdict form for a death sentence, or to
state that verdict in court before the defendant,
commenting, “The day I am not reluctant to look a
person in the face and sentence them to death will be
the day I no longer belong to the human — or should
I say humane — race.” As to whether her feelings
about the death penalty were such that she “would
never be able to personally vote for the death of the
defendant under any circumstances” and “would
always vote for a sentence of life without [the]
possibility of parole,” she declined to check either the
yes or no box. Instead, she commented, “I don’t know
— I’ve done a few things I thought I would never do.”
During Hovey questioning, the prosecutor asked
whether her identification as belonging to Group 4

App. 76
(that she has doubts about the death penalty but
would not vote against it in every case) was accurate
“about the way [she] feel[s] on the death penalty.”
She responded, “You know, it’s really hard to say
exactly what you would do when you’re not in the
situation. I would have — I would never know
exactly what I would do until I’m put in that
situation. So, yeah, I would have doubts.” The
prosecutor then explained that in the penalty phase,
the court will provide an instruction listing
mitigating and aggravating factors to consider and
“essentially if you find the aggravating factors
outweigh the mitigating factors, then death is the
appropriate verdict, if you find that.” The prosecutor
asked, “Do you think that — can you say for sure, I
guess is my question, that if placed in that position
with the aggravating factors weighing more heavily,
could you personally make the vote?” She responded,
“I know, I know what you’re looking for, and I’m
sorry. I can’t help you with it, because I don’t know,
because there have been too many — I’m 39, and
there have been too many times that I’ve said I’d
never do this, or I’d always do that, and then I’ve
done the other. So, I just cannot tell you, unless I’m
placed in that situation, unless I’ve gone through it.
... I just don’t make judgments until I’m in that
situation. I just don’t.” Seeking to clarify her answer,
the prosecutor asked if she found the aggravating
factors weigh heavier than the mitigating factors,
“you can’t guarantee me that you could step up to
the plate, so to speak, and make a vote for death?”
She repeated, “I can’t guarantee anything. I don’t
deal in hypotheticals, and I just — no, I cannot
guarantee you what I would do until I am in that
situation, no.”

App. 77
Defense counsel subsequently explained, “[T]he
Court at the end always gives instructions to jurors
about what the law is, and how they’re supposed to
carry out their duties. ... And in a death penalty
case, there are certain things that the law allows
jurors to consider in deciding whether to select death
or life, assuming you were in that position. They’re
called aggravating factors, mitigating factors.”
Defense counsel then asked, “if you’re selected and
sworn as a juror, could you commit yourself under
oath to follow what the Judge told you the law was?
Or do you think there’s something else that might
interfere with your ability to do that?” She
responded, “I don’t think there’s anything that would
interfere with my ability. And I can’t tell you, and I
don’t know if I could follow the law. There’s — I’m —
there’s just a good chance that I would or I wouldn’t.
You’re going to have to pick me and have me sit here
and see, because I just don’t know.”
At the close of this questioning, the prosecutor
challenged her for cause. The trial court initially
stated, “She technically comes within the
Wainwright [v.] Witt standard. She’s not saying her
views are such that it would substantially interfere
with her ability to follow the instructions and her
duty, she just says she doesn’t know, because it’s
such an emotional issue.” Citing two cases, the
prosecutor argued that jurors who insist they do not
know or cannot say if they could impose a death
sentence are properly excused. Defense counsel
responded that Number 44 did not say that she could
not or would never impose a death sentence; “[s]he
just felt that she didn’t know under what

App. 78
circumstances.” The trial court commented, “She was
probably an extremely honest juror who really
couldn’t give us a definite answer,” and took the
challenge under submission.
Later, after reviewing the record and the authority
cited by the prosecutor, the trial court found, “[M]y
memory is refreshed that her answers basically were
that she could not say whether she would be able to
impose the death penalty, and it was not just that
she didn’t know whether in this case she could
impose the death penalty, because obviously she
wouldn’t know until she got — she heard the
evidence and the law. But in any situation, basically,
she didn’t know until she was put in that situation
whether she could do it, or whether she could follow
the Court’s instructions in this area. ... I would agree
with [the prosecutor] that that’s sufficiently
equivocal. Her ‘I don’t know’ responses are
sufficiently equivocal to warrant a challenge for
cause, so I will order that she be excused.”
The trial court did not err in excusing Number 44.
Number 44 said in her questionnaire and during
Hovey questioning that she did not know whether
she could vote for a death sentence. Certainly, a
juror’s decision as to whether to vote for a death
sentence can be weighty and difficult. “[E]ven a juror
who ‘might find it very difficult to vote to impose the
death penalty’ is not necessarily substantially
impaired unless he or she was unwilling or unable to
follow the court’s instructions in determining the
appropriate penalty.” (People v. Merriman (2014) 60
Cal.4th 1, 53, 177 Cal.Rptr.3d 1, 332 P.3d 1187
(Merriman).) Number 44, however, did not merely

App. 79
express uncertainty as to “her own views on the
death penalty or the appropriateness of the death
penalty in any particular case, but as to her ability
to impose a death sentence.” (Wall, supra, 3 Cal.5th
at p. 1063, 224 Cal.Rptr.3d 861, 404 P.3d 1209.)
When asked in her questionnaire whether her
feelings about the death penalty were such that she
would never be able to vote for a death sentence, she
wrote, “I don’t know — I’ve done a few things I
thought I would never do.” She repeated during
Hovey questioning that she did not know whether
she could vote for a death sentence. (See Wall, supra,
3 Cal.5th at p. 1062, 224 Cal.Rptr.3d 861, 404 P.3d
1209 [upholding the excusal of a prospective juror
who “expressed hesitation about her ability to
impose a death verdict” and “[i]n response to
repeated questions by the trial court and the
prosecutor as to whether she had the ability to
impose the death penalty ... said she did not know if
she did”].)
Number 44 further expressed uncertainty as to her
ability to follow the trial court’s instructions
regarding the consideration of aggravating and
mitigating factors in deciding whether to impose a
death sentence. Although she said in her
questionnaire that she was willing to weigh and
consider all the aggravating and mitigating factors
before deciding the penalty in this case, she then
responded to a similar question during Hovey
questioning by saying, “I don’t know if I could follow
the law. There’s — I’m — there’s just a good chance
that I would or I wouldn’t. You’re going to have to
pick me and have me sit here and see, because I just
don’t know.” “Given the juror’s own recognition that

App. 80
[she] did not know whether [she] could follow the law
or ever vote for the death sentence, the trial court
did not commit Witherspoon/Witt error when it
found the juror was substantially impaired.” (People
v. Spencer (2018) 5 Cal.5th 642, 659, 235 Cal.Rptr.3d
278, 420 P.3d 1102.)
Nevertheless, defendant compares Number 44 to
Juror White in the high court’s Adams opinion and
argues that Number 44’s responses were insufficient
to justify her excusal. “But using Adams as a
reference point for evaluating the excusal of
[Number 44] is inapt because Adams concerned the
particular statutory scheme in Texas, whereby
‘“[p]rospective jurors shall be informed that a
sentence of life imprisonment or death is mandatory
on conviction of a capital felony. A prospective juror
shall be disqualified from serving as a juror unless
he states under oath that the mandatory penalty of
death or imprisonment for life will not affect his
deliberations on any issue of fact.”’ [Citation.] As the
Adams court explained, the statutory scheme is
inconsistent with the standard demanded by the
federal Constitution because ‘neither nervousness,
emotional involvement, nor inability to deny or
confirm any effect whatsoever is equivalent to an
unwillingness or an inability on the part of the
jurors to follow the court’s instructions and obey
their oaths, regardless of their feelings about the
death penalty.’” (People v. Thompson (2016) 1
Cal.5th 1043, 1068, 210 Cal.Rptr.3d 667, 384 P.3d
693.) Moreover, unlike Juror White and others who
were improperly excluded under this statutory
scheme “only because they were unable positively to
state whether or not their deliberations would in any

App. 81
way be ‘affected’” (Adams, supra, 448 U.S. at p. 50,
100 S.Ct. 2521; id. at p. 50, fn. 8, 100 S.Ct. 2521),
Number 44 was not merely “unable positively to
state whether or not [her] deliberations would in any
way be ‘affected,’” (id. at p. 50, 100 S.Ct. 2521) but
rather, she did not know whether she would be able
to follow the court’s instructions in a death penalty
case or vote for a death sentence.
Defendant additionally compares Number 44 to
Juror Bounds in the high court’s Gray opinion.
“Although the voir dire of member Bounds was
somewhat confused, she ultimately stated that she
could consider the death penalty in an appropriate
case and the judge concluded that Bounds was
capable of voting to impose it.” (Gray, supra, 481
U.S. at p. 653, 107 S.Ct. 2045.) After further
discussion, the judge, however, excused Bounds for
cause. (Id. at p. 655, 107 S.Ct. 2045.) The state court
agreed that Bounds was “‘clearly qualified to be
seated as a juror’” but concluded that excusing
Bounds was harmless error. (Id. at p. 657, 107 S.Ct.
2045.) The issue subsequently addressed by the high
court “was not the standard for excusing a juror for
cause, but whether the erroneous excusal of a juror
for cause was subject to a harmless error test.”
(Moon, supra, 37 Cal.4th at p. 14, 32 Cal.Rptr.3d
894, 117 P.3d 591.) We find the comparison between
Juror Bounds and Number 44 to be inapposite.
Unlike Juror Bounds, Number 44 did not confirm
“that she could consider the death penalty in an
appropriate case,” and the trial court did not
conclude that she “was capable of voting to impose
it;” rather, the trial court found that Number 44
“could not say whether she would be able to impose

App. 82
the death penalty.”17
In short, we decline to find error in the trial court’s
decision to excuse Number 44 for cause.
2. Prospective Juror No. 63
Prospective Juror No. 63 (Number 63) did not reveal
much hesitation regarding the death penalty in his
questionnaire responses, but he neglected to answer
several questions on the topic.18 He said that he did
not have any moral, philosophical, or religious
objection to the death penalty and that he believed
the death penalty was fair, noting in part, “If you kill
you be killed.” He said that his feelings about the
death penalty were not “such that [he] would refuse
to find the defendant guilty of first degree murder
and/or would refuse to find the special circumstance
true, solely to avoid having to make a decision on the
death penalty;” that his feelings about the death
penalty were not “such that [he] would never be able
to personally vote for the death of the defendant
under any circumstances” and “would always vote
for a sentence of life without [the] possibility of
parole;” and that he would not be reluctant to sign
the verdict form for a death sentence or state that
verdict in court. Inexplicably, however, he failed to
respond to several other questions, including, among
others, what his general feelings were about the
death penalty, what he believed to be the purpose of
the death penalty, whether the death penalty was
used too often or too seldom, and whether he would
vote to keep or abolish the death penalty. Nor did he
identify which one of five defined groups most
accurately described his opinion regarding the death

App. 83
penalty.
Separately, and without explanation, he checked
“no” when asked whether he thought he could be a
fair and impartial juror in this case and when asked
whether he was “willing to weigh and consider all
the aggravating and mitigating factors that will be
presented to [him] before deciding the penalty in this
case.”
During Hovey questioning, Number 63 said that he
did not have strong feelings about the death penalty,
but that he would not feel comfortable voting for a
death sentence and that he would be reluctant to do
so. The prosecutor asked, “Do you think your feelings
about that might affect the way you judge the guilt
or innocence of the defendant?” He said, “It might.”
The prosecutor then asked, “Do you think that your
feelings might also affect the way you look at the
Court’s instructions about the death penalty?” He
again said, “It might.” He also confirmed that sitting
on this type of case might be difficult for him based
on his feelings.
The defense subsequently asked, “[D]o your feelings
about the death penalty, are they based on a
religious or ethical thing, or is it just your own
personal feelings about it?” Number 63 responded,
“You could say both.” The defense then asked, “If you
were to be asked to judge which penalty to impose,
and the Court gave you what the rules are, here’s
how you decide. You look at all the aggravating
factors, and they are 1, 2, 3, 4, 5. You look at all the
mitigating factors, 5, 6, 7, 8, 9. Whatever they are.
You decide whether the aggravating factors weigh

App. 84
more than the mitigating factors. If they do, then
you vote for death. If they don’t, you vote for life
without possibility of parole. [¶] Would you be able
to follow that instruction?” Number 63 responded, “I
don’t know.” The defense asked, “What gives you —
what is your concern about following that
instruction?” Number 63 responded, “The way I feel.”
To clarify, the defense asked, “Which is that you
wouldn’t want to vote for death?” Number 63
responded, “Nope.” Again seeking to clarify, the
defense asked, “No, you wouldn’t want to vote for
death?” Number 63 responded, “I don’t think so. I’m
saying, no, I’m not, but I don’t think so.”
The prosecutor challenged Number 63 for cause
“based on his answers,” and the defense said,
“Submit it.” The trial court excused Number 63 for
cause.
“Jurors are not required to like the law, but they are
required to follow it.” (Armstrong, supra, 6 Cal.5th at
p. 750, 243 Cal.Rptr.3d 105, 433 P.3d 987.) “[S]o long
as prospective jurors can obey the court’s
instructions and determine whether death is
appropriate based on a sincere consideration of
aggravating and mitigating circumstances, they are
not ineligible to serve.” (Ibid.) “A jury candidate who
will not, or cannot, follow a statutory framework, is
not qualified to serve.” (Ibid.)
Here, Number 63 said in his questionnaire that he
did not have any moral, philosophical, or religious
objection to the death penalty, his feelings were not
such that he “would never be able to personally vote
for the death of the defendant under any

App. 85
circumstances,” and he would not be reluctant to
sign the verdict form for a death sentence or state
that verdict in court. But he said during Hovey
questioning that his feelings about the death penalty
were based both on “a religious or ethical thing ...
and [his] own personal feelings,” he “[didn’t] think”
he wanted to vote for a death sentence, and he would
be reluctant and not feel comfortable doing so.
As with Number 44, a generalized recognition that it
would be difficult to impose a death sentence does
not mean that a juror is necessarily substantially
impaired. (See Merriman, supra, 60 Cal.4th at p. 53,
177 Cal.Rptr.3d 1, 332 P.3d 1187.) But Number 63
said more. He indicated in his questionnaire that he
was not “willing to weigh and consider all the
aggravating and mitigating factors that will be
presented to [him] before deciding the penalty in this
case.” And when asked during Hovey questioning
whether he would be able to follow the court’s
instruction regarding considering and weighing the
aggravating and mitigating factors, he said that he
“[didn’t] know” due to “[t]he way [he] feel[s].”19
“‘[A prospective] juror’s inability to set aside his or
her personal views and follow the law, need not be
demonstrated with unmistakable clarity.’” (People v.
Jones, supra, 3 Cal.5th at p. 615, 220 Cal.Rptr.3d
618, 398 P.3d 529.) Here, Number 63’s written and
oral responses could have left the trial court with
“the definite impression that [he] would be unable to
faithfully and impartially apply the law.”
(Wainwright v. Witt, supra, 469 U.S. at p. 426, 105
S.Ct. 844.) That defense counsel merely submitted
the question to the trial court20 further “suggest[s]

App. 86
counsel concurred in the assessment that the juror
was excusable.” (People v. Cleveland, supra, 32
Cal.4th at p. 735, 11 Cal.Rptr.3d 236, 86 P.3d 302;
cf. Witt, supra, 469 U.S. at p. 435, 105 S.Ct. 844
[where counsel did not question the juror or object to
the trial court’s excusing her for cause, “it seems
that at the time [the juror] was excused no one in the
courtroom questioned the fact that her beliefs
prevented her from sitting. The reasons for this,
although not crystal clear from the printed record,
may well have been readily apparent to those
viewing [the juror] as she answered the questions”].)
After giving appropriate deference to the trial court’s
determination regarding Number 63’s state of mind,
we find substantial evidence supports the trial
court’s ruling and conclude that the court did not err
in excusing Number 63.
C. Standard for Excusing Prospective Jurors
for Cause
Defendant challenges the standard for excusing
prospective jurors based on their views of the death
penalty. “‘Under the applicable state and federal
constitutional provisions, prospective jurors may be
excused for cause if their views would prevent or
substantially impair the performance of their
duties.’” (People v. Gonzales (2012) 54 Cal.4th 1234,
1284–1285, 144 Cal.Rptr.3d 757, 281 P.3d 834.) We
recently declined an invitation to revisit this
standard and do so again here. (See People v. Rices
(2017) 4 Cal.5th 49, 79–80, 226 Cal.Rptr.3d 118, 406
P.3d 788 (Rices).)
III. Guilt Phase Issues

App. 87
A. Denial of Defendant’s Motion to Suppress
Pursuant to a search warrant, the police collected,
among other items, a sample of defendant’s blood
and the note from his truck. Before trial, defendant
moved to suppress this evidence. The trial court
denied his motion. Defendant contends the court
erred because the search warrant affidavit contained
misrepresentations and omissions that were
intentionally false or made in reckless disregard for
the truth. The trial court did not err.
1. Background
On June 16, 1992, the police received a report that a
“black male wearing a white T-shirt armed with a
small handgun” had just committed a robbery and
rape at a nearby office building in Torrance. (See
ante, pt. I.B.1.a.v.) Within minutes of the report, and
in the general vicinity from which the suspect may
have attempted to flee, two officers spotted
defendant in his truck, appearing very nervous and
matching the suspect’s general description. The
officers unsuccessfully attempted to stop defendant,
a chase ensued, and the officers shot and arrested
him. Once Detective Lore learned about the arrest,
he sought a warrant to search defendant, his
residences, and his vehicle.
a. Detective Lore’s affidavit in support of the search
warrant
Detective Lore’s 11-page affidavit, dated June 18,
1992, began by describing Willem’s death in Rialto
and its apparent connection to other, similar rapes
and robberies committed throughout San Bernardino

App. 88
and Riverside Counties. He described two such
similar incidents: the Christine C. incident in
Victorville and the Osburn and Carole D. incident in
San Bernardino. In both incidents, the suspect
bound the victims with telephone receiver cords. In
the Christine C. incident, “a suspect was described
as a tall Black male adult, late 20’s to early 30’s,
armed with a small caliber handgun,” and in the
Osburn and Carole D. incident, the description of the
suspect “matched the description of the suspect in
the Victorville crime.” Forensic specialist David
Stockwell performed a chemical analysis for the
three incidents and concluded that “the same
suspect that committed the homicide/rape in the
Rialto [sic], committed the rape in Victorville, [and]
was also responsible for the robbery/rape in the City
of San Bernardino.” Based on Stockwell’s analysis,
“the subject that was sought after in these series of
crimes, is believed to be a Black male that is an ABO
type, AB secretor.”
Detective Lore next summarized a series of similar
robberies. “The robberies included professional
business suites in the late evening hours on
Mondays, Tuesdays and Wednesdays, very similar to
that of the time of the rapes mentioned previously.
The robberies also included a male Black that
matched the physical description of the one that was
described in two of the rape incidents. The subject
was armed with a small caliber semi-automatic
handgun at the time of these robberies. During some
of the robberies, the victims were bound with
telephone receiver cords. During the follow-up
interviews with the victims in these cases, it was
revealed that in most of the cases the suspect had

App. 89
made some specific comments. The most prevalent
being, ‘Don’t look at me.’”
Elaborating with respect to a related robbery,
Detective Lore said that Arnold and Sharyn
Andersen were working at their business when they
were “confronted by a tall Black male adult, armed
with a small caliber handgun.” “The suspect made
both victims lie on the floor. The subject robbed the
victims of approximately $1,600.00 in cash and fled
out the same door where he had forced entry.”
Detective Lore continued, “The investigation by San
Bernardino Police Department revealed that the
suspect smashed out a small window over the
locking area of the door, which led into the rear
portion of the business suite. When doing this, the
suspect cut himself on the glass and had grabbed a
box of Kleenex that was sitting on a counter near the
back door to stop some of the bleeding. The Kleenex
box was collected and linked to the suspect.”
Detective Lore then noted that four robberies in
Riverside “had similar suspect descriptions.” The
San Bernardino County Sheriff’s Department also
created a sketch of the suspect, which “seemed to be
the consensus of most of the victims that saw the
suspect during the robberies.”
Next, Detective Lore explained that in June 1992, he
learned that the Torrance Police Department had
arrested defendant for committing a robbery and
rape, during which “the suspect tied both victims
with telephone receiver cords, had a chrome
handgun, spoke very softly in a calm voice, and had
made vaginal penetration with his finger and penis

App. 90
from behind. The suspect also said to the victims,
‘Where is the money’ and ‘Don’t look at me.’”
According to Detective Lore, “All of the above M.O.
traits are consistent with the crimes in the Inland
Empire from January through March of 1992.”
Detective Lore then proceeded to describe defendant.
According to the Torrance Police Department, he has
AB positive blood, which “is the same type of blood
that the suspect in the Rialto homicide and the two
other rapes in Victorville and San Bernardino [has].”
He “is further described as being very clean with
virtually no body fat. The physical description
provided by his California Driver’s License is 6’6”,
210#, Black hair and brown eyes.” “Mr. Miles
criminal history from the State of California
[citation] describes him also as being a Black male,
6’5”, 200#.” In addition, Detective Lore listed his
residences, noting that he listed with the DMV an
address in Compton as of March 23, 1992 and that
the “crime spree stopped in the Inland Empire on
3/8/92, before the suspect moved to Compton, CA.”
Detective Lore concluded, “[b]ased on my experience
as being a policeman for approximately 20 years, Mr.
Miles displays the physical characteristics as
described by the majority of the victims in these
cases.”
Detective Lore added, “A photographic line-up with
the suspect’s photograph in position #2 was
tentatively I.D.’d by victim Heynen, one of the
victim’s [sic] in the Upland robbery which occurred
on 1/21/92. The victim pointed to position #2 (suspect
Miles) and said, ‘It could be him.’”

App. 91
Near the end of the affidavit, Detective Lore
summarized, “With the exception of the homicide,
the suspect in each crime is described as articulate
and soft spoken. Witnesses to the robberies
described the suspect as being Black male adult, 2535 years, 6’-6’4”, thin build, large dark eyes, dark
hair, wearing a dark blue or black watch cap, dark
blue or black Levi type pants, an[d] at times was
described as having a thin moustache. Information
derived from his driver’s license history, criminal
history and booking information reveals his physical
description of 6’6”, 210#, black hair and brown eyes.”
Detective Lore believed evidence from these crimes
would be located during searches of defendant, his
residences, and his vehicle and listed the items
sought and described the places and person to be
searched. Judge Gunn issued the warrant.
On appeal, defendant contends that the affidavit
contained
misrepresentations
and
omissions
regarding the Kleenex box, Heynen’s identification,
and the suspect descriptions. Before trial, Detective
Lore testified regarding his affidavit, the search
warrant, and the searches conducted pursuant to the
warrant.
As
to
the
three
purported
misrepresentations or omissions challenged on
appeal, he testified as follows.
First, Detective Lore testified twice about the
Kleenex box statement. Initially, the defense elicited
the following testimony: “Q. Then you state the
Kleenex box was linked to the suspect; is that
correct? A. Yes, sir. Q. In what way was the Kleenex
box linked to Mr. Miles? A. It was sent to the San
Bernardino Crime Lab, but unfortunately the box

App. 92
had been wiped off, and there was nothing of use
taken from the box. Q. The purpose of that
statement was to assert to the Magistrate, again as a
basis for probable cause, that somehow or another
there was a scientific link that had been made
between the substance on that box and Mr. Miles; is
that correct? A. Yes, sir. Q. And that wasn’t true,
was it? A. No, sir.”
The prosecutor subsequently recalled Detective Lore
to testify about this statement again. At this time,
the prosecutor asked whether there were some
things in his affidavit “which ultimately were found
not to be correct” including “a Kleenex box alleged to
have been analyzed and linked to the defendant
through scientific evidence.” Detective Lore replied,
“Yes.” Asked whether he was aware that this
statement was not true at the time of his affidavit,
Detective Lore replied, “No.” Asked whether he
intentionally made this statement with the intent to
deceive the magistrate judge, Detective Lore again
replied, “No.” Asked to explain why he included this
statement, he testified, “It was my belief at the time
that [the] San Bernardino Police Department had
collected the Kleenex box, along with the blood
stained Kleenexes, that were placed into evidence
and they were going to be shipped to the Crime Lab.”
He was not sure whether at the time of the affidavit,
he anticipated that the items “were going to go [to
the lab], or that they were already there.” He
acknowledged, though, that at the time of the
affidavit, he did not have information that the box
had been analyzed or that any comparison had been
made.

App. 93
Second, Detective Lore testified that Heynen had
identified another individual during an earlier
photographic lineup, but he did not include this
information in his affidavit. He said that he orally
informed the magistrate judge that he had sought
and obtained search warrants with regard to other
suspects in this case and that the warrant sought
here was “either the fourth or fifth search warrant”
sought in this case.
Third, Detective Lore testified that the suspect
descriptions in his affidavit were based on the ATM
photographs captured after Willem’s death, police
reports, and victim interviews. Regarding the ATM
photographs, he explained that he had visited the
same ATM camera, and by comparing himself to the
photographed suspect, he had estimated that the
suspect was approximately six feet, five inches tall
or six feet, six inches tall. As to the police reports,
the defense pressed Detective Lore, asking him to
confirm the height and weight descriptions reported
by the victims.21 When the defense asked whether
any of the victims described the suspect as six feet,
six inches tall, Detective Lore testified that when he
interviewed Arnold, he “said around 6’6”,” explaining
that “[Arnold] was 6’4”, and that he actually had to
look up to the suspect.”
Asked by the defense whether he meant to imply
“that basically all of these people had similar
descriptions” by stating that the robberies “included
a male black that matched the physical description”
of the Christine C. and Osburn and Carole D.
suspect, Detective Lore replied affirmatively. The
defense then asked whether, in his opinion, someone

App. 94
who is six feet, 150 pounds “matches” defendant’s
height and weight. Detective Lore replied, “After 25
years of law enforcement, you begin to realize that
people are not very good with heights and weights.”
When the prosecutor subsequently questioned
Detective Lore, he confirmed that by the word
“matched,” he did not mean to suggest that each
victim’s suspect description exactly mirrored
defendant’s height and weight. Rather, he meant
that “[t]he descriptions given by the different
witnesses and victims in this case, [were] within a
couple of pounds or a couple of inches. And when I
say a couple of pounds, 10, 20, 30.” He also
confirmed that he included defendant’s height and
weight in the affidavit to make the magistrate aware
that discrepancies existed.
b. Trial court’s ruling
The trial court evaluated defendant’s contentions
with respect to each of the three purported
misrepresentations or omissions challenged on
appeal.
First, regarding the Kleenex box statement, the trial
court reasoned that it could be interpreted in one of
two ways. The first possible interpretation was that
the “blood on the box had been scientifically matched
to the suspect’s blood. In this case, Mr. Miles.” By
this interpretation, the statement would be false
because no testing had in fact been done. “Had the
affiant known this at the time that he prepared the
affidavit, there would be no question that he made a
knowingly and intentionally false statement; and at
the very least, he made a statement with a reckless

App. 95
disregard for the truth since he had no information
that was the case.” The second possible
interpretation was “that the box being linked to the
suspect merely meant that the authorities collected
the evidence, [and] believed the blood on the box was
that of the suspect when he forced entry into the
building.” Or put differently, the affiant at the time
that he prepared the affidavit “believed there was a
Kleenex box with blood on it, possibly the suspect’s
blood; and that box was taken into evidence to be
analyzed. He did not mean to suggest that the
analysis had been done and that the blood on the box
was that of Mr. Miles.”
The trial court found that this second interpretation
was consistent with the surrounding facts in the
affidavit and was consistent with Detective Lore’s
testimony, in which he explained that he had later
learned the Kleenex box could not be analyzed
because it had been wiped off. The trial court
concluded, “[b]ased on the Court’s reading of the
affidavit, and having heard the affiant testify on
both occasions as to his intentions in including that
information, the Court cannot say that he knowingly
and deliberately included false information for the
purpose of deceiving the Magistrate, nor can the
Court find a reckless disregard for the truth on [the]
affiant’s part. At most, the Court would find a
negligent mistake in drafting the affidavit in such a
way that a Magistrate could mistakenly assume
there was a scientific link, or failing to include the
information that the box was to be analyzed later.”
Further, the trial court found that even if the
Kleenex box statement were omitted from the

App. 96
affidavit, the affidavit would nevertheless establish
probable cause. “The affidavit contained substantial
information that the same person likely committed
the Willem, [Christine C.], [Carole D.]/Osburn
crimes, including serological evidence. There was
also information presented that Miles has the same
blood type as that found at the Willem crime scene.
And finally, there was information that Miles was
arrested as a suspect in a similar robbery/rape in
Torrance.”
Second, as to the purported omission of Heynen’s
earlier identification, the trial court found, “The
identification by Miss Heynen is, at the very least,
equivocal and falls short of a positive identification. I
can assume that the Magistrate came to the same
conclusion, and that the additional information
would not have led to a different result or have
added anything of substance to the affidavit.”
Third, regarding the suspect descriptions, the trial
court “[did] not find this information to be
misleading or false, and [did] not find that defendant
ha[d] met his initial burden of showing a knowing or
intentionally false statement, or reckless disregard
for the truth.”
Finally, the trial court found that “the affiant and
the executing officers had an objective good faith
reliance on the warrant, and the good faith exception
to the exclusionary rule would apply in this case.”
2. Discussion
“‘In reviewing a search conducted pursuant to a

App. 97
warrant, an appellate court inquires “whether the
magistrate had a substantial basis for concluding a
fair probability existed that a search would uncover
wrongdoing.” [Citation.] “The task of the issuing
magistrate is simply to make a practical, commonsense decision whether, given all the circumstances
set forth in the affidavit before him [or her],
including the ‘veracity’ and ‘basis of knowledge’ of
persons supplying hearsay information, there is a
fair probability that contraband or evidence of a
crime will be found in a particular place.” [Citation.]
The magistrate’s determination of probable cause is
entitled to deferential review. [Citation.]’ [Citation.]
Probable cause sufficient for issuance of a warrant
requires a showing in the supporting affidavit that
makes it substantially probable that there is specific
property lawfully subject to seizure presently located
in the particular place for which the warrant is
sought.” (People v. Scott (2011) 52 Cal.4th 452, 483,
129 Cal.Rptr.3d 91, 257 P.3d 703 (Scott).)
“A defendant has a limited right to challenge the
veracity of statements contained in an affidavit of
probable cause made in support of the issuance of a
search warrant. The trial court must conduct an
evidentiary hearing only if a defendant makes a
substantial showing that (1) the affidavit contains
statements that are deliberately false or were made
in reckless disregard of the truth, and (2) the
affidavit’s remaining contents, after the false
statements are excised, are insufficient to support a
finding of probable cause. Innocent or negligent
misrepresentations will not support a motion to
traverse. [Citations.] A defendant who challenges a
search warrant based on omissions in the affidavit

App. 98
bears the burden of showing an intentional or
reckless omission of material information that, when
added to the affidavit, renders it insufficient to
support a finding of probable cause. [Citations.] In
either setting, the defendant must make his showing
by a preponderance of the evidence, and the affidavit
is presumed valid.” (Scott, supra, 52 Cal.4th at p.
484, 129 Cal.Rptr.3d 91, 257 P.3d 703.)
On appeal, “[w]e defer to the trial court’s express
and implied factual findings if supported by
substantial evidence, but we independently
determine the legality of the search under the
Fourth Amendment.” (People v. Eubanks (2011) 53
Cal.4th 110, 133, 134 Cal.Rptr.3d 795, 266 P.3d 301.)
We consider each of defendant’s contentions in turn.
First, the trial court’s reading of the Kleenex box
statement to mean “that the authorities collected the
evidence, [and] believed the blood on the box was
that of the suspect when he forced entry into the
building” (but not to suggest “that the analysis had
been done and that the blood on the box was that of
Mr. Miles”) is supported by the record. Indeed, the
affidavit’s first several pages detailed the series of
robberies and rapes, referring throughout to the
“suspect” or the “subject” of those crimes, and made
no mention of defendant or his arrest. Reading this
statement’s reference to the “suspect” of the
Andersens crime to mean defendant is thus strained,
as the trial court found.
That said, Detective Lore’s testimony about his own
statement necessarily complicates the analysis. At
one point, Detective Lore confirmed that the purpose

App. 99
of his statement was to assert that there was a
“scientific link” between the Kleenex box and
defendant. When later questioned by the prosecutor,
however, Detective Lore said that he believed only
that the “San Bernardino Police Department had
collected the Kleenex box, along with the blood
stained Kleenexes, that were placed into evidence
and they were going to be shipped to the Crime Lab.”
He also confirmed that at the time of his statement,
he was not aware that the statement was untrue,
and he did not make it with the intent to deceive the
magistrate judge. Faced with this inconsistent
testimony, and with the opportunity to assess
Detective Lore’s demeanor and credibility, the trial
court found that his statement was not intentionally
false or made with a reckless disregard for the truth.
Though the testimony is less than clear, there was
certainly substantial evidence to support the trial
court’s finding. (See People v. Troyer (2011) 51
Cal.4th 599, 613, 120 Cal.Rptr.3d 770, 246 P.3d 901
[“on appeal from the denial of a motion to suppress,
we are bound by the trial court’s resolution of
disputed facts and inferences as well as its
evaluations of credibility ... where (as here) the
findings are supported by substantial evidence”].)
Simply put, the trial court was entitled to credit
Detective Lore’s clarification that he meant to
convey in his affidavit that the Kleenex evidence was
merely being shipped to the crime lab and that he in
no way intended to deceive the magistrate.
In any event, even assuming that this statement was
intentionally false or made with a reckless disregard
for the truth, and accordingly was excised from the
affidavit, the affidavit would nevertheless establish

App. 100
probable cause. The affidavit catalogued the
similarities among the series of rapes and robberies,
including that the crimes occurred on weekday
evenings at professional offices, that several of the
victims were bound with telephone cords, and that
the suspect was described as a tall, Black man who
was armed. In addition, the affidavit described the
consistencies between these incidents and the rape
and robbery for which defendant was arrested and
described defendant as a tall, Black man with AB
blood, which was consistent with the suspect
descriptions and the forensic analysis.
Second, we turn to the affidavit’s statement about
Heynen’s lineup identification. The affidavit stated
that Heynen “tentatively” identified defendant in a
photographic lineup by saying “‘It could be him.’”
Although the affidavit did not state that Heynen had
identified another individual during an earlier
photographic lineup, Detective Lore testified that he
orally informed the magistrate judge about prior
warrants obtained during the investigation for other
suspects. It is conceivable that overstating the
certainty of identifications made by victims or
selectively
including
details
about
such
identifications may be substantially misleading in
some circumstances. But here, the affidavit
described Heynen’s identification of defendant as
tentative and quoted her equivocal statement that
“‘It could be him.’” The omitted fact of Heynen’s
earlier identification, when added to the affidavit,
does not render the affidavit insufficient to support a
finding of probable cause. As described above, the
affidavit contained ample information to establish
probable cause, including but not limited to the

App. 101
similarities among the series of rapes and robberies
and the consistencies between these incidents and
the rape and robbery for which defendant was
arrested.22
Finally, substantial evidence supports the trial
court’s finding as to defendant’s third contention
regarding the suspect descriptions. The affidavit
plainly stated the range of the suspect’s height as
described by the victims, and in the immediately
following sentence, set forth defendant’s actual
height and weight. The affidavit therefore made
clear the discrepancies between the suspect
descriptions and defendant’s characteristics, as
Detective Lore testified he intended to do.
Considering this, the fact that he elsewhere in his
affidavit summarized the suspect descriptions as
similar or matching does not show that he made a
false statement, much less made a false statement
with an intent to deceive or a reckless disregard for
the truth. Similarly, his opinion that, based on his
experience as a policeman, “Mr. Miles displays the
physical characteristics as described by the majority
of the victims in these cases” does not amount to an
intentional or reckless falsehood, particularly since
he testified that his experience as a policeman
indeed taught him that victims were not always
accurate in describing suspects. Nor do we find an
intentional or reckless omission of material
information regarding the suspect descriptions that,
when added to the affidavit, renders the affidavit
insufficient to establish probable cause.23
For these reasons, the trial court did not err.

App. 102
B. Instruction Regarding Motive
Pursuant to CALJIC No. 2.51, the jury was
instructed as follows: “Motive is not an element of
the crime charged and need not be shown. However,
you may consider motive or lack of motive as a
circumstance in this case. Presence of motive may
tend to establish the defendant is guilty. Absence of
motive may tend to show the defendant is not
guilty.” Defendant contends this instruction
impermissibly lowered the prosecution’s burden of
proof for the murder by torture charge and the
penetration by a foreign object charges in violation of
his federal constitutional rights because, according
to defendant, motive was “effectively” an element of
those crimes. We disagree.
1. Murder by Torture
The trial court instructed the jury that murder by
torture requires in relevant part “a willful,
deliberate, and premeditated intent to inflict
extreme and prolonged pain upon a living human
being for the purpose of revenge, extortion,
persuasion or for any sadistic purpose.” Defendant
argues that this “purpose” element was effectively
negated by instructing the jury that motive was not
an element of murder by torture.
We previously rejected that precise argument in
People v. Whisenhunt (2008) 44 Cal.4th 174, 218, 79
Cal.Rptr.3d 125, 186 P.3d 496. In Whisenhunt, the
defendant argued that CALJIC No. 2.51 “had the
effect of negating the element of ‘sadistic purpose’ in
the first degree murder by torture instruction,
CALJIC No. 8.24.” (Whisenhunt, at p. 218, 79

App. 103
Cal.Rptr.3d 125, 186 P.3d 496; see also id. at p. 219,
fn. 11, 79 Cal.Rptr.3d 125, 186 P.3d 496 [CALJIC
No. 8.24 stated in relevant part, “for the purpose of
revenge, extortion, persuasion or for any sadistic
purpose”].) We observed that the Court of Appeal
had previously rejected that argument in People v.
Lynn (1984) 159 Cal.App.3d 715, 206 Cal.Rptr. 181,
and we concluded that Lynn “correctly decided this
issue.” (Whisenhunt, at p. 218, 79 Cal.Rptr.3d 125,
186 P.3d 496.) We explained, “‘[A]lthough malice and
certain intents and purposes are elements of the
crimes, ... motive is not an element.’ [Citation.]
‘Motive describes the reason a person chooses to
commit a crime. The reason, however, is different
from a required mental state such as intent or
malice.’” (Ibid.) We see no reason to depart from
Whisenhunt here.
Nor does defendant’s reliance on People v. Maurer
(1995) 32 Cal.App.4th 1121, 1125, 38 Cal.Rptr.2d
335 compel a departure. In Maurer, the trial court
instructed the jury that misdemeanor child
annoyance required that “‘[the] acts or conduct were
motivated by an unnatural or abnormal sexual
interest.’” (Id. at p. 1125, 38 Cal.Rptr.2d 335, italics
added.) The trial court additionally instructed the
jury that motive was not an element of the crime
charged and need not be shown. Reasoning that “the
question whether ‘motive’ is somehow different from
‘motivation’ or ‘motivated by’ is a question of some
academic interest but of little practical significance,”
the Court of Appeal held that the trial court erred by
not excluding this misdemeanor child annoyance
charge from the motive instruction of CALJIC No.
2.51. (Maurer, at p. 1127, 38 Cal.Rptr.2d 335.)

App. 104
Unlike the charge in Maurer, however, the murder
by torture charge here did not reference or require
motive, or any derivation of that term. (Cf. People v.
Hillhouse (2002) 27 Cal.4th 469, 503–504, 117
Cal.Rptr.2d
45,
40
P.3d
754
(Hillhouse)
[distinguishing Maurer where motive was not
element of crime].) We find no error.
2. Penetration by a Foreign Object
The trial court instructed the jury that penetration
by a foreign object under section 289, subdivision (a)
requires in relevant part that “[t]he penetration was
done with the purpose and specific intent to cause
sexual arousal, gratification or abuse.” The trial
court further instructed the jury that “the ‘specific
intent to cause sexual abuse,’ as used in this
instruction, means a purpose to injure, hurt, cause
pain or to cause discomfort. It does not mean that
the perpetrator must be motivated by sexual
gratification or arousal or have a lewd intent.” Here,
again, defendant argues that this “purpose and
specific intent” element was effectively negated by
instructing the jury that motive was not an element
of this offense.
We have made clear, however, that motive is not an
element of an offense merely because the offense
requires a particular purpose or intent. (See, e.g.,
Hillhouse, supra, 27 Cal.4th at pp. 503–504, 117
Cal.Rptr.2d 45, 40 P.3d 754.) Accordingly, motive
was not an element of the penetration by a foreign
object charges simply by virtue of the charges
requiring a particular “purpose and specific intent.”
(Cf. People v. White (1986) 179 Cal.App.3d 193, 198,

App. 105
205–206, 224 Cal.Rptr. 467 [regarding the “‘purpose
of sexual arousal, gratification, or abuse’”
requirement of former section 289, subdivision (a),
“it is the nature of the act that renders the abuse
‘sexual’ and not the motivations of the perpetrator”].)
Defendant points to no authority suggesting
otherwise. We find no error.
C. Instruction Regarding Intent to Kill
Defendant contends that the jury was not properly
instructed regarding the intent-to-kill requirement
of the torture-murder special circumstance and
therefore the jury’s finding on this special
circumstance violates state and federal law and
must be reversed. The trial court instructed the jury
pursuant to CALJIC No. 8.80.1 that if it found
defendant guilty of first degree murder, the jury
must determine if one or more of the following
special circumstances are true: “the murder was
committed by the defendant while in the commission
of, or attempted commission of a robbery, rape or
burglary; or the murder was intentional and
involved the intent to inflict torture. ... Unless an
intent to kill is an element of a special circumstance,
if you are satisfied beyond a reasonable doubt that
the defendant actually killed a human being, you
need not find that the defendant intended to kill in
order to find the special circumstance to be true.”
Regarding the torture-murder special circumstance,
the trial court instructed the jury pursuant to
CALJIC No. 8.81.18, over the defense’s objection: “To
find that the special circumstance, referred to in
these instructions as murder involving infliction of

App. 106
torture is true, each of the following facts must be
proved: [¶] 1. The murder was intentional; and; [¶] 2.
The defendant intended to inflict extreme cruel
physical pain and suffering upon a living human
being for the purpose of revenge, extortion,
persuasion or for any sadistic purpose. Awareness of
pain by the deceased is not a necessary element of
torture.”
Defendant argues that CALJIC No. 8.81.18’s
directive that “[t]he murder was intentional” did not
adequately instruct the jury as to the intent-to-kill
requirement
of
the
torture-murder
special
circumstance. He acknowledges that in some cases,
CALJIC No. 8.81.18 may adequately instruct the
jury as to this requirement. But he argues that
where, as here, the jury was presented with multiple
theories of first degree murder — specifically,
premeditation and deliberation, torture, and felony
murder — and two of those theories did not require
an intent to kill, CALJIC No. 8.81.18’s directive that
“[t]he murder was intentional” did not necessarily
require the jury to find that defendant intended to
kill but rather required the jury simply to find that
defendant intended to inflict torture or intended to
commit the crime of rape, robbery, or burglary. In
support of this argument, defendant relies on People
v. Pearson (2012) 53 Cal.4th 306, 135 Cal.Rptr.3d
262, 266 P.3d 966 (Pearson).
In Pearson, the trial court included torture in the list
of felonies on which the jury could base a felonymurder special circumstance and as to which the
jury needed to find only that defendant, if not the
actual killer, acted as a major participant and with

App. 107
reckless indifference to human life. (Pearson, supra,
53 Cal.4th at p. 322, 135 Cal.Rptr.3d 262, 266 P.3d
966.) This instruction “incorrectly described the
mental state element of the torture-murder special
circumstance [citation], which requires the intent to
kill.” (Id. at p. 323, 135 Cal.Rptr.3d 262, 266 P.3d
966.) The trial court thus erred in its instructions on
the intent-to-kill requirement of the torture-murder
special circumstance.
We were unable to conclude beyond a reasonable
doubt that “the court’s instructional error, the
omission of an intent-to-kill requirement for an
accomplice’s liability under the torture-murder
special circumstance, was harmless.” (Pearson,
supra, 53 Cal.4th at p. 323, 135 Cal.Rptr.3d 262, 266
P.3d 966.) The jury’s verdict form showed “its
reliance on an aiding and abetting theory,” and the
jury made no finding “as to whether defendant aided
and abetted his accomplices’ fatal acts with the
intent to kill or merely with reckless indifference to
the victim’s life.” (Ibid.) The “confusing” language
provided on the verdict form for the torture-murder
special circumstance also “[fell] short of a finding
defendant personally intended to kill.” (Id. at p. 323,
fn. 7, 135 Cal.Rptr.3d 262, 266 P.3d 966 [“‘that the
defendant ... committed the murder [of the victim]
was intentional and involved the infliction of
torture’”].) In those circumstances, we found that
CALJIC No. 8.81.18 did not supply the missing
intent-to-kill element because CALJIC No. 8.81.18
“required the jury to find ‘[t]he murder was
intentional,’ but not necessarily to find [the aider
and abettor] personally harbored the intent to kill.”
(Pearson, at p. 323, 135 Cal.Rptr.3d 262, 266 P.3d

App. 108
966.)
Defendant’s reliance on Pearson, however, is
misplaced. Unlike in Pearson, the instructions here
did not include torture in the list of felonies on which
the jury could base a felony-murder special
circumstance, or as to which the jury needed to find
only that defendant acted with reckless indifference
to human life. In addition, Pearson addressed
CALJIC No. 8.81.18 as it applied to an aider and
abettor, not the actual killer.
“In determining whether a legally inadequate theory
was conveyed to the jury here, we must ask whether
there is a ‘“reasonable likelihood”’ that the jury
understood the [relevant theory] in a legally
impermissible manner. [Citation.] In doing so, we
consider the instructions provided to the jury and
counsel’s argument to the jury.” (People v. Canizales
(2019) 7 Cal.5th 591, 613, 248 Cal.Rptr.3d 370, 442
P.3d 686; see also Hardy, supra, 5 Cal.5th at p. 97,
233 Cal.Rptr.3d 378, 418 P.3d 309.)
The instructions here informed the jury that it need
not find that defendant intended to kill in order to
find a special circumstance to be true unless an
intent to kill is an element of the special
circumstance, and that in order to find the torturemurder special circumstance to be true, it must find
that “[t]he murder was intentional.” Where, as here,
defendant was the actual killer, CALJIC No.
8.81.18’s requirement that “[t]he murder was
intentional” adequately instructed the jury as to the
intent-to-kill requirement of the torture-murder
special circumstance. (Cf. People v. Pensinger (1991)

App. 109
52 Cal.3d 1210, 1256, 278 Cal.Rptr. 640, 805 P.2d
899 [“Further, defendant’s intent to kill was
established by the jury when it found the torturemurder special circumstance true, as that allegation
was that ‘[t]he murder was intentional and involved
the infliction of torture.’”]; accord, People v. Leach
(1985) 41 Cal.3d 92, 108, 110, 221 Cal.Rptr. 826, 710
P.2d 893.) In addition, the prosecutor correctly
informed the jury that in order to find the torturemurder special circumstance to be true, the jury
must find “an intentional murder.”24 Accordingly,
there was no error in these circumstances.
D. Felony-Murder Special Circumstances
Defendant contends that the felony-murder special
circumstances are unconstitutional because they do
not require a finding of a culpable mental state when
the defendant is the actual killer. “We have
repeatedly held that when the defendant is the
actual killer, neither intent to kill nor reckless
indifference to life is a constitutionally required
element of the felony-murder special circumstance.”
(People v. Jackson (2016) 1 Cal.5th 269, 347, 205
Cal.Rptr.3d 386, 376 P.3d 528; see People v. Watkins
(2012) 55 Cal.4th 999, 1033–1034, 150 Cal.Rptr.3d
299, 290 P.3d 364.) We decline to revisit this issue
here, particularly since the jury found for purposes
of another special circumstance that Willem’s
murder was indeed intentional.
IV. Competency Phase Issues
Admission of Defense Counsel’s Testimony
Regarding Counsel’s “Strategies and Tactics”

App. 110
After the guilt phase, the trial court declared a doubt
as
to
defendant’s
competency,
suspended
proceedings pursuant to section 1368, and
commenced a competency trial before a separate
jury. Defendant was appointed a different attorney
from the public defender’s office, David Negus, to
represent him in the competency trial. At the
competency trial, the defense argued that defendant
was not able to rationally cooperate with his trial
counsel, Joseph Canty, and thus was not competent
to stand trial. Canty testified on behalf of the
defense, and over the defense’s objection, the
prosecutor cross-examined him. Defendant contends
that the trial court erred in allowing the prosecutor
to cross-examine Canty about his “trial tactics and
motive for seeking a competency hearing” because
this testimony was irrelevant, prejudicial, and
protected from disclosure by the attorney-client
privilege and attorney work product doctrine. We
examine each of defendant’s contentions in turn.
1. Competency Trial
a. Defense evidence
Five doctors testified on behalf of the defense. Dr.
Dudley testified that defendant suffered from schizoaffective disorder and cognitive deficits and was not
able to rationally cooperate with his counsel. Dr. Wu
testified that defendant’s PET brain scan showed
abnormalities
that
were
consistent
with
schizophrenia, and Dr. Meth testified that
defendant’s
SPECT
brain
scan
showed
abnormalities, which were consistent with those
shown in the PET scan. Dr. Shoba Sreenivasan, a
clinical psychologist, testified that defendant was not

App. 111
able to rationally cooperate with his counsel. Dr.
Lantz testified that he diagnosed defendant as
schizophrenic
undifferentiated,
determined
defendant’s intelligence to be below average, and did
not believe that defendant was able to rationally
cooperate with his counsel as a result of his mental
illness.
In addition to these doctors, Canty testified. Before
he did, the trial court evaluated whether he could
testify without obtaining an attorney-client privilege
waiver from defendant and to what extent the
prosecutor could cross-examine him. The trial court
concluded that Canty could testify without obtaining
a waiver since it was not clear that defendant was
capable of waiving the privilege. The trial court
refrained, however, from defining the scope of
permissible cross-examination at the outset,
suggesting instead that counsel request to approach
the bench should the testimony near Canty’s
“strategy, motive, trial tactics.”
Canty began his direct testimony by describing his
experience with capital cases and his relationship
with defendant. He proceeded to chronicle his
concerns about defendant’s decision-making in the
case, detailing, among other things, defendant’s
refusal to consider a potential plea deal, his desire to
testify in the guilt and penalty phases, and his wish
to present no mitigating evidence during the penalty
phase. Canty testified that he did not believe
defendant could rationally cooperate with him.
On cross-examination, Canty acknowledged that his
obligation in representing defendant was to exhaust

App. 112
every legal remedy that avoids the death penalty.
The prosecutor then inquired into prior occasions on
which Canty had voiced concerns about defendant’s
competency in this case. With respect to one
occasion, earlier in this case, Canty confirmed that
defendant ultimately waived his right to a
competency jury trial and that “a number of factors”
went into that decision, including a “tactical”
consideration in seeking to avoid pretrial publicity.
The prosecutor next asked whether the guilt phase
jurors were “in limbo” pending the outcome of this
competency trial, to which Canty confirmed that
they were told to “potentially” come back later that
month. The prosecutor asked, “And the effect of a
finding of incompetency in this particular trial would
mean that that jury would be discharged, would it
not?” Canty responded, “That would be up to the
Judge.” When the prosecutor directed Canty’s
attention to a statutory provision (section 1368) —
which, according to the prosecutor, provided that the
jury would be discharged upon a finding of
incompetency — Canty said he was not familiar with
that provision.25 The prosecutor then asked, “Well, if
there is a finding of incompetency, I’m sure you
would be arguing that the jury should be discharged,
would you not?” Canty replied, “That’s hard to know,
because you have to know what the proposed
treatment plan is going to be. And I don’t know what
the Judge will feel about keeping the jury.” The
prosecutor followed up, asking, “Frequently there’s
a, there’s a tactical advantage in death penalty cases
to have a second, separate jury impaneled for the
penalty phase that did not hear the guilty phase; is
that correct?”

App. 113
The defense immediately asked to approach the
bench. Outside the presence of the jury, the defense
stated, “It sounds like we’re getting into Mr. Canty’s
tactical decisions. I realize thus far it’s been
expressed just in the abstract, but [it would] appear
that we’re starting to focus in on it in this particular
case.” The defense objected to the line of questioning
as irrelevant and prejudicial. In response, the
prosecutor explained that he intended to show that
Canty’s motive for this competency trial was to
obtain a new penalty phase jury. The trial court took
the matter under submission. It ultimately ruled
that the prosecutor could bring before the jury “this
question of motivation” for the competency trial. The
trial court instructed the prosecutor, however, that
he otherwise should probably “stay away” from
asking about “what’s going on in [Canty’s] mind.”
Back in the presence of the jury, the prosecutor
returned to his question as to whether “[f]requently
it’s a defense tactic in capital cases to seek a new
jury for the penalty phase.” Canty testified, “I can’t
answer that yes or no. I would think that depending
upon the status of the case and a given case, I could
conceive that counsel might wish to have another
jury handle the penalty phase, and there would be a
variety of reasons for that.” Asked about another
capital case where he had tried the penalty phase
before a jury, Canty confirmed that he had moved for
a new penalty phase jury in that case. The
prosecutor’s remaining, and relatively extensive,
questioning regarded Canty’s concerns about
defendant’s decision-making in the case.

App. 114
On a brief recross-examination, Canty confirmed
that in determining defendant’s sentence, the
penalty phase jury would consider evidence it had
heard during the guilt phase. In the event of a new
penalty phase jury, he explained that the witnesses
who testified in the guilt phase would either be
recalled, or counsel would stipulate as to their
testimony. Finally, the prosecutor asked whether
Canty had previously told the prosecution in this
case that he may move for a new penalty phase jury.
Canty responded, “I — if I — I don’t remember
making that statement. I wouldn’t say that I didn’t. I
don’t remember saying that.” The prosecutor
followed up, asking, “It’s possible? And by that I
mean, motion for a separate penalty phase jury?”
Canty responded, “Yes. If that’s — that’s the
question I’m answering, yes.” The parties
subsequently stipulated that Canty “has not made a
motion for separate juries for guilt and penalty
phase in this case.”
b. Prosecution evidence
A forensic psychologist, Dr. Lee Guerra, testified
that defendant was competent to stand trial and that
he suspected defendant was malingering mental
illness. A psychiatrist, Dr. Jose Moral, likewise
testified that defendant was competent to stand trial
and that he, too, suspected defendant was
malingering mental illness.26
An investigator testified that when he served
defendant with a court order for a handwriting
exemplar, defendant refused to comply. The
investigator believed that defendant understood the

App. 115
request but considered it to not be in his best
interest to comply with it. A videotape showing
defendant watching and playing chess with other
inmates in jail was also played for the jury, and
Deputy Billings testified that defendant’s behavior
on the tape was generally consistent with his
behavior in jail.27
2. Discussion
a. Whether the testimony was irrelevant and
unduly prejudicial
Only relevant evidence is admissible. (Evid. Code, §
350.) Relevant evidence is defined as “evidence,
including evidence relevant to the credibility of a
witness or hearsay declarant, having any tendency
in reason to prove or disprove any disputed fact that
is of consequence to the determination of the action.”
(Evid. Code, § 210.) “The court in its discretion may
exclude evidence if its probative value is
substantially outweighed by the probability that its
admission will (a) necessitate undue consumption of
time or (b) create substantial danger of undue
prejudice, of confusing the issues, or of misleading
the jury.” (Evid. Code, § 352.) “‘Prejudice,’ as used in
Evidence Code section 352, is not synonymous with
‘damaging.’ [Citation.] Rather, it refers to evidence
that uniquely tends to evoke an emotional bias
against the defendant as an individual, and has little
to do with the legal issues raised in the trial.”
(People v. McCurdy (2014) 59 Cal.4th 1063, 1095,
176 Cal.Rptr.3d 103, 331 P.3d 265.)
“A trial court has ‘considerable discretion’ in
determining the relevance of evidence. [Citation.]

App. 116
Similarly, the court has broad discretion under
Evidence Code section 352 to exclude even relevant
evidence if it determines the probative value of the
evidence is substantially outweighed by its possible
prejudicial effects. [Citation.] An appellate court
reviews a court’s rulings regarding relevancy and
admissibility under Evidence Code section 352 for
abuse of discretion.” (Merriman, supra, 60 Cal.4th at
p. 74, 177 Cal.Rptr.3d 1, 332 P.3d 1187.) “‘We will
not disturb a trial court’s exercise of discretion under
Evidence Code section 352 “‘except on a showing that
the court exercised its discretion in an arbitrary,
capricious or patently absurd manner that resulted
in a manifest miscarriage of justice.’”’” (People v.
Mora and Rangel (2018) 5 Cal.5th 442, 480, 235
Cal.Rptr.3d 92, 420 P.3d 902.)
Here, defendant argues that the testimony about
Canty’s “strategy and tactics” was irrelevant and
unduly prejudicial. Defendant “recognizes that in
many cases, evidence of a testifying witness’s
motivation might be useful to assessing the
credibility of the witness,” but he argues, with little
explanation, that Canty “was a sworn officer of the
court [and] testifying under penalty of perjury.”
Defendant additionally argues that “the prosecutor’s
theory that Mr. Canty’s state of mind would shed
light on [defendant’s] mental health required the
exact type of speculative inference condemned by
this court.” In response, the Attorney General argues
that Canty’s testimony was relevant both to Canty’s
credibility and to show “the potential benefits of
faking incompetence” since the prosecutor argued
that defendant was faking incompetence for an
ulterior purpose.

App. 117
We conclude that the trial court did not abuse its
discretion under Evidence Code section 352 when it
permitted the prosecutor to cross-examine Canty
about his possible motive for seeking a competency
trial. As noted, Canty was a witness during the
competency trial and did not represent defendant for
purposes of that trial. Whether the guilt phase jury
would be discharged upon a finding of incompetence,
whether there were advantages to impaneling a new
penalty phase jury, and whether Canty previously
considered seeking a new penalty phase jury in this
case is evidence relevant to his credibility as a
witness in this competency trial. (Cf. People v.
Turner (2004) 34 Cal.4th 406, 430, 20 Cal.Rptr.3d
182, 99 P.3d 505 [where “defendant’s trial attorneys
were percipient witnesses during the competency
hearing,” the prosecutor was “free to attack their
credibility based on the evidence in the record” and
did not commit misconduct by suggesting that
defendant’s trial attorneys raised the competency
issue only due to “their emotional involvement in the
case”].) To be sure, we recognize the suggestion that
Canty harbored ulterior motives in testifying at the
competency trial had possible prejudicial effects. In
the circumstances here, however, we cannot say that
on balance, the trial court abused its discretion in
permitting this testimony. (See People v. Dalton
(2019) 7 Cal.5th 166, 237, 247 Cal.Rptr.3d 273, 441
P.3d 283 [“‘“Evidence is substantially more
prejudicial than probative”’ under Evidence Code
section 352 ‘“if, broadly stated, it poses an
intolerable ‘risk to the fairness of the proceedings or
the reliability of the outcome.’”’”].)

App. 118
As to Canty’s testimony that he previously sought a
new penalty phase jury in another capital case,
defendant did not raise a timely and specific
objection to this particular testimony. Although we
acknowledge that defendant objected to the
prosecutor’s overall efforts to show that Canty’s
motive for the competency trial was to obtain a new
penalty phase jury in this case, we find that
defendant forfeited any claim of error as to this
particular testimony regarding the other capital
case. Even if we assume for the sake of argument
that this portion of his claim was preserved and
admitting this testimony was error, however, we
would find any such error harmless in light of
Canty’s other, properly admitted testimony,
including his testimony that he “could conceive that
counsel might wish to have another jury handle the
penalty phase, and there would be a variety of
reasons for that” and that it was “possible” that he
told the prosecution that he may move for a new
penalty phase jury in this case.
b. Whether the testimony was protected by the
attorney-client privilege and attorney work
product doctrines
The attorney-client privilege protects from forced
disclosure “a confidential communication between
client and lawyer.” (Evid. Code, § 954.) The Evidence
Code defines “confidential communication between
client and lawyer” as “information transmitted
between a client and his or her lawyer in the course
of that relationship and in confidence by a means
which, so far as the client is aware, discloses the
information to no third persons other than those who

App. 119
are present to further the interest of the client in the
consultation or those to whom disclosure is
reasonably necessary for the transmission of the
information or the accomplishment of the purpose
for which the lawyer is consulted, and includes a
legal opinion formed and the advice given by the
lawyer in the course of that relationship.” (Evid.
Code, § 952.) The “‘fundamental purpose’” of the
attorney-client privilege is “‘to safeguard the
confidential relationship between clients and their
attorneys so as to promote full and [frank] discussion
of the facts and tactics surrounding individual legal
matters.’” (Los Angeles County Bd. of Supervisors v.
Superior Court (2016) 2 Cal.5th 282, 292, 212
Cal.Rptr.3d 107, 386 P.3d 773.)
Defendant contends that admitting Canty’s
testimony regarding his “tactical decisions” violated
the attorney-client privilege. Canty’s challenged
testimony, however, did not violate the attorneyclient privilege because it related primarily to
general legal principles and publicly available facts.
For example, his testimony about the procedural
effects of an incompetence finding or the potential
advantages in impaneling a new penalty phase jury
spoke to legal concepts in nonspecific terms and did
not disclose the content of any confidential
communications between Canty and defendant. (Cf.
People v. Clark (2016) 63 Cal.4th 522, 603, 203
Cal.Rptr.3d 407, 372 P.3d 811 [privilege not violated
where expert witness testified regarding general
legal concepts and “did not disclose any actual
communication between defendant and his
attorney”].)28 Similarly, his testimony about section
1368 or about moving for a new penalty phase jury

App. 120
in another case did not violate the attorney-client
privilege since those facts were publicly available.
(See People v. Combs (2004) 34 Cal.4th 821, 865–
866, 22 Cal.Rptr.3d 61, 101 P.3d 1007 [privilege not
violated by eliciting information contained in public
record].)
Admittedly, a couple of the prosecutor’s questions
came closer to potentially eliciting privileged
information. First, the prosecutor asked whether
Canty would argue for a new penalty phase jury
upon a finding of incompetency in this case (putting
aside any applicable statutory provision). Although
this question moved beyond the more general line of
questioning, Canty’s noncommittal response to this
hypothetical question that it was “hard to know” and
that he did not know “what the Judge [would] feel
about keeping the jury” fell short of revealing any
privileged information. Second, the prosecutor asked
whether Canty previously told the prosecution that
he was considering moving for a new penalty phase
jury in this case, again going beyond the abstract
and into the specifics of this case. However,
information communicated to the prosecution would
not have remained privileged. And in any event,
Canty testified that, although it was possible, he did
not recall whether he in fact told the prosecution
that. Thus, despite these closer calls, none of his
testimony ultimately disclosed any privileged
information.
As to the attorney work product doctrine, section
1054.6 currently provides in relevant part that
“[n]either the defendant nor the prosecuting
attorney is required to disclose any materials or

App. 121
information which are work product as defined in
subdivision (a) of Section 2018.030 of the Code of
Civil Procedure, or which are privileged pursuant to
an express statutory provision, or are privileged as
provided by the Constitution of the United States.”29
Code of Civil Procedure section 2018.030,
subdivision (a) in turn provides: “A writing that
reflects an attorney’s impressions, conclusions,
opinions, or legal research or theories is not
discoverable under any circumstances.” Code of Civil
Procedure section 2018.030, subdivision (b)
separately provides that “[t]he work product of an
attorney, other than a writing described in
subdivision (a), is not discoverable unless the court
determines that denial of discovery will unfairly
prejudice the party seeking discovery in preparing
that party’s claim or defense or will result in an
injustice.” The policy behind the work product
doctrine is to “[p]reserve the rights of attorneys to
prepare cases for trial with that degree of privacy
necessary to encourage them to prepare their cases
thoroughly and to investigate not only the favorable
but the unfavorable aspects of those cases [and to]
[p]revent attorneys from taking undue advantage of
their adversary’s industry and efforts.” (Code Civ.
Proc., § 2018.020.)
Defendant contends that admitting Canty’s
testimony regarding his “tactical decisions” not only
violated the attorney-client privilege but also
violated the absolute attorney work product doctrine.
Defendant argues that admitting this testimony
violated the attorney work product doctrine,
regardless of whether the work product was reduced
to writing or not, because “despite the arguably

App. 122
contrary language of California’s absolute work
product statute, the privilege also applies to nonwritten work product.” Disagreeing, the Attorney
General argues that “[t]he prosecutor’s questions to
Canty did not relate to any writing reflecting his
impressions, conclusions, opinions, legal research or
theories and thus could not have impinged any valid
work product privilege.” The Attorney General
further argues that “Canty was not asked to, and did
not, divulge any otherwise privileged or confidential
information;” instead, his testimony regarded
matters disclosed to the prosecutor or in public
records, and consisted of evasive responses that “did
not disclose any unique impressions, conclusions,
opinions, or theories.”
We need not decide whether Canty’s oral testimony
qualified as attorney work product or whether
admitting it violated the attorney work product
doctrine. Even if we assume that error occurred, it
was not reversible. The Attorney General and
defendant disagree as to which standard of prejudice
applies here. Regardless, we would find it harmless
under either standard. (See People v. Watson (1956)
46 Cal.2d 818, 299 P.2d 243; Chapman v. California
(1967) 386 U.S. 18, 87 S.Ct. 824, 17 L.Ed.2d 705.) As
Canty acknowledged, section 1368 itself provided
that the jury would be discharged if defendant were
found mentally incompetent. In addition, Canty
acknowledged that “depending upon the status of the
case and a given case,” he “could conceive that
counsel might wish to have another jury handle the
penalty phase, and there would be a variety of
reasons for that.” Canty also acknowledged that it
was “possible” that he told the prosecution that he

App. 123
may move for a new penalty phase jury in this case.
To the extent admitting other portions of Canty’s
challenged testimony may have violated the attorney
work product doctrine, we find any such error
harmless in light of Canty’s properly admitted
testimony. We therefore find no reversible error.
V. Penalty Phase Issues
A.

Admission of Evidence
Committed as a Juvenile

of

Crimes

Over the defense’s objection, the trial court took
judicial notice of 14 of defendant’s prior convictions.
Eight of these convictions were for crimes that
defendant committed when he was 17 years old.
Defendant contends that considering those
convictions violated his rights under the Eighth
Amendment to the United States Constitution. This
contention fails.
If a defendant committed an offense while under the
age of 18, but was tried and convicted as an adult,
“the conviction would be admissible at the penalty
phase under section 190.3, factor (c).” (People v.
Williams (2010) 49 Cal.4th 405, 462, 111 Cal.Rptr.3d
589, 233 P.3d 1000; People v. Pride (1992) 3 Cal.4th
195, 256–257, 10 Cal.Rptr.2d 636, 833 P.2d 643.)
Defendant acknowledges this but urges us to
reconsider the issue based on the high court’s
decisions in Roper v. Simmons (2005) 543 U.S. 551,
125 S.Ct. 1183, 161 L.Ed.2d 1, Graham v. Florida
(2010) 560 U.S. 48, 130 S.Ct. 2011, 176 L.Ed.2d 825,
Miller v. Alabama (2012) 567 U.S. 460, 132 S.Ct.
2455, 183 L.Ed.2d 407, and Hall v. Florida (2014)
572 U.S. 701, 134 S.Ct. 1986, 188 L.Ed.2d 1007. We

App. 124
recently rejected a similar argument premised on
those same four decisions and held that presenting
evidence of a defendant’s violent juvenile misconduct
under section 190.3, factor (b) did not violate the
Eighth Amendment.30 (See Rices, supra, 4 Cal.5th at
pp. 86–87, 226 Cal.Rptr.3d 118, 406 P.3d 788.) We
likewise reject defendant’s argument here and find
no error in admitting defendant’s prior convictions
under section 190.3, factor (c).
B. Admission of Evidence of Unadjudicated
Offenses
The prosecution devoted part of its case in
aggravation to unadjudicated criminal activity and
presented testimony concerning four incidents
involving Yenerall, Heynen, Kendrick, and Arnold.
Defendant, however, contends that permitting
Yenerall, Heynen, Kendrick, and Arnold to testify
violated his state and federal constitutional rights to
a reliable penalty phase, due process, a fair trial,
and confrontation, and to present a defense because
the state lost or destroyed the following evidence
relating to those four incidents: information as to
which suspect sketches Yenerall and Heynen saw; a
photo lineup in which Yenerall recalled identifying
defendant; the Steven Dyer photo lineup shown to
Heynen; the Randy Winters photo lineup shown to
Kendrick; and the Roger Egans photo lineup shown
to Arnold.31 We disagree.
1. Background
a. Yenerall
Following the January 6, 1992 incident, Yenerall

App. 125
viewed a photo lineup in which she identified a man
named Orlando Boone. That lineup was provided to
the defense. She subsequently attended a live lineup
that included Boone, but she did not identify him.
After that, there is disagreement as to whether she
viewed another photo lineup: She recalled viewing
another one and identifying defendant in it, but the
police had no record of any such lineup and believed
she misremembered it.
In addition, she viewed a sketch of the suspect. The
police composed several suspect sketches during the
investigation, and it appears that those sketches
were provided to the defense in this case. As to
which sketch she personally saw, she did not recall,
but Detective Lore testified that she saw one of two
specific sketches. The defense argued, however, that
“[a]lthough [Detective Lore] believed [Yenerall was
shown] one of two composites in evidence, he did not
know which one was shown to Yenerall and so that
evidence is unavailable to the defendant.” Later, she
identified defendant during a live lineup and at the
preliminary hearing.
During the penalty phase of the trial, she identified
defendant in the courtroom, testifying, “I’m certain”
as to that identification. She also testified about
previously identifying defendant during the live
lineup and during the preliminary hearing.
Regarding the live lineup, she explained that she did
not write a number on the lineup identification card
but instead directly informed one of the detectives
about her identification and was “very certain” about
it. On cross-examination, she admitted that her
hesitancy to write down a number on the card

App. 126
reflected “[s]ome” uncertainty but explained that she
chose not to write down a number because she was
not obligated to do so.
Also on cross-examination, she confirmed that she
previously viewed a photo lineup in which she
identified an individual other than defendant and
expressed “some great degree of certainty” as to that
identification. Asked whether she identified an
individual named Orlando Boone, she testified that
she did not recall the name of the individual but that
this individual subsequently attended a live lineup,
where she did not identify him or anyone else.
b. Heynen
Heynen testified that she saw at least four photo
lineups after the January 21, 1992 incident. She
recalled possibly pointing to someone as close in
three lineups but did not recall identifying anyone.
According to Detective Lore, Heynen later was not
sure whether she actually saw that many lineups.
Detective Lore testified that Heynen viewed three
photo lineups and one book containing parolee
pictures. The first photo lineup, shown on March 12,
1992, included an individual named Steven Dyer.
Detective Lore testified that Heynen did not identify
Dyer in this lineup, but Detective Lore’s notes
indicated that Heynen said, “it could be him.” This
photo lineup was disassembled and not provided to
the defense. The prosecution, however, provided the
defense with a picture of Dyer, although it was not
the picture used in the disassembled lineup. The
same day as that lineup, she viewed a book of

App. 127
parolee pictures and said that an individual named
Damon Cooper looked familiar. The book was
provided to the defense. The second photo lineup
included Boone. She identified another individual in
that lineup, and the lineup was provided to the
defense. The third photo lineup included defendant,
and Heynen said, “it could be” him.
She also saw a suspect sketch and assisted the police
in creating another sketch. As noted, it appears that
the sketches were provided to the defense. The
prosecutor declared that “all of the composites are
available;” however, the defense argued that “like
those shown to [Yenerall], the composites [shown to
Heynen] are unidentifiable.” Later, she identified
defendant during a live lineup and at the
preliminary hearing.
During the penalty phase of the trial, Heynen
identified defendant in the courtroom, testifying that
she was “[v]ery certain” regarding her identification.
She testified that she had previously identified
defendant during a live lineup and during the
preliminary hearing as well. On cross-examination,
she said that she had previously viewed photo
lineups on “[a]bout” four occasions. Asked whether
on two of those occasions she selected anyone in the
lineup, she responded, “That appeared to be close.”
She explained that in those two selections, the
individuals could have been the perpetrator, but she
was not sure. Asked whether she selected a picture
of defendant and said it could be him, she testified
that she was never told whether any of the pictures
were of defendant.

App. 128
c. Kendrick
After the February 19, 1992 incident, Kendrick
recalled viewing two photo lineups. He testified that
he did not identify anyone in either of these lineups.
However, Detective Lore testified that in one of
these lineups, on March 26, 1992, Kendrick
identified an individual named Randy Winters with
a certainty of eight out of ten. This photo lineup was
disassembled and not available to the defense. The
prosecution, however, provided the defense with a
copy of Winters’s DMV picture, which was not the
picture used in the disassembled lineup.
In addition, Kendrick saw a sketch of the suspect
and assisted the police in creating another sketch of
the suspect, both of which were provided to the
defense. Later, Kendrick identified defendant during
a live lineup and at the preliminary hearing.
During the penalty phase, Kendrick identified
defendant in the courtroom and testified that he had
previously identified defendant during the live
lineup as well. He further testified that he had
previously viewed two photo lineups but did not
identify anyone in them. The defense did not crossexamine Kendrick.
d. Arnold Andersen
Arnold Andersen testified that he viewed photo
lineups on several occasions after the February 21,
1992 robbery, but he did not recall identifying
anyone in them. Detective Lore testified that Arnold
viewed two photo lineups. As to one of these lineups,
Detective Lore testified that Arnold did not identify

App. 129
anyone but said that one individual was close. As to
the other, Sergeant Howard Woods testified that
Arnold said an individual named Roger Egans was
the closest, with an 80 percent certainty, on May 21,
1992. Once Egans was eliminated as a suspect, this
lineup was disassembled. The prosecution gave the
defense a copy of Egans’s DMV photo, but the photo
was not the one used in the disassembled lineup.
Arnold also saw a sketch of the suspect that his wife,
Sharyn, assisted in creating. He subsequently
identified defendant during a live lineup and at the
preliminary hearing as well.
During their penalty phase testimony, both Arnold
and Sharyn identified defendant in the courtroom.
They testified that they had previously identified
defendant during a live lineup, too. Regarding the
photo lineups, Arnold testified that he had
previously viewed two or three photo lineups but did
not identify anyone in them. The defense did not
cross-examine either Arnold or Sharyn.
e. Trial court’s ruling
The prosecution originally filed an information that
included charges relating to the January 6, January
21, February 19, and February 21, 1992 incidents. 32
Following the preliminary hearing, the defense
moved to strike identification testimony by certain
witnesses under Brady v. Maryland (1963) 373 U.S.
83, 83 S.Ct. 1194, 10 L.Ed.2d 215 (Brady) and
California v. Trombetta (1984) 467 U.S. 479, 104
S.Ct. 2528, 81 L.Ed.2d 413 (Trombetta). That motion
was denied. The defense also moved to dismiss the

App. 130
information under section 995 on the ground, inter
alia, that admitting the identification testimony
violated defendant’s constitutional rights. That
motion, too, was denied. The trial court agreed that
the missing evidence — which the court
characterized “generally as the lost either
photographs, composites or photo spreads” — was
important but found that there was no willful or
malicious conduct by the state.
Later, the defense moved to sever the counts
involving eyewitness identifications from the
Willem, Christine C., Osburn, and Carole D. counts
on the ground, inter alia, that severance was an
appropriate sanction under section 1054.5 due to the
missing evidence related to the eyewitness counts.
The defense simultaneously moved again under
Brady, supra, 373 U.S. 83, 83 S.Ct. 1194 and
Trombetta, supra, 467 U.S. 479, 104 S.Ct. 2528 to
preclude any pretrial or in-court identification
testimony by, among others, Yenerall, Heynen,
Kendrick, and Arnold. The trial court granted
defendant’s motion for severance but denied his
motion to exclude the identification testimony. When
the defense moved to have the severed eyewitness
counts tried before the other counts, the court denied
the motion.
Before the penalty phase, the defense moved to
exclude evidence of these severed, unadjudicated
offenses or alternatively, to have them tried by
another jury. The trial court found that the
“confusion that underlies” the identifications could
be brought before the jury without the missing
evidence. The court also found that there was no

App. 131
“willful, purposeful, malicious intent on the part of
the police in destroying evidence that could have
been helpful to Mr. Miles,” explaining that “these
were line-ups that were put together early in the
investigation, substantially prior to Mr. Miles being
a suspect,” and in those cases where the police
followed up on photo lineups shown to the victims
and “found that the person could not have been the
perpetrator,” the police “probably felt that there was
no longer a need to keep those photo line-ups intact.”
The court denied the motion.
2. Discussion
The
Attorney
General
frames
defendant’s
contentions regarding the lost or destroyed evidence
under Trombetta, supra, 467 U.S. 479, 104 S.Ct.
2528. Defendant makes clear in his reply brief,
however,
that
he
does
“not
raise
a
Trombetta/Youngblood Due Process claim.” Rather,
he raises an Eighth Amendment claim based on the
heightened reliability standard in capital cases and
Gardner v. Florida (1977) 430 U.S. 349, 97 S.Ct.
1197, 51 L.Ed.2d 393 (Gardner), and he additionally
asserts violations of his state and federal
constitutional rights to due process, a fair trial,
confrontation and to present a defense. In light of
defendant’s express clarification, we do not address
his contentions under Trombetta.
Contrary
to
defendant’s
argument,
the
circumstances here are unlike those in Gardner,
supra, 430 U.S. 349, 97 S.Ct. 1197, on which
defendant heavily relies. In Gardner, the high court
vacated a death sentence where the trial court

App. 132
sentenced the defendant to death due in part to
information in a presentence investigation report,
portions of which were provided to the trial court but
not disclosed to the defendant. (Id. at pp. 351, 353,
356, 362, 97 S.Ct. 1197.) By contrast, no evidence in
this case was provided to and relied on by the trial
judge, but not disclosed to the defense.
Indeed, we have previously rejected an argument
relying on Gardner, supra, 430 U.S. 349, 97 S.Ct.
1197 in circumstances like those here. In People v.
Rodrigues (1994) 8 Cal.4th 1060, 1160–1161, 36
Cal.Rptr.2d 235, 885 P.2d 1, the defendant claimed
that he was deprived of his right to a reliable
sentencing determination and a fair opportunity to
confront and rebut evidence against him because
certain evidence related to an unadjudicated charge
had been lost, including photos shown to the victim.
We held that despite this lost evidence, there was no
unfairness in admitting evidence regarding the
unadjudicated charge. (Id. at pp. 1162–1163, 36
Cal.Rptr.2d 235, 885 P.2d 1.) Here, as in Rodrigues,
we conclude that the loss of evidence did not deprive
defendant of a fair trial or a reliable sentencing
determination.
First, as to the suspect sketches viewed by Yenerall
and Heynen, defendant argues on appeal that
“although various composite sketches were available,
since police could not recall which sketch had been
shown to [Yenerall or Heynen], whatever value there
was in the sketches was gone.” The defense,
however, implicitly acknowledged having received
the suspect sketches, and the defense could ask
Yenerall and Heynen about them. Second, as to a

App. 133
photo lineup in which Yenerall recalled identifying
defendant, the police did not believe any such lineup
ever existed, and Yenerall recalled identifying
defendant, not someone else, in it. Although
defendant suggests that this missing lineup may
explain how she initially identified Boone yet later
identified defendant, this theory, too, is speculative.
It also ignores that between her photo identification
of Boone and her identification of defendant, she
attended a live lineup where she did not identify
Boone, making her later identification of defendant
less sudden than defendant suggests. Moreover, the
defense cross-examined Yenerall about her earlier
identification in a photo lineup of an individual other
than defendant, and about her hesitancy to write
down a number on the card when she identified
defendant in a live lineup.
As to the remaining missing evidence (the Dyer,
Winters, and Egans photo lineups), defendant’s
contentions pose a closer call but ultimately, too, fall
short. There is conflicting testimony as to whether
Heynen, Kendrick, and Arnold made any
identifications in the lineups, and the lineups took
place before defendant was a suspect. In addition,
the prosecutor provided the defense with pictures of
Dyer, Winters, and Egans, and while those pictures
were not comparable to the missing lineups, the
defense could ask Heynen, Kendrick, and Arnold
about those pictures and about their identifications.
Indeed, the defense cross-examined Heynen about
having viewed photo lineups on “[a]bout” four
occasions and having selected persons who
“appeared to be close” on two of those occasions; the
defense had the opportunity but declined to cross-

App. 134
examine Kendrick or Arnold. In these circumstances,
we find no error and conclude that admitting the
testimony of these four witnesses did not violate
defendant’s state or federal constitutional rights.
Even assuming for the sake of argument that
admitting this testimony was error, it was not
reversible. “[E]rror in the admission of evidence
under section 190.3, factor (b) is reversible only if
‘there is a reasonable possibility it affected the
verdict,’ a standard that is ‘essentially the same as
the harmless beyond a reasonable doubt standard of
Chapman v. California[, supra,] 386 U.S. 18, 24 [87
S.Ct. 824].’” (People v. Lewis (2008) 43 Cal.4th 415,
527, 75 Cal.Rptr.3d 588, 181 P.3d 947.) Certainly,
there was no reasonable possibility that admitting
Arnold’s testimony affected the penalty verdict
because his wife, Sharyn, testified about the same
incident and identified defendant during her
testimony. Defendant, too, acknowledged on crossexamination that he robbed the Andersens, as well
as Yenerall. There was no reasonable possibility that
admitting the testimony of Yenerall, Heynen, and
Kendrick affected the penalty verdict either, in light
of the volume of other evidence presented, including
the details of Willem’s brutal murder, the Christine
C., Osburn, Carole D., Bridget E., and Steve H.
crimes, defendant’s 14 other convictions, and the
victim impact evidence. There was no reversible
error.
C. Admission of Victim Impact Evidence
Regarding Prior Crime
Over the defense’s objection, Bridget E. testified

App. 135
about the effects of the June 16, 1992 incident on her
health, career, and personality. Defendant contends
that the trial court erred by admitting her testimony
because, according to defendant, admitting victim
impact evidence for prior crimes under section 190.3,
factor (b) is improper and unconstitutional.
Defendant’s argument relies on five out-of-state
decisions, a textual distinction between section
190.3, factors (a) and (b), and People v. Boyde (1988)
46 Cal.3d 212, 250 Cal.Rptr. 83, 758 P.2d 25 (Boyde).
We have previously found unpersuasive the five outof-state decisions upon which defendant relies. (See
People v. Davis (2009) 46 Cal.4th 539, 618, 94
Cal.Rptr.3d 322, 208 P.3d 78.) We have also
disagreed that “the textual distinction between
section 190.3, factors (a) and (b) compels the
conclusion that the electorate intended to preclude
victim impact testimony and argument relating to
violent criminal activity other than the capital
crime.” (People v. Johnson (2016) 62 Cal.4th 600,
647, 197 Cal.Rptr.3d 461, 364 P.3d 359.) In addition,
we have overruled Boyde, supra, 46 Cal.3d 212, 250
Cal.Rptr. 83, 758 P.2d 25 “to the extent it concludes
that victim impact evidence relating to factor (b)
criminal activity is inadmissible, and reaffirm[ed]
the unbroken line of authority beginning with People
v. Benson [ (1990) ] 52 Cal.3d 754 [276 Cal.Rptr. 827,
802 P.2d 330], which has approved evidence and
prosecutorial argument regarding the impact of the
defendant’s factor (b) crimes on the victims of that
criminal activity.” (Johnson, at p. 648, 197
Cal.Rptr.3d 461, 364 P.3d 359.) We find no error
here.

App. 136
D. Admission of Victim Impact Evidence
Related to Capital Crime
Over defendant’s objection, the trial court admitted
victim impact evidence related to Willem’s murder
consisting of testimony from her family members, a
short videotape depicting her singing, and a
photograph of her that resembled how she looked
around the time of her death. We have previously
permitted the admission of similar victim impact
evidence (see, e.g., People v. Brady (2010) 50 Cal.4th
547, 577–579, 113 Cal.Rptr.3d 458, 236 P.3d 312
[admission of family member testimony and fourminute videotape depicting victim at family
celebration]; Vines, supra, 51 Cal.4th at p. 888, 124
Cal.Rptr.3d 830, 251 P.3d 943 [admission of
videotape depicting victim singing and dancing] ),
and defendant does not argue that there was
anything improper about the amount or content of
the specific victim impact evidence here. Defendant,
however, argues that section 190.3, factor (a) has
been improperly interpreted by this court to allow
victim impact evidence in violation of state and
federal law and accordingly calls for a wholesale
reconsideration of existing precedent beginning with
People v. Edwards (1991) 54 Cal.3d 787, 1
Cal.Rptr.2d 696, 819 P.2d 436. We recently rejected
the same statutory argument in People v. Seumanu
(2015) 61 Cal.4th 1293, 1366–1368, 192 Cal.Rptr.3d
195, 355 P.3d 384. We see no reason to reconsider it
now and thus find no error here.
E. Asserted Juror Misconduct
Defendant contends that the trial court erred when
it declined to discharge Juror No. 12 after he saw

App. 137
newspaper headlines about defendant’s competency
trial. We disagree. We conclude that there was no
substantial likelihood of juror bias and there was no
violation
of
defendant’s
federal
or
state
constitutional rights.
1. Background
After the trial court declared a doubt as to
defendant’s competency and suspended proceedings,
the trial court met individually with each of the guilt
phase jurors and informed them that there was an
issue — about which the court could not reveal the
details — that would cause a significant delay before
beginning the penalty phase. The court individually
admonished each of the jurors to avoid discussing or
reading about the case in the interim. When the
court met individually with Juror No. 12, the court
instructed Juror No. 12, “[P]lease don’t discuss what
we’ve talked about with any of the other jurors. And
if there’s anything in the newspaper about this case,
please don’t read that.”
Several months later, the guilt phase jurors returned
for the penalty phase. At the defense’s request, the
jurors filled out a supplemental questionnaire
concerning whether they had read, heard, or
discussed anything about the case since rendering
the verdict. The first question asked, “Have you read
anything in a newspaper about this case since
rendering your verdict on March 18, 1999?” Juror
No. 12 checked “yes” in response to this question and
commented, “I have read the headlines, but not the
article itself.” Juror No. 12 checked “no” in response
to the remaining two questions, indicating that he

App. 138
had not heard anything about the case from any
other source or discussed the case with any of the
other jurors since rendering the verdict.
The trial court and counsel inquired further into
Juror No. 12’s responses. Juror No. 12 explained
that he had seen “[p]robably like two or three”
newspaper headlines. Asked whether he “[j]ust saw
the headlines, recognized it was about the case, and
then didn’t read anything further?” he replied,
“That’s right.” He said that there was not anything
about what he had read that caused him to come to
any opinions or conclusions or that would affect or
influence his ultimate decision in this case. He
acknowledged, however, that from these headlines,
he knew that a competency trial took place and knew
its result. Asked about his reaction to this
information, he responded, “All I knew is that I
would be coming back. That’s about all I thought
about it.” Asked to explain, he said that he had
assumed he probably would not be returning if the
competency trial had ended differently because the
competency trial “was a part of the sentencing or
whatever.” He confirmed that he had not discussed
any of this information with anybody else.
The defense moved to excuse and replace Juror No.
12. The trial court denied the motion, reasoning that
Juror No. 12 had neither violated the court’s order
by seeing the newspaper headlines nor formed any
opinions or conclusions based on them. The trial
court found, “The impression I get was that in going
through the newspaper, naturally in skimming the
headlines you can see that this is something about
the case, and at that point he stopped reading and

App. 139
did not read the content. ... I didn’t tell them not to
read the papers. I just told them not to read
anything about the case. I don’t think he violated the
Court’s order.” The trial court continued, “I didn’t get
the impression from anything that he said that he
had formed any opinions or conclusions. In fact, he
said he didn’t, and that it wouldn’t affect his decision
in this case.”
2. Discussion
“A defendant accused of a crime has a constitutional
right to a trial by unbiased, impartial jurors.”
(People v. Nesler (1997) 16 Cal.4th 561, 578, 66
Cal.Rptr.2d 454, 941 P.2d 87 (Nesler).) “Juror
misconduct, such as the receipt of information about
a party or the case that was not part of the evidence
received at trial, leads to a presumption that the
defendant was prejudiced thereby and may establish
juror bias.” (Ibid.) Even a juror’s “inadvertent receipt
of information that had not been presented in court
falls within the general category of ‘juror
misconduct.’” (Id. at p. 579, 66 Cal.Rptr.2d 454, 941
P.2d 87.)
“[W]hen misconduct involves the receipt of
information from extraneous sources, the effect of
such receipt is judged by a review of the entire
record, and may be found to be nonprejudicial. The
verdict will be set aside only if there appears a
substantial likelihood of juror bias. Such bias can
appear in two different ways. First, we will find bias
if the extraneous material, judged objectively, is
inherently and substantially likely to have
influenced the juror. [Citations.] Second, we look to

App. 140
the nature of the misconduct and the surrounding
circumstances to determine whether it is
substantially likely the juror was actually biased
against the defendant. [Citation.] The judgment
must be set aside if the court finds prejudice under
either test.” (In re Carpenter (1995) 9 Cal.4th 634,
653, 38 Cal.Rptr.2d 665, 889 P.2d 985.) “We
emphasize that before a unanimous verdict is set
aside, the likelihood of bias under either test must be
substantial.” (Id. at p. 654, 38 Cal.Rptr.2d 665, 889
P.2d 985.) “Jurors are not automatons. They are
imbued with human frailties as well as virtues. If
the system is to function at all, we must tolerate a
certain amount of imperfection short of actual bias.
To demand theoretical perfection from every juror
during the course of a trial is unrealistic.” (Id. at pp.
654–655, 38 Cal.Rptr.2d 665, 889 P.2d 985.)
In reviewing the trial court’s ruling, “[w]e accept the
trial court’s credibility determinations and findings
on questions of historical fact if supported by
substantial evidence. [Citations.] Whether prejudice
arose from juror misconduct, however, is a mixed
question of law and fact subject to an appellate
court’s independent determination.” (Nesler, supra,
16 Cal.4th at p. 582, 66 Cal.Rptr.2d 454, 941 P.2d
87.)
We need not decide whether juror misconduct
occurred here because, in any event, we find no
substantial likelihood of juror bias. (See People v.
Thomas (2012) 53 Cal.4th 771, 819, 137 Cal.Rptr.3d
533, 269 P.3d 1109.) The headlines were not so
prejudicial in and of themselves that they were
inherently and substantially likely to have

App. 141
influenced a juror during the penalty phase.
Although the precise content of the headlines is not
clear from the record, nothing suggests that they
were inflammatory or biased in their presentation of
the facts, or that they conveyed additional
information about the competency trial such as the
issues involved, the evidence presented, or the
testimony heard. The relevance of the competency
verdict, or its potential for prejudice, was further
diminished at the penalty phase since the task of
jurors at the penalty phase was qualitatively
different from that at the competency trial. Learning
only that a competency trial took place and that
defendant was found competent was therefore “not
akin to a bell that could not be unrung.” (In re
Boyette (2013) 56 Cal.4th 866, 893, 157 Cal.Rptr.3d
163, 301 P.3d 530; id. at p. 892, 157 Cal.Rptr.3d 163,
301 P.3d 530 [contrasting extraneous information in
case to “a suppressed confession or evidence of other
crimes that the trial court had excluded as too
prejudicial”]; cf. People v. Ramos (2004) 34 Cal.4th
494, 520–522, 21 Cal.Rptr.3d 575, 101 P.3d 478
[newspaper accounts of trial were not inherently
prejudicial and did not prejudice the verdict].)
Nor was it substantially likely that Juror No. 12 was
“actually biased” against defendant. Defendant does
not contend that Juror No. 12 was actually biased,
and nothing in the record suggests such bias existed.
Mindful of the trial court’s admonitions to avoid
news coverage of the case, Juror No. 12 did not read
any newspaper articles about the case but promptly
informed the trial court that he had seen a few
headlines. He made clear that he did not form any
opinions or conclusions based on the headlines, nor

App. 142
did he discuss them with anyone. His only reaction
to the information was that he “would be coming
back. That’s about all [he] thought about it.” The
trial court found his representations credible, and
substantial evidence supports this finding. (See
People v. Stanley (2006) 39 Cal.4th 913, 951, 47
Cal.Rptr.3d 420, 140 P.3d 736 [accepting credibility
determinations regarding juror’s recollection of
newspaper article]; see also In re Carpenter, supra, 9
Cal.4th at p. 657, 38 Cal.Rptr.2d 665, 889 P.2d 985
[juror not discussing information with other jurors
tends to negate inference of bias].)33
Having found no substantial likelihood of juror bias,
we reject defendant’s assertion that Juror No. 12’s
exposure to these headlines impeded his ability to
fairly weigh defendant’s mitigating evidence in
violation of his federal constitutional rights.
Defendant characterizes Caldwell v. Mississippi
(1985) 472 U.S. 320, 105 S.Ct. 2633, 86 L.Ed.2d 231
as instructive. In Caldwell, the high court vacated a
death judgment where the prosecutor had “urged the
jury not to view itself as determining whether the
defendant would die, because a death sentence
would be reviewed for correctness by the State
Supreme Court.” (Id. at p. 323, 105 S.Ct. 2633.) The
high court has “since read Caldwell as ‘relevant only
to certain types of comment[s] — those that mislead
the jury as to its role in the sentencing process in a
way that allows the jury to feel less responsible than
it should for the sentencing decision.’” (Romano v.
Oklahoma (1994) 512 U.S. 1, 9, 114 S.Ct. 2004, 129
L.Ed.2d 1; see also In re Carpenter, supra, 9 Cal.4th
at p. 649, 38 Cal.Rptr.2d 665, 889 P.2d 985
[discussing Romano as limiting Caldwell].)

App. 143
Here, there was no evidence to suggest that Juror
No. 12 was unable to consider defendant’s mitigating
evidence or felt any less responsible for making a
penalty determination after seeing these headlines
— much less that he was misled to believe himself to
be so. (See People v. Montes (2014) 58 Cal.4th 809,
896, 169 Cal.Rptr.3d 279, 320 P.3d 729 [even
assuming the juror committed misconduct by
consulting religious passages, “those passages did
not lessen the juror’s personal sense of responsibility
by shifting the decision to some other entity”].) We
thus conclude that the trial court did not err.
F. Instruction to Alternate Jurors
The trial court excused two of the seated guilt phase
jurors and replaced them with two alternate jurors
before the penalty phase began. The court then
instructed the jury that “[f]or the purposes of this
penalty phase of the trial, the alternate jurors must
accept as having been proved beyond a reasonable
doubt those guilty verdicts and true findings
rendered by the jury in the guilt phase of this
trial.”34 Defendant objected to having the two
alternate jurors try the penalty phase but did not
object to this specific instruction. He now contends
that this instruction violated his federal and state
constitutional rights to a fair penalty trial, reliable
sentencing decision, equal protection, due process,
and effective assistance of trial counsel.
Assuming defendant’s claim was not forfeited, it fails
on the merits. (See § 1259 [preserving claims of
instructional error affecting substantial rights

App. 144
despite lack of objection below].) We have made clear
that “[a]s a matter of law, the penalty phase jury
must conclusively accept [the guilt phase jury’s]
findings” as to the defendant’s guilt and the truth of
the special circumstance allegations beyond a
reasonable doubt. (People v. Harrison (2005) 35
Cal.4th 208, 256, 25 Cal.Rptr.3d 224, 106 P.3d 895
(Harrison).) We have also rejected the suggestion
“that anytime a juror is replaced at the penalty
phase, the jury should engage in guilt phase
deliberations anew.” (People v. Maciel (2013) 57
Cal.4th 482, 548, 160 Cal.Rptr.3d 305, 304 P.3d 983.)
And, most notably, in People v. Cain (1995) 10
Cal.4th 1, 40 Cal.Rptr.2d 481, 892 P.2d 1224 (Cain),
we found no constitutional defect in the trial court
instructing the jury, including a new juror who
replaced an excused juror, that it must accept the
guilt phase verdicts and findings at the penalty
phase. (Id. at pp. 64, 66, 40 Cal.Rptr.2d 481, 892
P.2d 1224.)
Nor do we find People v. Kaurish (1990) 52 Cal.3d
648, 708, 276 Cal.Rptr. 788, 802 P.2d 278 to be
inconsistent, as defendant contends. In Kaurish, the
defendant claimed that a replacement juror should
have been instructed at the penalty phase that she
“was not bound by the other jurors’ earlier
determination of guilt, but could vote against the
death penalty if she doubted defendant’s guilt.”
(Ibid.) We rejected this claim, finding that the
replacement juror was instructed about considering
lingering doubt as a mitigating factor, that
instruction “made it clear that she could vote against
the death penalty if she disagreed with the guilt
phase verdict, and no further instruction was

App. 145
necessary.” (Ibid.) This concept of lingering doubt,
however, is distinct from and consistent with the
jury’s obligation to accept the guilt phase verdicts
and special circumstance findings as proved beyond
a reasonable doubt at the penalty phase. (Harrison,
supra, 35 Cal.4th at p. 256, 25 Cal.Rptr.3d 224, 106
P.3d 895 [jurors may consider lingering doubt as
mitigating circumstance but cannot relitigate or
reconsider matters resolved at guilt phase]; Cain,
supra, 10 Cal.4th at p. 67, 40 Cal.Rptr.2d 481, 892
P.2d 1224 [same].)35
In short, we discern no error in the trial court’s
instructions here.
VI. Other Issues
A. Challenge to California’s Death Penalty
Law as Not Adequately Narrowing the
Class
of
Death-Penalty
Eligible
Defendants
Defendant urges that California’s death penalty law
violates the Eighth Amendment because it does not
sufficiently narrow the class of death-eligible
defendants, based on statistics drawn primarily from
published decisions of this court and the Court of
Appeal, as well as unpublished decisions of the
Court of Appeal, First District, between 1988 and
1992. We have repeatedly rejected similar statisticsbased arguments claiming that the multiplicity of
the statute’s special circumstances fails to
sufficiently narrow the class of death-eligible
defendants. (See, e.g., People v. Beames (2007) 40
Cal.4th 907, 934, 55 Cal.Rptr.3d 865, 153 P.3d 955;
People v. Vieira (2005) 35 Cal.4th 264, 303–304, 25

App. 146
Cal.Rptr.3d 337, 106 P.3d 990; People v. Jones (2003)
30 Cal.4th 1084, 1127–1128, 135 Cal.Rptr.2d 370, 70
P.3d 359.) Defendant offers no persuasive reason to
reconsider this issue.
B. Other Challenges to California’s Death
Penalty Law
Defendant
raises
numerous
challenges
to
California’s death penalty law that we have
repeatedly rejected and continue to reject as follows.
Section 190.3, factor (i) (the age of the defendant) is
not unconstitutionally vague. (Tuilaepa v. California
(1994) 512 U.S. 967, 977, 114 S.Ct. 2630, 129
L.Ed.2d 750; People v. Ray (1996) 13 Cal.4th 313,
358, 52 Cal.Rptr.2d 296, 914 P.2d 846.) The death
penalty statute as construed by this court does not
fail to perform the narrowing function required by
the Eighth Amendment. (Schmeck, supra, 37 Cal.4th
at p. 304, 33 Cal.Rptr.3d 397, 118 P.3d 451.) “Penal
Code sections 190.2 and 190.3 are not impermissibly
broad, and factor (a) of Penal Code section 190.3 does
not make imposition of the death penalty arbitrary
and capricious.” (People v. Sánchez (2016) 63 Cal.4th
411, 487, 204 Cal.Rptr.3d 682, 375 P.3d 812.) Other
than the penalty verdict itself, the jury need not
achieve unanimity. (Ibid.) The trial court did not
“violate defendant’s Fifth, Sixth, Eighth, or
Fourteenth Amendment rights in failing to instruct
the jury that it must find beyond a reasonable doubt
that the aggravating factors outweigh the mitigating
factors.” (Schmeck, at p. 304, 33 Cal.Rptr.3d 397, 118
P.3d 451.) The trial court’s instructions need not
delete inapplicable sentencing factors, delineate

App. 147
between aggravating and mitigating circumstances,
or specify a burden of proof either as to aggravation
(except for section 190.3, factor (b) or (c) evidence) or
the penalty decision. (Schmeck, at p. 305, 33
Cal.Rptr.3d 397, 118 P.3d 451.) “Nor are potentially
mitigating factors unconstitutionally limited by the
adjectives ‘extreme’ and ‘substantial’ ....” (Ibid.) The
sentencing factors are not vague and ill-defined.
(Ibid.) “California’s use of the death penalty does not
violate international law.” (Sánchez, at p. 488, 204
Cal.Rptr.3d 682, 375 P.3d 812.) Allowing the jury
that adjudicated the defendant’s guilt to weigh and
consider his uncharged crimes in determining the
penalty is constitutional. (People v. Hawthorne
(1992) 4 Cal.4th 43, 77, 14 Cal.Rptr.2d 133, 841 P.2d
118.)
C. Cumulative Prejudice
Defendant contends the combined errors require
reversal of his convictions and death sentence even if
the errors are not prejudicial when considered
individually. We have assumed errors but found no
prejudice. Considering these assumed errors
altogether, we conclude that reversal is not
warranted.
VII. Disposition
We affirm the judgment.
We Concur:
CANTIL-SAKAUYE, C. J.
CHIN, J.

App. 148
CORRIGAN, J.
CUÉLLAR, J.
KRUGER, J.
Dissenting Opinion by Justice LIU
Defendant Johnny Duane Miles, a black man, was
sentenced to death for raping and murdering Nancy
Willem, a white woman. During jury selection, the
prosecutor removed the first three black jurors
available for peremptory challenge. Miles objected to
the strikes as racially motivated under Batson v.
Kentucky (1986) 476 U.S. 79, 106 S.Ct. 1712, 90
L.Ed.2d 69 (Batson) and People v. Wheeler (1978) 22
Cal.3d 258, 148 Cal.Rptr. 890, 583 P.2d 748. The
prosecutor gave reasons for each strike, and the trial
court rejected Miles’s Batson claim.
At the time of the ruling, the prosecutor had used
three of his first six peremptory strikes to remove
every black juror in the jury box who had not been
excused for cause. At the end of jury selection, no
black juror was seated on the main panel. Among
the six alternate jurors, only one was black. As a
result, the black defendant in this case, charged with
raping and murdering a white woman, was tried and
convicted by a jury that included no black member.
On appeal, Miles challenges the prosecutor’s strikes
of two black prospective jurors, Kevin C. and Simeon
G. I agree that Miles has not shown purposeful
discrimination with respect to the strike of Kevin C.
in light of his ambivalent responses regarding the

App. 149
death penalty and the two other reasons given for
his excusal. (Maj. opn., ante, 263 Cal.Rptr.3d at pp.
175–184, 464 P.3d at pp. 637–644.) But the record
shows that each of the prosecutor’s stated reasons
for striking Simeon G. was implausible or
unsupported by the facts. I would thus conclude “it
was more likely than not that the challenge was
improperly motivated.” (Johnson v. California (2005)
545 U.S. 162, 170, 125 S.Ct. 2410, 162 L.Ed.2d 129
(Johnson).) Because the “[e]xclusion of even one
prospective juror for reasons impermissible under
Batson and Wheeler constitutes structural error,” the
judgment must be reversed. (People v. Gutierrez
(2017) 2 Cal.5th 1150, 1158, 218 Cal.Rptr.3d 289,
395 P.3d 186 (Gutierrez).)
I.
Today’s opinion accords deference to the trial court’s
ruling on the Batson motion, but it is unclear what
this court is deferring to. “A trial court’s conclusions
are entitled to deference only when the court made a
‘sincere and reasoned effort to evaluate the
nondiscriminatory justifications offered.’” (Gutierrez,
supra, 2 Cal.5th at p. 1159, 218 Cal.Rptr.3d 289, 395
P.3d 186.) A “reasoned” attempt requires the trial
court to “reject [the prosecutor’s] reason or ask the
prosecutor to explain further” when the reason is
“not borne out by the record.” (Id. at p. 1172, 218
Cal.Rptr.3d 289, 395 P.3d 186.) Where “the
prosecutor’s reason[s] for [the contested] strike[s are]
not self-evident and the record is void of any
explication from the court, we cannot find ... that the
court made a reasoned attempt to determine
whether the justification was a credible one.” (Ibid.)

App. 150
Here, the trial court expressly acknowledged that
the prosecutor’s proffered reasons for striking Kevin
C. and Simeon G. were not self-evident. During
discussion of the Batson motion, the trial judge told
the prosecutor: “I don’t understand [the strikes] as to
[Kevin C.] and as to [Simeon G.]. You’ll [have to]
explain those.” After hearing the prosecutor’s
reasons, the court concluded: “As I indicated, as to
[another struck juror], I understand [the
prosecutor’s] concern there. As to [Kevin C.] and
[Simeon G.], I think it’s certainly not as obvious, but
I cannot say it is not legitimate.” That was the
extent of the trial court’s explanation for upholding
the strikes.
At one point, the court did ask the prosecutor to
clarify his explanation for striking Simeon G. (Maj.
opn., ante, 263 Cal.Rptr.3d at p. 170, 464 P.3d at p.
633 [“‘His answer being that if he had a feeling the
defendant was not guilty, that was the answer that
bothered you?’”].) But the court did not probe any of
the prosecutor’s stated reasons for the strikes, even
though they were difficult to reconcile with the
record, as discussed below. Nor did the court explain
why it credited the prosecutor’s justifications. It
merely made a global finding that the stated reasons
were “valid” and “legitimate.” (See maj. opn., ante, at
p. 263 Cal.Rptr.3d at p. 172, 464 P.3d at p. 635 [“the
trial court could have done more to make a fuller
record and itself acknowledged it was making a
somewhat close call”].)
Our requirement of a “‘sincere and reasoned effort to
evaluate
the
nondiscriminatory
justifications

App. 151
offered’” (Gutierrez, supra, 2 Cal.5th at p. 1159, 218
Cal.Rptr.3d 289, 395 P.3d 186) demands more than
what is apparent from the record here. I do not
doubt that the trial court was sincere and listened to
the parties’ arguments. But because the record does
not indicate whether it engaged in a reasoned
evaluation of the prosecutor’s explanations for the
strikes, I see no basis for deference to the trial
court’s ruling.
II.
In addressing Miles’s Batson claim, our task is to
determine whether “it was more likely than not” that
the prosecutor’s strikes were racially motivated.
(Johnson, supra, 545 U.S. at p. 170, 125 S.Ct. 2410.)
It is important to keep in mind the applicable
standard of proof. The “more likely than not”
standard does not require a fact to be established
beyond a reasonable doubt, nor does it call for “a
finding of high probability” as required by the clear
and convincing evidence standard. (In re Angelia P.
(1981) 28 Cal.3d 908, 919, 171 Cal.Rptr. 637, 623
P.2d 198.) It “‘simply requires the trier of fact “to
believe that the existence of a fact is more probable
than its nonexistence.”’” (Id. at p. 918, 171 Cal.Rptr.
637, 623 P.2d 198.)
“The function of a standard of proof is to instruct the
fact finder concerning the degree of confidence our
society deems necessary in the correctness of factual
conclusions for a particular type of adjudication, to
allocate the risk of error between the litigants, and
to indicate the relative importance attached to the
ultimate decision.” (Conservatorship of Wendland

App. 152
(2001) 26 Cal.4th 519, 546, 110 Cal.Rptr.2d 412, 28
P.3d 151.) In the Batson context, the “more likely
than not” standard reflects the “inherent uncertainty
present in inquiries of discriminatory purpose.”
(Johnson, supra, 545 U.S. at p. 172, 125 S.Ct. 2410.)
The standard “is not designed to elicit a definitive
finding of deceit or racism. Instead, it defines a level
of risk that courts cannot tolerate in light of the
serious harms that racial discrimination in jury
selection causes to the defendant, to the excluded
juror, and to ‘public confidence in the fairness of our
system of justice.’” (Gutierrez, supra, 2 Cal.5th at pp.
1182–1183, 218 Cal.Rptr.3d 289, 395 P.3d 186 (conc.
opn. of Liu, J.), quoting Batson, supra, 476 U.S. at p.
87, 106 S.Ct. 1712.) Miles has met this standard
with respect to the strike of Simeon G.
At the time of jury selection, Simeon G. was a 24year-old forklift driver. He had studied business for
three years in college and had plans to continue his
education in the future. Simeon G. had
characteristics that might be considered favorable to
the prosecution. On the questionnaire, he wrote that
his father was a Drug Enforcement Administration
agent and that he had considered becoming a police
officer. He indicated that he “favor[ed] the death
penalty” and would have been willing to personally
impose it. He believed the purpose of the death
penalty was “to match the seriousness of a crime
with a life for a life” and thought it “should be an
option” for serious crimes. He considered the death
penalty law in California to be fair and wrote that he
would vote to keep the death penalty because “it may
be an appropriate punishment” in some cases. He
also indicated that he had no moral, philosophical, or

App. 153
religious objections to the death penalty.
The prosecutor gave several reasons for striking
Simeon G. The first was that Simeon G. “made
statements on his questionnaire how he likes his
opinions over others.”
When asked on the questionnaire whether he would
describe himself as a leader or a follower, Simeon G.
wrote that he thought of himself as a “leader”
because “I like my opinion over other people’s.” In
People v. Gutierrez (2002) 28 Cal.4th 1083, 124
Cal.Rptr.2d 373, 52 P.3d 572, we said that a juror’s
comment that “he would not be influenced by
anyone’s opinion but his own” gave rise to a
reasonable concern that the juror “would not be able
to consider the opinions of his fellow jurors.” (Id. at
p. 1125, 124 Cal.Rptr.2d 373, 52 P.3d 572.) But
Simeon G. said that he liked his opinion over other
people’s, not that he would not consider other
people’s views. His statement is actually somewhat
of a tautology: Everyone likes his or her opinion over
other people’s; to have an “opinion” is to prefer that
view to other views. Just because a person favors one
view does not mean he or she “might have difficulty
considering other opinions and deliberating with
fellow jurors.” (Maj. opn., ante, 263 Cal.Rptr.3d at p.
183, 464 P.3d at p. 644.) Indeed, Simeon G.’s other
responses on the questionnaire indicate that he was
interested in working with other jurors to reach a
verdict. When asked how he felt about working with
11 other jurors to make a decision, he wrote: “I
believe it would be very interesting.” When asked
whether he believed the jury system was a fair way
to determine a defendant’s guilt, he checked “yes”

App. 154
and explained: “12 people have to come together to
accuse someone. That[’s] 12 different opinions.
Pretty impressive.”
The prosecutor did not ask Simeon G. about these
responses, nor did the prosecutor question him or
any other jurors about their ability to work with
others. As the high court has observed, “‘[t]he State’s
failure to engage in any meaningful voir dire
examination on a subject the State alleges it is
concerned about is evidence suggesting that the
explanation is a sham and a pretext for
discrimination.’” (Miller-El v. Dretke (2005) 545 U.S.
231, 246, 125 S.Ct. 2317, 162 L.Ed.2d 196 (MillerEl).) Today’s opinion speculates that the prosecutor
might have refrained from questioning Simeon G.
about this topic because “asking Simeon G. during
voir dire — in front of the other prospective jurors —
to elaborate on his questionnaire response would
have forced him to explain why he believes that his
opinion is preferable to the opinions of other people,
such as those seated around him.” (Maj. opn., ante,
263 Cal.Rptr.3d at p. 184, 464 P.3d at p. 645.) But I
see no reason why such inquiry would have been
unproductive or more awkward than questioning on
the death penalty, race relations, or other sensitive
yet routine topics that call on jurors to explain their
views and, at least implicitly, disapprove or cast
doubt on the views of fellow jurors.
The prosecutor’s explanation is even more suspicious
in light of the fact that he accepted Juror No. 1, who
also described herself as a “leader” and wrote, “I like
to make my own decisions.” Today’s opinion
attempts to distinguish “decisions” from “opinions”

App. 155
in parsing the responses of Juror No. 1 and Simeon
G. (Maj. opn., ante, 263 Cal.Rptr.3d at pp. 184–185,
464 P.3d at pp. 645–646.) But the key point is that
Juror No. 1’s response gave no more indication than
Simeon G.’s response that she would consider other
people’s views in making a decision. Both “opinions”
and “decisions” can be and often are informed by
other people’s points of view, and a juror who “likes
my opinion over other people’s” seems just as likely
to consider other people’s views as a juror who
“like[s] to make my own decisions.” It is true that
Simeon G., unlike Juror No. 1, indicated that he had
not previously served on a jury or worked with a
group to make a decision. But that was not the
prosecutor’s stated reason, and in any event, Simeon
G.’s other questionnaire responses suggested he was
interested in and willing to do both.
The prosecutor’s second reason for striking Simeon
G. was that “he made a statement on his
questionnaire basically saying if I have a feeling he
didn’t do it, he’s not guilty. And he had crossed out
the word doubt, which led me to believe that he
certainly wasn’t going to base it on evidence.”
When asked on the questionnaire whether he could
follow the reasonable doubt instruction, Simeon G.
checked “yes” and wrote: “If I have any doubt feeling
that [the defendant] might not have done it, he[’s]
innocent.” During the Batson hearing, the prosecutor
noted that Simeon G. originally wrote “doubt” on his
questionnaire response, then crossed it out and
replaced it with “feeling.” According to the
prosecutor, this suggested that Simeon G. would
have relied “on a hunch, or a feeling” instead of

App. 156
evidence
to
decide
Miles’s
guilt.
While
acknowledging that Simeon G. “explained [his
questionnaire response] differently in court,” the
prosecutor said he was “not sure that [Simeon G.’s]
responses in court should prevail over the answers
he gave on his questionnaire.” The prosecutor said
he was especially concerned about those responses in
light of the fact that Simeon G. “didn’t show up for
court” that morning and appeared in the afternoon
after being “single-handedly hunted down” by the
trial judge.
Considering the record as a whole, I do not find the
prosecutor’s stated concern very plausible. Simeon
G. first wrote on the questionnaire: “If I have any
doubt that [the defendant] might not have done it,
he[’s] innocent.” On a moment’s reflection, it is clear
that the double negative makes no sense: If a juror
had doubt that the defendant might not have
committed the crime, then the juror’s inclination
would be to find guilt, not innocence. It is
unsurprising that Simeon G., most likely recognizing
the error, crossed out “doubt” and replaced it with a
different word, “feeling”: “If I have any feeling that
[the defendant] might not have done it, he[’s]
innocent.” To draw an inference that Simeon G.
intended this to convey that he would rely on his
feelings as opposed to evidence to decide the
defendant’s guilt seems like a stretch.
But even assuming Simeon G.’s response was
ambiguous, the prosecutor probed this issue during
voir dire, and Simeon G.’s answers clarified any
ambiguity. The prosecutor said: “In your
questionnaire, you used the phrase that if you have a

App. 157
feeling that the defendant was [not] involved, that
you’d find him not guilty. ... You’d written ‘doubt’
and crossed out and written the word ‘feeling.’ ... I’m
trying to understand what you meant by that.”
Simeon G. responded: “Well, I think what I was
trying to say, if I’m correct, is that if the evidence
showed that there wasn’t — that there was some
reasonable doubt, then I probably would not accuse
him, because of the fact that, myself being in the
same situation or anybody, I think that if the
evidence didn’t totally prove that I did it, then there
is some doubt. ... So it wasn’t so much a feeling as it
was if the evidence didn’t show.” The prosecutor
asked: “Okay. So you would base it on evidence?”
Simeon G. responded: “Basically, yes. I’m sorry.” The
prosecutor had no further questions on this topic.
Today’s opinion says that when faced with
inconsistent responses, the prosecutor is not
obligated to accept the least objectionable one. (Maj.
opn., ante, 263 Cal.Rptr.3d at pp. 186–187, 464 P.3d
at pp. 646–647.) That is true, but it is not the
situation here. At voir dire, the prosecutor expressly
said that his questioning of Simeon G. was intended
to clarify the “doubt feeling” issue, and Simeon G. —
in response to an open-ended, non-leading question
posed by the prosecutor (“I’m trying to understand
what you meant by that”) — clarified that he would
make decisions based on “the evidence,” not a
“feeling.” His voir dire answers, given under oath,
left no ambiguity about the issue. The court makes
much of Simeon G.’s comments that he did not “quite
remember” his questionnaire response and could not
tell the prosecutor “what [he] actually meant totally”
by it. (Maj. opn., ante, at p. 263 Cal.Rptr.3d at p.

App. 158
187, 464 P.3d at p. 647.) But what those statements
show is that he was attempting to be a scrupulous
juror. When asked to explain the “doubt feeling”
issue, Simeon G. was careful to qualify that he did
not recall his exact response on the questionnaire
because he did not have a copy to review during voir
dire. These comments in no way undermined Simeon
G.’s clear and consistent assertions that he would
rely on evidence rather than his feelings to reach a
verdict.
Moreover, the rest of Simeon G.’s questionnaire
indicated that he would have carefully considered
the evidence presented in the case. When asked
whether he could be a fair and impartial juror, he
wrote: “I’m open to objectively listening to evidence
from both sides to decide a fair verdict.” When asked
if he could follow the instruction that jurors should
not draw any conclusions from the fact that a
defendant does not testify, he checked “yes” and
explained that he would “[j]ust deal with the facts
and other testimonies.” When asked whether he
believed the testimony of law enforcement officers
would be more truthful or accurate than civilian
testimony, he checked “no” and wrote that
“[n]obody’s testimony should be more or less due to
the fact that they are all under oath.” When asked
whether he would automatically accept the opinion
of a psychiatrist or psychologist, he checked “no” and
explained that “[w]hat they say would have to make
sense.” All of these responses, like Simeon G.’s
answers during voir dire, show that he would have
been a conscientious juror who makes decisions on
the basis of facts and evidence, not hunches or
feelings. The prosecutor’s fixation on one

App. 159
questionnaire answer, to the exclusion of all of
Simeon G.’s other relevant and consistent answers,
is suspicious.
Today’s opinion says the prosecutor was not required
to accept Simeon G.’s sworn voir dire responses at
face value. At the Batson hearing, the prosecutor
said “this is an individual who the Court personally
tracked down this morning. ... I would be concerned
about his responses in light of the fact that he was
single-handedly hunted down to be here this
afternoon.” In evaluating this statement, today’s
opinion explains that “[t]he trial court was ‘“best
situated”’ to assess Simeon G.’s responses in court
and the prosecutor’s stated concern in light of those
responses.” (Maj. opn., ante, 263 Cal.Rptr.3d at p.
187, 464 P.3d at p. 647.)
But what exactly is the court deferring to? The trial
court made no specific findings regarding Simeon
G.’s responses or demeanor when it denied the
Batson motion. Nor did it ask the prosecutor to
explain why Simeon G.’s tardiness to court would
cast doubt on the credibility of his voir dire answers.
The court only asked the prosecutor, “His answer
being that if he had a feeling the defendant was not
guilty, that was the answer that bothered you?” I
have no doubt that the trial court “listen[ed] to the
prosecutor’s explanation and defense counsel’s
comments” before “accept[ing] the prosecutor’s
stated reasons for striking Simeon G.” (Maj. opn.,
ante, 263 Cal.Rptr.3d at p. 187, 464 P.3d at p. 647.)
But because its ruling is not accompanied by any
reasons or analysis, there is nothing to defer to.

App. 160
As to Simeon G.’s tardiness, a bit of context is
important. The record shows there had been a
miscommunication in the jury room, which may have
caused several jurors not to appear in court that
morning. After the court called Simeon G.’s
workplace, he immediately called back and
explained that he was confused and thought he was
supposed to come the next day. Simeon G. then
appeared in the afternoon for voir dire. The
prosecutor was aware of this mix-up at the time of
the Batson hearing, and there was no suggestion
that the incident resulted from willful conduct by
Simeon G. Nor was there anything in his
background or questionnaire that suggested
untrustworthiness. To be sure, “having a judge call
your workplace to locate you and have you come to
court is unusual.” (Maj. opn., ante, 263 Cal.Rptr.3d
at p. 187, fn. 14, 464 P.3d at p. 647, fn. 14.) And it
would be natural to infer that Simeon G. perhaps
felt embarrassed when he appeared in court. But it
is not clear why the incident would have cast doubt
on the veracity of Simeon G.’s statement at voir dire
that he would reach a verdict based on “the
evidence” and not a “feeling,” especially in light of
the consistent responses on his juror questionnaire.
The prosecutor’s third reason for striking Simeon G.
was that “he was not upset by the O.J. Simpson
verdict.” Simeon G. indicated on the questionnaire
that he was not upset by the O.J. Simpson verdict
but did not explain why. He also wrote that he
“really [didn’t] know anything about” DNA evidence.
At the Batson hearing, the prosecutor said: “If you’ll
notice across the board, I’ve excused jurors I believe
of Hispanic origin and Caucasian origin, and the

App. 161
common denominator, essentially, is that they were
not, were not upset by the O.J. Simpson verdict,
which was a DNA, circumstantial case. And I think
those, those raise significant concerns in my mind as
a guilt phase juror and the type of case that I’m
dealing with.”
In evaluating this reason, it must be said at the
outset that exercising peremptory strikes based on
jurors’ attitudes toward the O.J. Simpson case — in
the capital trial of a black man accused of murdering
a white woman, occurring just three years after the
Simpson verdict — seems like playing with fire. At
the time of Miles’s trial, it would have been hard to
think of any recent case in the American justice
system more sensational and racially polarizing than
the Simpson trial. (See O.J.: Made in America
(ESPN Films 2016); Toobin, The Run of His Life:
The People v. O.J. Simpson (1996).) Amicus curiae
NAACP Legal Defense & Educational Fund, Inc.
(LDF) cites a poll taken in 1995, when the Simpson
case was decided, finding that 22% of black
Americans and 76% of white Americans believed
Simpson was guilty of murder. (See De Pinto et al.,
Poll: Only 27 Percent of Americans Think O.J.
Simpson Will Regain Celebrity Status (Sept. 29,
2017) CBS News.) The Attorney General argues that
the racial disparity was not so significant by the
time of Miles’s trial and cites a different poll finding
that 45% of black Americans in 2007 and 57% in
2015 believed Simpson was guilty. (See Ross, Two
decades later, black and white Americans finally
agree on O.J. Simpson’s guilt, Wash. Post (Mar. 4,
2016).) But the figures cited by LDF are more
relevant because jury selection in this case occurred

App. 162
in 1998. Those figures are actually corroborated by
the poll cited by the Attorney General, which shows
that 31% of black Americans and 82% of white
Americans in 1997 thought Simpson was guilty. (See
ibid.)
Thus, at the time of Miles’s trial, a practice of
striking jurors who said they were not upset by the
Simpson
verdict
would
have
resulted
in
disproportionate removal of black jurors. Although
such disparate impact “does not turn the
prosecutor’s actions into a per se violation of the
Equal Protection Clause” (Hernandez v. New York
(1991) 500 U.S. 352, 361, 111 S.Ct. 1859, 114
L.Ed.2d 395), it can be considered “evidence that the
prosecutor’s stated reason constitutes a pretext for
racial discrimination” (id. at p. 363, 111 S.Ct. 1859).
There is nothing wrong with probing prospective
jurors’ views about DNA or circumstantial evidence
in a murder trial. But surely there are less racially
charged ways of doing so.
Also relevant is the fact that the prosecutor did not
question Simeon G. or any other prospective juror
about the Simpson verdict during voir dire. (Cf. maj.
opn., ante, 263 Cal.Rptr.3d at p. 188, 464 P.3d at p.
648 [“the credibility of the prosecutor’s concern here
is undermined to some degree by the prosecutor’s
failure to ask Simeon G. or other prospective jurors
about the O.J. Simpson verdict during voir dire”].)
The prosecutor’s lack of questioning is especially
suspicious as to Simeon G. When asked on the
questionnaire whether he was upset by the Simpson
verdict, Simeon G. simply checked “no” without
explanation. At the Batson hearing, the prosecutor

App. 163
said his main concern with this response was that it
indicated Simeon G. might be skeptical about DNA
evidence. But the prosecutor never asked Simeon G.
whether his response to the O.J. Simpson question
was related to his views on DNA evidence. Nor did
he ask Simeon G. or any other prospective juror
about DNA evidence.
Comparative juror analysis also supports an
inference of pretext. (Cf. maj. opn., ante, 263
Cal.Rptr.3d at p. 190, 464 P.3d at p. 649 [“We find
that the credibility of the prosecutor’s concern
regarding Simeon G.’s opinion on the O.J. Simpson
verdict is undermined to some degree by defendant’s
comparative juror analysis.”].) Like Simeon G., eight
seated and alternate jurors indicated that they were
not upset about the O.J. Simpson verdict. Some of
those jurors provided explanations that might have
been more acceptable to the prosecutor. But
Alternate Juror No. 5, like Simeon G., did not
explain why he was not upset about the verdict.
Juror No. 4, Juror No. 7, and Alternate Juror No. 4
wrote that they were not upset because they did not
know enough about the details of the case, which
seems just as neutral as Simeon G.’s response. Juror
No. 6 wrote that the “evidence [was] not clear” in the
O.J. Simpson case, which if anything seems less
favorable to the prosecution than Simeon G.’s
response. In sum, the plausibility of the prosecutor’s
explanation “is severely undercut by [his] failure to
object to other [jurors] who expressed views much
like [Simeon G.’s]. ... The fact that [the prosecutor’s]
reason also applied to these other [jurors], most of
them white, none of them struck, is evidence of
pretext.” (Miller-El, supra, 545 U.S. at p. 248, 125

App. 164
S.Ct. 2317.)
Today’s opinion finds these comparisons “relevant
and probative” but ultimately downplays their
importance by pointing out differences between the
comparator jurors and Simeon G. (Maj. opn., ante,
263 Cal.Rptr.3d at pp. 190–191, 464 P.3d at p. 649–
650.) The court notes that Juror No. 6 and Alternate
Juror No. 5, while similar to Simeon G. on the O.J.
Simpson question, did not indicate that they might
have difficulty considering other people’s opinions or
that they might rely on their feelings to reach a
verdict. (Maj. opn., ante, at pp. –––– – ––––, ––– P.3d
at pp. –––– – ––––.)
This line of reasoning — undercutting the probative
value of juror comparisons by identifying other traits
on which the jurors differed — is a frequent
maneuver in our Batson jurisprudence. (See, e.g.,
maj. opn., ante, 263 Cal.Rptr.3d at pp. 185–186, 464
P.3d at pp. 645–646; People v. Hardy (2018) 5
Cal.5th 56, 83, 233 Cal.Rptr.3d 378, 418 P.3d 309
(Hardy); People v. Winbush (2017) 2 Cal.5th 402,
443–446, 213 Cal.Rptr.3d 1, 387 P.3d 1187; People v.
Chism (2014) 58 Cal.4th 1266, 1318–1322, 171
Cal.Rptr.3d 347, 324 P.3d 183.) To be sure, the issue
of how similar two jurors must be to yield a
probative comparison is not reducible to a simple
formula. But this court’s approach of changing the
relevant point of comparison for each of the
prosecutor’s stated reasons cannot be the right one.
The court’s reasoning suggests that significant
weight cannot be assigned to comparative juror
analysis unless an accepted juror matches the struck
juror with respect to all of the prosecutor’s stated

App. 165
concerns. Indeed, despite statements to the contrary,
that seems to be what the court actually holds in this
case. (Maj. opn., ante, at pp. 263 Cal.Rptr.3d at pp.
185–186, 190–191, 464 P.3d at pp. 645–646, 649–
650.)
But the high court has expressly rejected this view.
(See Miller-El, supra, 545 U.S. at p. 247, fn. 6, 125
S.Ct. 2317 [“None of our cases announces a rule that
no comparison is probative unless the situation of
the individuals compared is identical in all respects,
and there is no reason to accept one. ... A per se rule
that a defendant cannot win a Batson claim unless
there is an exactly identical white juror would leave
Batson inoperable; potential jurors are not products
of a set of cookie cutters.”].) In several cases
addressing Batson claims, “[t]he high court has
repeatedly drawn inferences of discrimination from
comparative juror analysis without regard to
whether the comparator jurors matched the struck
juror in every respect identified by the prosecutor.”
(Hardy, supra, 5 Cal.5th at p. 119, 233 Cal.Rptr.3d
378, 418 P.3d 309 (dis. opn. of Liu, J.) [citing cases].)
In Miller-El, for example, the prosecution gave three
reasons for striking a prospective black juror: he was
ambivalent about the death penalty, his brother-inlaw had a prior conviction, and the prosecution still
had 10 peremptory challenges left and could be
liberal in using them. (Miller-El, supra, 545 U.S. at
pp. 247–250, 125 S.Ct. 2317.) The high court first
compared the death penalty views of the struck juror
to those of three accepted jurors. (Id. at p. 248, 125
S.Ct. 2317.) It found the similarities among the
jurors’ views to be probative (ibid.), even though the

App. 166
dissenting justices noted that the accepted jurors
were not similarly situated to the struck juror with
respect to the other reasons given by the prosecutor
(id. at p. 290, 125 S.Ct. 2317 (dis. opn. of Thomas,
J.)). The high court then conducted comparative
juror analysis with respect to the other two stated
reasons, again considering each reason separately.
(Id. at pp. 249–250, 125 S.Ct. 2317.) In subsequent
Batson decisions, the high court has consistently
followed this approach to comparative juror analysis.
(See Flowers v. Mississippi (2019) 588 U.S. ––––, –––
– [139 S.Ct. 2228, 2248–2249, 204 L.Ed.2d 638];
Foster v. Chatman (2016) 578 U.S. ––––, –––– [136
S.Ct. 1737, 1750–1754, 195 L.Ed.2d 1]; Snyder v.
Louisiana (2008) 552 U.S. 472, 483–484, 128 S.Ct.
1203, 170 L.Ed.2d 175.) All of these decisions found
single-issue comparisons among jurors to be highly
probative of discrimination; none used the pivoting
frames of comparisons that this court employs to
mitigate inferences of pretext.
Today’s opinion says “[t]he fact that the high court
found single-issue comparisons to be highly
probative of discrimination within the circumstances
of a particular case is not inconsistent with our
analysis here, which ... recognizes that such
comparisons are relevant but ultimately concludes,
within all of the relevant circumstances, that
substantial evidence supports the trial court’s denial
of defendant’s Batson/Wheeler motion.” (Maj. opn.,
ante, 263 Cal.Rptr.3d at p. 175, fn. 9, 464 P.3d at p.
637, fn. 9.) But that assertion begs the crucial
question: What is it about “the circumstances” of
Flowers, Foster, Snyder, and Miller-El that makes
single-issue comparisons highly probative in all of

App. 167
those cases, but not in the case before us? The court
does not say — and thus leaves unexplained how its
approach can be reconciled with high court
precedent. (See Hardy, supra, 5 Cal.5th at p. 119,
233 Cal.Rptr.3d 378 (dis. opn. of Liu, J.).)
III.
With today’s decision, this court extends its record of
not having found Batson error involving the
peremptory strike of a black juror in more than 30
years — despite the fact that “[t]he high court’s
opinion [in Batson] responded specifically to the
pernicious history of African Americans being
excluded from jury service, calling such exclusion ‘a
primary example of the evil the Fourteenth
Amendment was designed to cure.’” (Hardy, supra, 5
Cal.5th at p. 124, 233 Cal.Rptr.3d 378, 418 P.3d 309
(dis. opn. of Liu, J.), quoting Batson, supra, 476 U.S.
at p. 85, 106 S.Ct. 1712; see People v. Johnson (2019)
8 Cal.5th 475, 534–536, 255 Cal.Rptr.3d 393, 453
P.3d 38 (dis. opn. of Liu, J.).)
Like this case, several of our recent cases had
“definite racial overtones” that “‘raise[ ] heightened
concerns about whether the prosecutor’s challenge
was racially motivated.’” (Hardy, supra, 5 Cal.5th at
p. 78, 233 Cal.Rptr.3d 378, 418 P.3d 309 [black man
convicted of raping and murdering a white woman];
see People v. Armstrong (2019) 6 Cal.5th 735, 765,
243 Cal.Rptr.3d 105, 433 P.3d 987 [same]; People v.
Harris (2013) 57 Cal.4th 804, 863, 161 Cal.Rptr.3d
364, 306 P.3d 1195 (conc. opn. of Liu, J.) [same];
People v. Johnson, supra, 8 Cal.5th at p. 507, 255
Cal.Rptr.3d 393, 453 P.3d 38 [black man convicted of

App. 168
murdering a white man and raping a white woman].)
Like this case, some of our recent cases involved
peremptory strikes that resulted in no black jurors
serving on the main panel. (See Hardy, at p. 78, 233
Cal.Rptr.3d 378, 418 P.3d 309; People v. Rhoades
(2019) 8 Cal.5th 393, 456, 255 Cal.Rptr.3d 453, 453
P.3d 89 (dis. opn. of Liu, J.); see also People v. Bryant
(2019) 40 Cal.App.5th 525, 535, 253 Cal.Rptr.3d
289.) And like this case, our recent cases have
upheld quite tenuous or implausible explanations for
the removal of black jurors. It is past time to ask
whether the Batson framework, as applied by this
court, must be rethought in order to fulfill the
constitutional mandate of eliminating racial
discrimination in jury selection. (See Bryant, at p.
544, 253 Cal.Rptr.3d 289 (conc. opn. of Humes, J.)
[highlighting “the serious shortcomings with the
Batson framework” as interpreted by this court and
“calling for meaningful reform”].)
Here, the prosecutor’s reasons for striking Simeon G.
do not withstand scrutiny. Although I cannot be
certain that the prosecutor struck Simeon G. because
of his race, certainty is not the standard.
Considering all relevant circumstances, I believe it
was more likely than not that the strike was
improperly motivated. Because the trial court erred
in denying Miles’s Batson claim, his convictions
must be reversed.
All Citations
9 Cal.5th 513, 464 P.3d 611, 263 Cal.Rptr.3d 144, 20
Cal. Daily Op. Serv. 4898, 2020 Daily Journal D.A.R.
4988

App. 169
Footnotes
1

All further statutory references are to the Penal
Code unless otherwise indicated.

2

Christine C. did not identify defendant in her
testimony.

3

Osburn did not identify defendant in his
testimony, but he described the perpetrator as a
Black man who was at least six feet, one inch
tall and in his twenties.

4

She did not identify defendant in her testimony,
but she described the perpetrator as a Black
man over six feet tall and in his twenties.

5

For clarity, we will refer to Arnold and Sharyn
Andersen by their first names.

6

On cross-examination, defendant testified that
the voices told him to rape Christine C. and
Carole D. as well. He said that the voices “were
there continuously through the robberies,” and
when asked by the prosecutor about specific
robberies, defendant recalled raping Bridget E.,
robbing Yenerall, and robbing the Andersens,
although he denied robbing Heynen (and was
not asked specifically about robbing Kendrick
or the Crawfords).

7

It appears that the prosecutor initially
misspoke and meant to say “if you had any
feeling that maybe the defendant was [not]

App. 170
involved, then he’d be not guilty.” The
prosecutor subsequently clarified his question.
8

Disagreeing, the dissent argues that the
prosecutor’s reasons were not self-evident and,
in turn, that the trial court was required to do
more than what it did here. The dissent relies
on Gutierrez, supra, 2 Cal.5th 1150, 218
Cal.Rptr.3d 289, 395 P.3d 186. (Dis. opn., post,
at 263 Cal.Rptr.3d at pp. 226–227, 464 P.3d at
pp. 680–681.) In Gutierrez, we found that it was
not self-evident why a prospective juror’s mere
unawareness of gang activity in a specific city
would indicate a bias against a witness who
was a gang member in the city. (Gutierrez, at p.
1169, 218 Cal.Rptr.3d 289, 395 P.3d 186.)
The dissent asserts that the trial court here
“expressly acknowledged that the prosecutor’s
proffered reasons for striking Kevin C. and
Simeon G. were not self-evident.” (Dis. opn.,
post, 263 Cal.Rptr.3d at p. 227, 464 P.3d at p.
680.) We disagree. The fact that the trial court
did not “understand” the strikes as to Kevin C.
and Simeon G. — before the prosecutor provided
his reasons for them — and asked the
prosecutor to explain those strikes does not
mean that the prosecutor’s reasons, once
provided, were not self-evident. Nor do we
require that the prosecutor’s reasons be
“obvious.” Rather, the prosecutor’s reasons,
once provided, “were either self-explanatory or
were explained at the hearing.” (People v.
Smith (2018) 4 Cal.5th 1134, 1162, 233
Cal.Rptr.3d 1, 417 P.3d 662 (Smith).) For this

App. 171
reason, Gutierrez’s reasoning is “inapplicable
here.” (Ibid.)
9

The dissent emphasizes that recent decisions by
the high court found “single-issue comparisons
among jurors to be highly probative of
discrimination.”
(Dis.
opn.,
post,
263
Cal.Rptr.3d at p. 234, 464 P.3d at p. 686.) As
stated, we agree that a single-issue comparison
among jurors is a form of circumstantial
evidence that is relevant. However, such
comparisons are not necessarily dispositive on
the issue of purposeful discrimination but
rather, must be considered within all of the
relevant circumstances. (See Flowers v.
Mississippi (2019) 588 U.S. ––––, –––– [139
S.Ct. 2228, 2250], 204 L.Ed.2d 638 [“[i]n a
different context, the [challenged juror’s] strike
might be deemed permissible,” but “we must
examine the whole picture” and the
comparisons between the challenged and
nonchallenged jurors “cannot be considered in
isolation”].) The fact that the high court found
single-issue comparisons to be highly probative
of discrimination within the circumstances of a
particular case is not inconsistent with our
analysis here, which, as discussed below,
recognizes that such comparisons are relevant
but ultimately concludes, within all of the
relevant circumstances, that substantial
evidence supports the trial court’s denial of
defendant’s Batson/Wheeler motion.

10

This may have been in part due to the
circumstances leading up to voir dire. Before

App. 172
jury selection, defense counsel proposed that
the parties should ask any questions of the
prospective jurors — even questions that did
not pertain to the death penalty — during
Hovey questioning. Defense counsel and the
prosecutor
had
“some
confusion
or
disagreement” in this regard because the
prosecutor
anticipated
asking
questions
pertaining only to the death penalty or to
confidential matters during Hovey questioning
and thus was “only selecting [prospective
jurors] for possible Hovey voir dire who have
questionable answers that need further
questioning as to [the] death penalty.” The trial
court ultimately agreed to follow the
prosecutor’s approach for Hovey questioning
and to provide the opportunity for the parties to
question the prospective jurors regarding other
matters during voir dire. The court, however,
expected that “there’s not going to be a lot of
questions” during voir dire since the parties
had received “most of the information from the
questionnaire.”
Then,
during
Hovey
questioning, the parties primarily questioned
the prospective jurors regarding the death
penalty but, at times, questioned the
prospective jurors regarding other matters.
After Hovey questioning, the court said, “I’m
gathering that there’s not going to be a whole
lot of individual questioning of these jurors,
that you’ve pretty much covered those that you
— the questions that you had from the
questionnaires.” Defense counsel responded
that he did not “have a need to ask any further
questions at all,” but if the prosecutor planned

App. 173
to ask any further questions, defense counsel
might “do a couple things.”
11

Also, the prosecutor did not strike Alternate
Juror No. 2, who was African-American and
was not upset by the O.J. Simpson verdict. The
Attorney General argues that this fact tends to
show that “the prosecutor was motivated by the
jurors’ individual views instead of their race.”
Alternate Juror No. 2 indeed checked “no” when
asked whether she was upset by the Simpson
verdict, but she explained, “The evidence was
there which told me he was guilty.” In light of
Alternate Juror No. 2’s explanation, it appears
possible that she simply checked the wrong box
when asked whether she was upset by the
Simpson verdict. Because Alternate Juror No.
2’s answer could be interpreted in any number
of ways on the cold appellate record, we find
that it is of little help in analyzing the sincerity
of the prosecutor’s reason.

12

In his reply brief, defendant engages in an
attenuated analysis concerning Juror No. 3 and
Juror No. 4’s respective responses to the related
question, “Have you ever worked with a group
of people to make a decision?” But defendant’s
attempt to parse that question from the related
question concerning whether a prospective
juror is a leader, and why, misses the point.
Juror No. 3 and Juror No. 4 did not declare a
preference for their opinion over other people’s
opinions,
making
their
responses
fundamentally distinguishable from Simeon
G.’s response.

App. 174
13

All Internet citations in this opinion are
archived by year, docket number, and case
name at <http://www.courts.ca.gov/38324.htm>.

14

The dissent states that “it is not clear why” the
circumstances
surrounding
Simeon
G.’s
attendance in court would have caused the
prosecutor to doubt Simeon G.’s responses in
court. (Dis. opn., post, 263 Cal.Rptr.3d at p.
231, 464 P.3d at p. 684.) The record shows that
Simeon G. arrived in court only after the trial
judge himself called his employer to try to
locate him. (See ante, at p. 263 Cal.Rptr.3d at p.
169, 464 P.3d at p. 632.) By any measure,
having a judge call your workplace to locate you
and have you come to court is unusual.
Whether these unusual circumstances affected
Simeon G.’s responses in court — as the
prosecutor suggested they did — is an
assessment that the trial court was best
positioned to make.

15

At the time of the prosecutor’s statement, Juror
No. 6 was seated in the jury box, but Alternate
Juror No. 5 was not. Although defendant does
not discuss this additional fact in his briefing,
we note that at the time of the prosecutor’s
statement, others seated in the jury box had
indicated that they were not upset by the
Simpson verdict but had provided varying
explanations
that likely
assuaged
the
prosecutor’s concern.

16

Although

defendant

does

not

raise

these

App. 175
comparisons, the dissent additionally compares
Simeon G.’s response to the responses by Juror
No. 4, Juror No. 7, and Alternate Juror No. 4.
(Dis. opn., post, 263 Cal.Rptr.3d at pp. 182–183,
464 P.3d at p. 644.) Juror No. 4 was not upset
by the O.J. Simpson verdict because
“su[r]prised, based on media-given facts, but
did not follow trial closely.” Juror No. 7 was not
upset by the verdict “since I can only judge from
T.V. I cannot give an honest opinion.” And
Alternate Juror No. 4 was not upset by the
verdict because “I did not hear the evidence.”
While a prospective juror’s response that he or
she was not upset by the O.J. Simpson verdict
may suggest that the prospective juror agreed
with that verdict, Juror No. 4, Juror No. 7, and
Alternate Juror No. 4 explained that they were
not upset by the verdict because they had
limited information about the case. These
explanations likely assuaged the prosecutor’s
concern.
17

Defendant repeats these comparisons in
arguing that Prospective Juror No. 63’s
responses were insufficient to justify his
excusal. Those comparisons fare no better.

18

Regarding the questionnaire’s introductory
paragraphs about the death penalty, he
checked “no” when asked to acknowledge that
he read and understood those paragraphs. It is
not apparent from the record whether he indeed
failed to read or understand those paragraphs
or simply checked “no” due to inadvertence.

App. 176
19

Defendant notes that Number 63 was not
directly “asked if he would be willing to set
aside whatever personal views he had and
follow the law given to him by the court.” “We
agree that the better practice is to ask such a
question. But the focus of our review is whether
there is substantial evidence to support a
conclusion that the juror would not be able to
set aside his or her personal feelings and follow
the trial court’s instructions concerning the
imposition of the death penalty.” (People v.
Jones (2017) 3 Cal.5th 583, 616, 220
Cal.Rptr.3d 618, 398 P.3d 529.)

20

We have since held that similar statements do
not suffice to preserve this objection on appeal.
(People v. McKinnon (2011) 52 Cal.4th 610, 643,
130 Cal.Rptr.3d 590, 259 P.3d 1186.) But this
rule does not apply retroactively here. (People v.
Cleveland (2004) 32 Cal.4th 704, 734–735, 11
Cal.Rptr.3d 236, 86 P.3d 302.)

21

During this line of questioning, Detective Lore
confirmed the following: the Christine C. police
report described the suspect as “Male — or
black male. 25 to 27. 6 feet 1. 150 [pounds]”; the
Osburn and Carole D. police report described
the suspect as “6 feet. 150 to 160 pounds. I
believe it’s brown hair. Brown eyes. And skin
was medium”; the Yenerall police report
described the suspect as “Male black. 30’s. 6
feet. Weight was medium”; the Heynen police
report described the suspect as “Black male.
Brown eyes. Height was 6 feet 1. Weight was
180 pounds”; the Kendrick and Crawfords

App. 177
police report described the suspect as “25 years.
Black male. Hair was black. Eyes were black.
Height was 6’4”. Weight was 160”; and the
Andersens police report described the suspect
as “male black. 20’s. 6 feet. 170 [pounds].”
22

To the extent that defendant challenges any
related omission concerning earlier suspects in
the investigation, “[t]he fact that law
enforcement had investigated other leads had
no bearing on whether probable cause existed
to issue the warrant to search [the defendant’s]
home and car.” (People v. Sandoval (2015) 62
Cal.4th 394, 408, 196 Cal.Rptr.3d 424, 363 P.3d
41.)

23

Defendant also claims that Detective Lore
previously detailed these suspect descriptions
in earlier affidavits for two other suspects in
the investigation and that Detective Lore’s
inconsistent approach regarding the suspect
descriptions within those affidavits and the
affidavit here evidenced a lack of good faith in
the affidavit here. But how Detective Lore
presented the suspect descriptions in earlier
affidavits for two other suspects does not alter
our conclusion that the affidavit here contained
no false statement and omitted no material
information regarding the suspect descriptions.

24

The prosecutor argued as follows: “Finally, we
have a fourth special circumstance. The murder
was intentional. Again, it has to be an, an
intentional murder. Not an implied malice
murder like with the first degree torture theory

App. 178
that we described earlier. Now we’re into the
torture special circumstance. Again, I know
there’s some overlapping words here, but to get
to torture first degree murder, which is what I
discussed a minute ago. [¶] Remember, the
murder, it has to be murder, but there doesn’t
have to be an intent to kill. To get to the special
circumstance first you have to find that there
was an intentional murder, and again we’ve
established, through the method of death, the
method of attack, the repetitive nature, again
the strangulation, we know the murder was
intentional. There’s no issue there.”
25

Later in his testimony, Canty acknowledged
that he subsequently reviewed the provision
and that the prosecutor had accurately recited
it. Canty testified that he did not recall the
provision until the prosecutor had recited it,
but acknowledged that he previously had
discussed the impact of a finding of
incompetency with his colleagues and the press.

26

In rebuttal, the defense offered testimony from
Dr. Ronald Roston to refute portions of Dr.
Moral’s testimony.

27

The prosecutor’s closing argument discussed
Canty’s possible motivations for the competency
trial, in approximately two transcript pages of
the total 32-page closing argument. In relevant
part, the prosecutor argued that Canty’s “role is
to use every legal means to insure [sic] that
Miles escapes the death penalty,” and reminded
the jury that Canty previously moved for a new

App. 179
penalty phase jury in another capital case and
that a finding of incompetence in this trial
would guarantee the same result. The
prosecutor urged the jury, “make no mistake
that the competency issue is played as a tactic,”
that Canty used that tactic earlier in this case,
and that “it is a tactic that gets played.” The
prosecutor later repeated, “[c]onsider that
[defendant’s] attorneys are doing the best they
can and they’re going to use every legal means
so that he avoids the death penalty.” The
defense did not object during the prosecutor’s
closing argument.
28

Nor did it disclose the content of any legal
opinions formed in the course of representing
defendant, as defendant contends.

29

When defendant committed his crimes and his
trial took place, “Penal Code section 1054.6
referred to Code of Civil Procedure former
section 2018, subdivision (c), which then stated
the absolute work product protection now
stated in Code of Civil Procedure section
2018.030, subdivision (a).” (People v. Zamudio
(2008) 43 Cal.4th 327, 355, fn. 14, 75
Cal.Rptr.3d 289, 181 P.3d 105.)

30

Even where “[j]uvenile adjudications are
inadmissible as evidence in aggravation ...
because they are not ‘prior felony convictions’
within the meaning of section 190.3, factor (c),”
violent “conduct underlying the adjudication is
relevant to the jury’s penalty determination
and admissible as violent criminal activity

App. 180
under [section 190.3] factor (b).” (People v.
Taylor (2010) 48 Cal.4th 574, 653, 108
Cal.Rptr.3d 87, 229 P.3d 12.)
31

Although defendant initially contended that he
also did not know whom Heynen identified in
the Boone photo lineup, defendant conceded
this point in his reply brief.

32

Even earlier in the case, the defense
successfully moved to quash an indictment on
the ground that evidence regarding earlier
identifications made by some witnesses had not
been presented to the grand jury. At that time,
the prosecutor acknowledged that certain
exculpatory evidence indeed had not been
presented.

33

Defendant asserts that the trial court did not
admonish Juror No. 12 to disregard the
headlines, but the Attorney General accurately
points out that the court incorporated its guilt
phase jury instructions into its penalty phase
jury instructions, including, “You must decide
all questions of fact in this case from the
evidence received in this trial and not from any
other source.”

34

In full, CALJIC No. 17.51.1 provided as follows:
“Members of the Jury: [¶] Two jurors have been
replaced by alternate jurors. [¶] The alternate
jurors were present during the presentation of
all of the evidence, arguments of counsel, and
reading of instructions, during the guilt phase
of the trial. However, the alternate jurors did

App. 181
not participate in the jury deliberations which
resulted in the verdicts and findings returned
by you to this point. For the purposes of this
penalty phase of the trial, the alternate jurors
must accept as having been proved beyond a
reasonable doubt, those guilty verdicts and true
findings rendered by the jury in the guilt phase
of this trial. Your function now is to determine,
along with the other jurors, in light of the prior
verdict or verdicts, and findings, and the
evidence and law, what penalty should be
imposed. Each of you who now compose the jury
must participate fully in the deliberations,
including any review as may be necessary of the
evidence presented in the guilt phase of the
trial.”
35

The trial court in this case gave CALJIC No.
8.85, which we have held to sufficiently cover
the concept of lingering doubt. (See People v.
Enraca (2012) 53 Cal.4th 735, 767–768, 137
Cal.Rptr.3d 117, 269 P.3d 543.)

App. 182

APPENDIX B
Transcript
Batson Hearing Before Hon. James A.
Edwards,
San Bernardino County Superior Court
(Nov. 19, 1998)
1719
1

MR. FERGUSON: Juror Number 10, please.

2

THE COURT: Number 10. Thank you very
much. You

3

may be excused at this time.

4

PROSPECTIVE JUROR: Thank you.

5

MR. CANTY: Your honor, I'd request a
sidebar.

6

THE COURT: Okay.

7

This is probably something we need to do out
of the

8

presence. All right, ladies and gentlemen,
you're going to kill

9

me, but I think we're going to have to ask you
to step outside

10

in the hallway for just a few minutes if you
would, please.

11

App. 183
12

(The following proceedings were held in open
court

13

out of the presence of the prospective jurors.)

14
15

THE COURT: Mr. Canty?

16

MR. CANTY: Your honor, at this time I would
raise

17

a Wheeler/Batson issue. I would make a
motion that the Court

18

require the prosecutor to state his reasons for
excusing juror

19

Kevin Copeland, Simeon Greene, and Isabella
Brazier. Each of

20

these is an African American. Of the six
peremptories the

21

prosecutor has exercised, three of them have
been against

22

African Americans. Every African American
who has been on the

23

panel has been perempted by the People, with
the exception of

24

the one, the fourth one, who basically said he
couldn't be fair

25

and was excused for cause. And I believe that
three out of six,

App. 184
26

every black that comes up, indicates a pattern
such that the

27

Court should make an inquiry as to the
reasons for excusal.

28

THE COURT: I think you're going to have to

1720
1

explain, Mr. Ferguson.

2

MR. FERGUSON: Well, is the Court, is the
Court

3

making a prima facie finding?

4

THE COURT: Yes.

5

MR. FERGUSON: Well, I would, with respect
to --

6

THE COURT: I understand Miss Brazier from
her

7

answers, discussions, and conversation during
the Hovey.

8

I don't understand as to Copeland and as to
Greene. You'll

9

have to explain those.

10

MR. FERGUSON: Mr. Copeland in his
questionnaire

11

compared DNA to a polygraph. That it wasn't
a for sure thing.

App. 185
12

His answers on the questionnaire regarding
the death penalty

13

were much more tentative. He indicated
questions like he wants

14

to decide who is in society, but not whose on
earth. He was

15

very skeptical of the O.J. Simpson case.
He stated biases

16

created the circumstantial evidence in the
O.J. Simpson case.

17

This is a DNA case very much like that.
It's a circumstantial

18

case. It's a DNA case. Those, those are the
main concerns that

19

I had.

20

I think that in person his, his statements
about

21

the death penalty didn't rise to a level for
cause; but,

22

however, I think when you take the totality of
his responses, I

23

think, I mean those are essentially the
reasons that I'm

24

stating.

App. 186
25

Regarding the first individual, he made
statements

26

on his questionnaire how he likes his opinions
over others. He

27

did make a statement, although he explained
it differently in

28

court, he made a
questionnaire basically

statement

on

his

1721
1

if I have a feeling he didn't do it, he's not
guilty. And he

2

had crossed out the word doubt, which led me
to believe that he

3

certainly wasn't going to base it on evidence.

4

And I, also, would note that this is an
individual

5

who the Court personally tracked down this
morning. He didn't

6

have -- he, unlike others in his group, didn't
show up for court

7

this morning. I would be concerned about his
responses in light

8

of the fact that he was, he was singlehandedly hunted down to

App. 187
9

be here this afternoon. So, I'm not sure that
his responses in

10

court should prevail over the answers he gave
on his

11

questionnaire. But certainly those statements
on his

12

questionnaire
concerns.

13

THE COURT: His answer being that if he had
a

14

feeling the defendant was not guilty, that was
the answer that

15

bothered you?

16

MR. FERGUSON: Yes, based on -- and he had
crossed

17

out the word doubt. And to me that made it
sound like he was

18

going to be basically basing it on a hunch, or a
feeling, which

19

was, as the presenter of evidence, I'm
powerless to overcome.

20

And that was the main concern on that.

21

Also, he was not upset by the O.J. Simpson
verdict.

cause me

some

significant

App. 188
22

If you'll notice across the board, I've excused
jurors I believe

23

of Hispanic origin and Caucasian origin, and
the common

24

denominator, essentially, is that they were
not, were not upset

25

by the O.J. Simpson verdict, which was a
DNA, circumstantial

26

case. And I think those,
significant concerns in my

27

mind as a guilt phase juror and the type of
case that I'm

28

dealing with.

those

raise

1722
1

MR. CANTY: Your honor, Mr. Greene, as you
know,

2

was here this afternoon, because apparently
he had a

3

misunderstanding about whether he was
supposed to be here today

4

or tomorrow. Once it
appeared. Mr. Greene

5

checked on his questionnaire with regard to
the death penalty

was

clarified,

he

App. 189
6

that he's a Group 2, that he favors the death
penalty, but would

7

weigh
and
circumstances.

8

He really doesn't give any answers that
suggest

9

that he couldn't be fair and impartial. He
indicates that his

10

father was a D.E.A. agent.

11

With regard to DNA, he said he didn't know
anything

12

about it.

13

THE COURT: Well, I understand that there's

14

certainly not enough there to excuse him for
cause, but that's

15

not the test that I have to utilize in this
situation. I have

16

to determine whether or not there are valid,
legitimate reasons

17

for the District Attorney dismissing three of
the four Blacks

18

that were called to the box.

19

As I indicated,
understand

consider

as

to

Miss

aggravating

Brazier,

I

App. 190
20

his concern there. As to Mr. Copeland and Mr.
Greene, I think

21

it's certainly not as obvious, but I cannot say it
is not

22

legitimate.

23

So, at this point in time, I will make a finding

24

that there have been valid reasons to justify
excusing those

25

three prospective jurors
peremptory challenge.

26

But I don't need to remind counsel that we're
treading on thin

27

ice in this area, and the consequences of
falling through means

28

we start all over again.

pursuant

to

a

1723
1

All right. Let's bring the panel back in.

2

MR. FERGUSON: Well --

3

MR. CANTY: For the record, and I understand
the

4

Court --

5

THE COURT: Wait a minute, Mike.

6

MR. CANTY: I'm sorry, your honor.
wanted

I

just

App. 191
7

to make the record clear that it is my motion
that the Court

8

make a finding that
challenges have been

9

exercised for racial reasons, and it is my
motion that the Court

10

quash the current panel.

11

THE COURT: All right. That motion will be
denied.

the

peremptory

KATHY O. TESSELAAR, OFFICIAL REPORTER

App

$33(1',;&
2UGHUIURPWKH&DOLIRUQLD6XSUHPH&RXUW
5HKHDULQJ(Q%DQF'HQLHG
-XO\
05/28/2020 Opinion filed: Majority Opinion by Groban, J.
Judgment
----- joined by Cantil-Sakauye, C. J., Chin,
affirmed in full Corrigan, Cuéllar, and Kruger, J.J.
Dissenting Opinion by Liu, J
06/09/2020 Rehearing
petition filed

Defendant and Appellant: Johnny Duane
Miles
Attorney: Cliff Gardner (2,562 words; 10 pp.)

06/09/2020 Time
extended to
consider
modification
or rehearing

The time for granting or denying rehearing in
the above-entitled case is hereby extended to
and including August 26, 2020 or the date
upon which rehearing is either granted or
denied, whichever occurs first.

06/11/2020 Received:

Letter from appellant's counsel, dated June
11, 2020, re: appellant's petition for rehearing

07/15/2020 Rehearing
denied
07/15/2020 Remittitur
issued
07/20/2020 Received:

Acknowledgment for receipt of remittitur

08/04/2020 Exhibit(s)
returned

to superior court.

08/10/2020 Received:

acknowledgment receipt for exhibit

Click here to request automatic e-mail notifications about this case.

Careers | Contact Us |
© 2020 Judicial Council of California
Accessibility | Public Access to Records | Terms of Use |
Privacy

